<html>
<title> - SBINET: DOES IT PASS THE BORDER SECURITY TEST? PARTS I AND II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
     SBINET: DOES IT PASS THE BORDER SECURITY TEST? PARTS I AND II 

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                with the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                    MARCH 18, 2010 and JUNE 17, 2010

                               __________

                           Serial No. 110-59

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

58-303 PDF                       WASHINGTON : 2011

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                     COMMITTEE ON HOMELAND SECURITY
                             March 18, 2010

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana***
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico*           Steve Austria, Ohio
William L. Owens, New York**
Bill Pascrell, Jr., New Jersey
Emmanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, U.S. Virgin Islands
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

* Mr. Ben Ray Lujan of New Mexico resigned as a Member of the Committee 
on Homeland Security May 5, 2010.
** Appointment of Mr. William L. Owens of New York to after Ms. Dina 
Titus of New York pursuant to H. Res. 1334, May 6, 2010.
*** Mr. Mark E. Souder of Indiana resigned as a Member of the House of 
Representatives, May 21, 2010.
     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM
                             March 18, 2010

                    Henry Cuellar, Texas, Chairwoman
Loretta Sanchez, California          Mark E. Souder, Indiana
Jane Harman, California              Michael T. McCaul, Texas
Zoe Lofgren, California              Gus M. Bilirakis, Florida
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
Ann Kirkpatrick, Arizona             Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Al Green, Texas                          Officio)
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Alison Northop, Staff Director
                          Nikki Hadder, Clerk
                Mandy Bowers, Minority Subcommittee Lead

                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT
                             March 18, 2010

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead
     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM
                             June 17, 2010

                    Henry Cuellar, Texas, Chairwoman
Loretta Sanchez, California          Candice S. Miller, Michigan
Jane Harman, California              Michael T. McCaul, Texas
Zoe Lofgren, California              Gus M. Bilirakis, Florida
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
Ann Kirkpatrick, Arizona             Lamar Smith, Texas
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Al Green, Texas                          Officio)
Vacancy
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                     Alison Northop, Staff Director
                          Nikki Hadder, Clerk
                Mandy Bowers, Minority Subcommittee Lead

                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT
                             June 17, 2010

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

                             March 18, 2010

The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Border, 
  Maritime, and Global Counterterrorism..........................     1
The Honorable Mark E. Souder, a Representative in Congress from 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism:
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     3
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     6

                               WITNESSES

Mr. Mark Borkowski, Executive Director, Secure Border Initiative 
  Program Executive Office, U.S. Customs and Border Protection, 
  Department of Homeland Security, Accompanied by Michael J. 
  Fisher, Acting Chief, U.S. Border Patrol, U.S. Customs and 
  Border Protection, Department of Homeland Security:
  Oral Statement.................................................     8
  Joint Prepared Statement.......................................    10
Mr. Randolph C. Hite, Director, IT Architecture & Systems Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Roger A. Krone, President, Network and Space Systems, Boeing 
  Defense, Space & Security, The Boeing Company:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                             FOR THE RECORD

The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Slide..........................................................    30

                               STATEMENTS
                             June 17, 2010

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................    50
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................    55
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Border, 
  Maritime, and Global Counterterrorism:
  Oral Statement.................................................    50
  Prepared Statement.............................................    52
The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................    53

                               WITNESSES

Mr. Randolph C. Hite, Director, IT Architecture & Systems Issues, 
  U.S. Government Accountability Office:
  Oral Statement.................................................    56
  Prepared Statement.............................................    58
Mr. Mark Borkowski, Executive Director, Secure Border Initiative 
  Program Executive Office, U.S. Customs and Border Protection, 
  Department of Homeland Security, Accompanied by Michael J. 
  Fisher, Chief, U.S. Border Patrol, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................    63
  Prepared Statement.............................................    65
Mr. Roger A. Krone, President, Network and Space Systems, Boeing 
  Defense, Space & Security, The Boeing Company:
  Oral Statement.................................................    68
  Prepared Statement.............................................    69


         SBINET: DOES IT PASS THE BORDER SECURITY TEST? PART I

                              ----------                              


                        Thursday, March 18, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                 joint with
                Subcommittee on Management, Investigations,
                                             and Oversight,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the Subcommittee on Border, Maritime, and Global 
Counterterrorism] presiding.
    Present from the Subcommittee on Border, Maritime, and 
Global Counterterrorism: Representatives Cuellar, Thompson, 
Pascrell, Kirkpatrick, Bilirakis, and McCaul.
    Present from the Subcommittee on Management, 
Investigations, and Oversight: Representatives Carney, 
Thompson, Pascrell, Kilroy, and Bilirakis.
    Mr. Cuellar [presiding]. The subcommittees will come to 
order. The Subcommittee on Border, Maritime, and Global 
Counterterrorism and the Subcommittee on Management, 
Investigations, and Oversight are called to meeting today to 
receive testimony on ``SBInet: Does It Pass the Border Security 
Test?''
    Today the subcommittees are meeting to examine SBInet, the 
Department of Homeland Security's latest effort to secure our 
Nation's borders using technology.
    As a Member of Congress, I represent a district along the 
U.S.-Mexico border, and I have been interested in this program 
since its inception 4.5--or 4.5 years ago. I believe strongly 
that technology does play a vital role in securing our border, 
Americans' border.
    Unfortunately, as you all know, I think we all agree, that 
SBInet has had some technological problems and deployment 
delays from the start.
    Bottom line is that this hasn't had a good return on the 
investment--when you look at SBInet. In fact, to date only 28 
miles of SBInet technology has actually been deployed along the 
border. Even those miles known as Project 28, it is of limited 
operational value.
    The slow pace of deployment has frustrated many of us, 
especially in the face of the escalating drug trafficking and 
violence just across the southern border.
    At the rate of 28 miles every 4.5 years, we did a little 
calculation. Twenty-eight miles every 4.5 years, it would take 
us 320 years, or until the year 2030, to deploy the SBInet 
technology across the Southwest border, using the pace we have 
been going. If you look at the amount of dollars, I think it is 
somewhere between $600 million, $700 million, you can do the 
calculation also if you want to cover the whole Southwest 
border.
    I know that Secretary Napolitano understands what the 
stakes are. As a former border Governor, she understands what 
we are dealing with. We had an opportunity yesterday, Mr. 
Chairman, as we flew down to the Federal training center in 
Georgia and got to spend a little time in talking to her about 
this particular issue.
    We all agree we have to deploy security swiftly but 
effectively. That is why I am pleased to have a witness from 
the Government Accountability Office before us. Mr. Hite will 
discuss the results of the latest in a series of Security 
Border Initiative engagements the GAO has conducted at the 
request of the Committee on Homeland Security.
    We want to thank you, Mr. Chairman, Chairman Thompson.
    I am concerned about the GAO's finding that the number of 
new defects identified in the SBInet is generally increasing 
faster than the numbers are being fixed, meaning we are taking 
one step forward, yet two steps back. Certainly interested in 
the testimony that will be given by all the witnesses on this 
particular point.
    I am also troubled by the GAO's finding that changes made 
to certain tests and procedures appeared to be designed to 
``pass the test, instead of being designed to qualify the 
system.''
    If tests are being rigged, how do we know that the Border 
Patrol won't ultimately be stuck with technology deserves a 
failing grade.
    Over the years GAO has conducted about 17 reviews, and I 
emphasize 17 reviews, of DHS border security technology 
deployment. While the DHS generally concurs with the GAO's 
recommendations, DHS hasn't always followed the 
recommendations. I know there is different stages that we are, 
but I think the last ones were about eight recommendations 
about 18 months ago, and we still believe DHS is still working 
on them.
    I hope that the Department will take this recommendation 
seriously in the future on all the findings, now that we have 
heard from Secretary Napolitano's recent announcement on the 
SBInet, and certainly I support using the $50 million in 
stimulus funds to purchase proven border security technology on 
the border. I agree that we should be completing the on-going 
deployments before deciding on or whether to proceed with 
SBInet.
    At the same time, I am concerned with the announcement that 
this is a signal that SBInet is about to follow suit of its two 
failed predecessor programs, the--and the American Shield 
Initiative. I hope the Department is working on a Plan B, if 
that is the case, because those along the border have waited 
long enough for security--for a security solution that works on 
the border.
    Looking forward, I hope that Secretary Napolitano will 
continue to look at other technology. For example, the UAV that 
I know Michael McCaul and other folks--Texas have been working 
on, requesting the UAVs along the Texas border, because that 
covers about 1,200 miles of the whole U.S.-Mexico border.
    As part of this--technology we ought to look at all this 
technology, and I certainly feel that UAVs will be a way to 
fill some of the gaps that the SBInet might not cover, 
something to consider for the future, and of course, you know, 
especially with this recent violence that we have had across 
the river, escalated violence we have.
    In closing, I would like to express my appreciation to 
Chairman Thompson, who has provided the leadership to this 
committee and on this particular issue.
    Thank you, Mr. Chairman Thompson.
    Chairman Carney, who does the oversight and management, has 
done an excellent job, and certainly we look forward working 
with him.
    Also the former subcommittee Chairwoman, Loretta Sanchez, 
for her longstanding efforts on this important issue. I 
certainly want to thank her for all the foundation work that 
she has done.
    Again, I want to thank all the witnesses for joining us 
here today, and I look forward to the testimony.
    The Chair now recognizes--we don't have the Ranking Member, 
Mr. Souder, so if it is okay with Michael McCaul, we will now 
recognize the Chairman of the Management, Investigations, 
Oversight Subcommittee, the gentleman from Pennsylvania, for an 
opening statement.
    Mr. Carney. Thank you, Mr. Chairman.
    I would like to thank you and your subcommittee for 
agreeing to work with my subcommittee on this very important 
issue.
    Today we are here to examine efforts to secure the Nation's 
borders through the Secure Border Initiative, or SBInet. The 
Management, Investigations, and Oversight Subcommittee that I 
chair has held multiple hearings and briefings on this issue, 
including two joint subcommittee hearings in the 110th 
Congress.
    I continue to be greatly concerned that the SBInet will 
continue to cost U.S. taxpayers hundreds of millions of dollars 
while not providing the services we were sold at the inception 
of the program.
    I am also concerned that deadlines continue to be set for 
the program, only to be extended later.
    I would like to commend Secretary Napolitano for ordering a 
reassessment of SBInet. I also agree with her decision to 
redirect the $50 million Recovery Act funding originally 
located for SBInet instead of funding other tested, 
commercially available security technology along the border.
    It is my hope that the Department will work quickly on this 
reassessment and soon deliver a solution that once and for all 
will secure our borders in a timely and a cost-effective 
manner.
    I would have to echo the sentiments of my colleague, Mr. 
Cuellar, on the use of UAVs. I think that is a technology that 
could be put to great use at a very effective cost, to be quite 
honest.
    I am extremely interested in discussing with our witnesses 
the GAO's latest SBInet report entitled ``Secure Border 
Initiative: DHS Needs to Address Testing and Performance 
Limitations that Place Key Technology Programs at Risk.''
    In this report, the GAO was asked to determine whether 
SBInet testing has been effectively managed, planned, and 
executed. GAO was also asked to analyze the test results.
    Some of the major findings of the report are as follows.
    One, DHS has not effectively managed key aspects of SBI 
testing.
    Two, there is key evidence to suggest that changes made to 
system qualification tests and procedures were designed to pass 
the test instead of being designed to qualify the system.
    From March 2008 to July 2009, about 1,300 SBI defects were 
found, with the number of new defects outpacing those being 
fixed. This is a signal that the system is worsening.
    Given that key test events have yet to occur and other 
problems will likely surface, it is important for DHS to 
improve its procedures to address these problems. If it does 
not, it is unlikely that SBInet will meet the Border Patrol's 
needs and expectations, and it will continue to erode its 
support in this Congress.
    SBInet has been plagued with a number of technology and 
systems integration issues, and therefore has so far failed to 
live up to its billing by the Department and by Boeing. 
SBInet's continued failure to meet expectations brings to mind 
the Department's previous failed attempts at border security 
technology programs. The Obama administration must assess the 
system it inherited and determine whether to continue to move 
forward with SBInet or to pursue other technology solutions as 
part of its border security strategy.
    Over $1.1 billion have been spent on the Secure Border 
Initiative, and over $800 million has been spent on SBI alone. 
I have to ask: Does it make sense for us to keep throwing money 
at a program with so many problems? Maybe an even better 
question is: Do we get a refund?
    I thank the witnesses for their participation, and I look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, thank you, Mr. Carney.
    At this time, the Chair will recognize the Chairman of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like to thank both of you for holding this very 
important hearing.
    I am pleased that while the Department is undergoing its 
analysis of the SBInet program, we are also conducting very 
rigorous oversight and holding hearings regarding the viability 
of this costly effort. This committee has conducted 11 hearings 
on SBI-related issues in an effort to ensure that taxpayers' 
funds are being properly utilized for the execution of this 
program.
    Earlier this week, Secretary Napolitano announced that the 
Department of Homeland Security is freezing all SBInet funding 
until a full and comprehensive assessment of the program has 
been conducted. It is vitally important to the security of this 
country that we continue to utilize technology at our borders.
    However, based on the reasons given by the Secretary for 
reaching her decision, continued and repeated delays of SBInet 
and its exorbitant costs, I agree with the Secretary's decision 
to take a closer look at SBInet to determine whether it is a 
viable option for securing our borders.
    Approximately 4 years ago, DHS awarded a contract to Boeing 
to help secure our Nation's borders by using technology to 
create a virtual fence. Four-and-a-half years and over $800 
million later, we are still without an effective technological 
tool to secure our borders. Even more troubling, we are now 
faced with the question of whether this program should even 
proceed.
    The Government Accountability Office has pointed out time 
and time again the reasons the taxpayers have not seen a true 
return on their investment. From poor planning and testing to 
inadequate oversight and user input, we could go on and on 
about what this administration inherited. Today, GAO is 
releasing yet another report on the program. This report, which 
focuses on the testing of SBInet systems, once again reveals 
that SBInet has more problems than solutions.
    For example, according to the report, from March 2008 to 
July 2009, over 1,300 defects were found in the SBInet system. 
During that same time, the number of new defects uncovered grew 
at a faster rate than the ability to fix those that had already 
been found. Moreover, more than 70 percent of the testing 
procedures were rewritten as they were being executed because 
the procedures that had been approved were not adequate. This 
type of on-the-fly management lacks the quality and assurance 
that is needed to assure effective testing and calls into 
question whether the results would have been worse had these 
changes not been made.
    Furthermore, Border Patrol operators, the ultimate user of 
SBInet, found among other things that the radar systems were 
inadequate, many of the cameras were operationally 
insufficient, and the quality of the video feed was blurry and 
inconsistent. As a result, further delays on top of the delays 
the program has already experienced are expected.
    There is a saying that goes ``how you practice is how you 
perform.'' If the test results are an indication of how SBInet 
will perform, we will be exactly where we are 4 years ago--that 
is, without an effective technological solution for 
identifying, deterring, and responding to illegal breaches 
between border ports of entry.
    Let me also note that I am extremely displeased with the 
fact that $833 million has been spent on SBInet without the 
full utilization of small businesses. Both the number of small 
businesses and small disadvantaged businesses that were used 
were below target. Moreover, women-owned small businesses in 
addition to service-connected disabled veterans-owned small 
businesses were significantly below the target rate. This is 
unacceptable. I am especially interested in hearing from Boeing 
on this issue.
    I thank the witnesses for being here today. I look forward 
to your testimony. Again, I thank both chairmen for conducting 
this joint hearing.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, I will recognize Mr. McCaul, the gentleman 
from Texas. He had a statement. Okay. He had a statement for 
Mr. Souder.
    So at this time, I will recognize Mr. Bilirakis for an 
opening statement.
    Mr. Bilirakis. Thank you very much. I would like to submit 
Mr. Souder's statement for the record, if that is okay.
    Mr. Cuellar. Without objection.
    [The statement of Mr. Souder follows:]
          Prepared Statement of Ranking Member Mark E. Souder
                             march 18, 2010
    The Secure Border Initiative Network was announced in 2005 and 
promised the capability to secure our borders, at least our southern 
border, by 2013. Over the past 5 years, we have had close to a dozen 
hearings on SBInet and border security. I have to say that this is the 
first time that I've actually felt concern about the commitment from 
the Department to find a solution to secure the borders.
    During the hearing with Secretary Napolitano 3 weeks ago on the DHS 
fiscal year 2011 budget request, I highlighted the flat-lining of 
progress for gaining control of the border. According to CBP, we have 
just over 900 miles under control and the goal is just to main that 
through 2011. Now, with the announcement by the Secretary on Tuesday to 
scale back and halt SBInet, I'm concerned that there is a chance we 
could actually lose ground and have fewer miles under control.
    I can't say whether SBInet should be continued or expanded or 
halted. What I do know is that this Department has announced cutbacks 
and has not provided any other plans or vision for enhancing security.
    I appreciate that the Secretary included a plan in her Tuesday 
announcement to redirect $50 million in Stimulus funds from SBInet to 
purchase other technologies for use on the border. However, spending 
funds on uncoordinated purchases that don't fit into a larger strategy 
are not significantly better than where we are today.
    I'm greatly concerned that we are not keeping the big picture in 
mind. Securing the border matters. Gaining operational control is 
critical.
    Border violence is still a concern and we've all been reminded of 
that with the tragic murders of three people with ties to the U.S. 
Consulate last weekend. Drugs are coming across the border every day. 
And we have a report that in the past year at least 270 Somalis have 
illegally crossed the southwest border.
    Where is the urgency?
    My main questions for this hearing are:
  <bullet> What is the strategy for securing the border?
  <bullet> How long will it take?
  <bullet> And, is this timeline acceptable?
    Who would have ever thought that building hundreds of miles of 
actual fence would be easier and faster than deploying a camera and 
radar system? The issue of fencing is something we need to take another 
look at if we are no longer going to have a virtual fence.
    Mr. Chairman, I know that you are as committed to finding a 
solution for securing the border. It seems that a lot is in flux at DHS 
right now regarding how to move forward. I would like to request that 
we look into holding a hearing on how all of these different pieces--
fencing, SBInet, alternative technologies, etc.--fit together into a 
cohesive plan.
    Thank you. I yield back my time.

    Mr. Bilirakis. Thank you, thank you.
    Thank you, Chairman Cuellar and Chairman Carney, and of 
course our overall Chair, our general Chair. I am pleased the 
subcommittees are meeting today to continue our oversight of 
the SBInet program. Nearly 5 years since the first announcement 
of the program, we have little to show for the more than $1 
billion we have spent to install detection and surveillance 
technology along the border.
    This program has experienced unacceptable cost overruns and 
delays and is in desperate need of better management by the 
Department and performance by the contractor. It is 
unacceptable that we do not have better control over our 
borders. At the end of fiscal year 2009, the Department 
reported that it has effective control over only 936 miles of 
the more than 6,000 miles of the U.S. border.
    While the Border Patrol intends to maintain control of 
these miles in fiscal years 2010 and 2011, they do not intend 
to add any additional miles of effective control. Frankly, I 
think we can do much better.
    Secretary Napolitano stated earlier this week, and I 
quote--``Not only do we have an obligation to secure our 
borders, we have a responsibility to do so in the most 
effective way possible,'' and as a result, has frozen all 
SBInet funding beyond the Block 1 deployment and redeployed 
Recovery Act funding originally designated for SBInet to other 
border security technologies.
    I share Secretary Napolitano's desire to be good stewards 
of taxpayer dollars as we work to secure our borders. However, 
I hope that this announcement is not an indication that the 
Department is scaling back its commitment to secure the entire 
border. We need to ensure that we have a comprehensive and 
coordinated strategy to secure our borders.
    I am particularly interested in hearing from Mr. Borkowski 
about the status of the SBInet review mandated by the Secretary 
and where the alternative technologies procured with the 
Recovery Act funds, such as the mobile surveillance systems and 
the remote video surveillance systems, will be deployed. I 
would also like to hear from Chief Fisher about how the 
Secretary's recent announcement impacts the Border Patrol 
operations.
    Mr. Chairman, we cannot declare defeat in our efforts to 
strengthen border security. We must use the lessons learned 
from our prior investments in SBInet. We must leverage these 
capabilities to develop a coordinated border security strategy 
that will allow us to achieve effective control of as much of 
the border as we can as soon as possible, and of course, in the 
most cost-effective manner.
    Thank you, Mr Chairman. I yield back the balance of my 
time.
    Mr. Cuellar. Thank you. I thank the gentleman from Florida 
for his opening statement.
    Other Members of the subcommittee are reminded that under 
the committee rules, opening statements may be submitted for 
the record.
    At this time, I welcome our panel of witnesses. Thank you 
very much for being here with us.
    Our first witness is Chief Michael Fisher, who was named 
acting chief of the Border Patrol on January 3 of this year, 
2010. Congratulations and welcome, Mr. Fisher. Prior to this 
appointment, he served as the chief of Border Patrol at the San 
Diego sector.
    Chief Fisher started his duty along the southwest border in 
1987 in Douglas, Arizona. After completion of the selection 
process for the Border Patrol's tactical unit in 1990, he was 
selected as the field operations supervisor for the tactical 
unit assigned to El Paso. Chief Fisher has also served in 
Detroit, Tucson, and at the Border Patrol headquarters.
    Again, congratulations on your appointment and welcome 
here.
    Our second witness is Mr. Mark Borkowski, that was named 
executive director of the Secure Border Initiative program in 
October, 2008. Again, welcome. Mr. Borkowski oversees the SBI 
implementation at Customs and Border Protection.
    Previously, he served as the executive director for mission 
support at the Border Patrol headquarters. Before joining CBP, 
you were also a program executive for the robotics lunar 
exploration program at NASA headquarters.
    Again, thank you for the work that you have done.
    Our third witness is Mr. Randolph Hite, who is the director 
of information technology architecture and systems issues at 
GAO, where he is responsible for the GAO's work on IT issues 
across Government, concerning architecture and systems 
acquisitions, development, operations, and maintenance.
    During his 30-year career with GAO, Mr. Hite has directed 
the reviews of major Federal IT investments, including DHS 
border security modernization programs.
    Again, Mr. Hite, thank you and welcome.
    Our fourth witness is Mr. Roger Krone, who is the president 
of network and space systems for Boeing Company. Again, 
welcome.
    Before the formation of the network and space systems, Mr. 
Krone was vice president and general manager of Boeing's Army 
Systems Division.
    He has held several other business management and finance 
positions in Boeing's U.S. Army programs and military 
rotorcraft and Boeing's military aircraft and missile systems.
    Again, Mr. Krone, thank you very much for being here and 
welcome.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask the witnesses to summarize 
their statements for 5 minutes, beginning with Mr. Borkowski, 
who will provide testimony for himself and for Chief Fisher.
    So, Mr. Borkowski, thank you again, and you are welcome to 
start.

STATEMENT OF MARK BORKOWSKI, EXECUTIVE DIRECTOR, SECURE BORDER 
 INITIATIVE PROGRAM EXECUTIVE OFFICE, U.S. CUSTOMS AND BORDER 
  PROTECTION, DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED BY 
   MICHAEL J. FISHER, ACTING CHIEF, U.S. BORDER PATROL, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Mr. Chairman.
    Chairman Cueller, Chairman Carney, Chairman Thompson, 
Ranking Member Souder and Ranking Member Bilirakis, 
distinguished Members of the committee, we appreciate very much 
the opportunity to come here and talk to you today about the 
status of SBInet.
    With me is Acting Chief Michael Fisher of the United States 
Border Patrol. As you indicated, I will give a quick summary of 
our joint statement here.
    First, I want to talk about the assessment. As you 
suggested, Mr. Chairman, the Secretary has announced an 
extensive Department-wide assessment of the program. She did 
this based on what she has seen over the last several months. 
As you know, she is a former Governor of Arizona, and she was 
familiar with the promise and the potential of SBInet, but she 
was also familiar with the fact that it has not performed to 
that promise to this point.
    As a result of that, she has worked with CBP, and in 
particular the past acting commissioner, Mr. Hearn, to 
understand and to assess the path forward. Based on that 
assessment and based on what she has learned over those months, 
in January she directed a full Departmental-wide assessment of 
the SBInet program.
    In doing that, she had two major considerations. One, which 
we have spoken about here already in your opening statements, 
is the fact that the program has been delayed significantly. 
Those delays raise significant questions about the viability 
and the ultimate availability of this system to support the 
very critical mission of border security.
    The second concern, which, frankly, probably would have 
existed even if SBInet had performed flawlessly, gets to the 
question of the cost of the system and the basis on which we 
would conclude that we would spend this money on this system 
when there are alternative technologies that are less costly 
and maybe ought to be traded off.
    So those two things led to this assessment. The first, get 
a status of the program and a prediction or an assessment of 
whether or not it is really viable. But secondly, is it really 
cost-effective?
    The assessment will have two phases, a near-term and I 
think, as you mentioned, Mr. Chairman, the diversion of SBInet 
funds to near-term technology immediately is part of that near-
term. Obviously, there is an urgent need for technology. The 
Secretary understands that and has directed us to meet that 
urgent need through the diversion of those funds.
    The long-term assessment is the broader question about 
whether or not SBInet as it stands is an effective option and 
is cost-effective. The Secretary has directed that that will be 
a science-based assessment, up to the normal industry standards 
for these kinds of assessments, for these kinds of investments.
    She has indicated very clearly that it does not make sense 
to make investments of that magnitude that can't be defended 
and supported by a science-based assessment.
    Now, SBInet, if it proves to be viable, will be a candidate 
and may continue; but if SBInet is not viable and is not cost-
effective, obviously, SBInet will not continue. That is why she 
has frozen funds. She has directed us to continue Tucson-1 and 
Ajo-1, which we will talk about, but not to spend any more 
money until she has decided whether that is the right place to 
spend it or it should be diverted to other technology.
    I would emphasize that this is not a cancellation of 
technology. The Secretary has been very clear in saying that we 
must have technology. The question is, what technology should 
that be?
    With that, let me go briefly to SBInet Block 1, which is 
the development, the relatively expensive system, and it is 
designed to go across all of Arizona.
    We are currently building the first two increments of that, 
into areas called Tucson-1 and Ajo-1. Block 1 continues past 
that into the rest of Arizona, but those are the funds that are 
frozen, the ones past Tucson-1 and Ajo-1.
    Tucson-1 is built and constructed. We had intended to have 
it completely tested by now, and we do not, and we will welcome 
questions about and attempt to explain where that is.
    However, we have worked hard over the last year to improve 
the system, and it is fairly solid. So starting February 6, we 
actually turned it over to the Border Patrol for night 
operations, and it has been--the feedback from the Border 
Patrol has been very positive.
    So we think that is a very encouraging turn of events, but 
of course it is not the end of the story until we complete 
testing, and I know Chief Fisher will look forward to answering 
your questions about the results with Tucson-1.
    Ajo-1, which is the second deployment, has started 
construction. Part of the point of Ajo-1 is to build that in 
what is a very critical area of the border, but also to see if 
the recurring costs, the repeated costs, the costs for the next 
deployment, will or will not mimic the kind of cost experience 
that we have seen in the past that both Chairman Carney and 
Chairman Cuellar reflected.
    So that is the current status of the program. We look 
forward to answering your questions. We recognize that the 
program has been seriously delayed. We look forward to the 
assessment of the Secretary. The Secretary obviously shares 
your concern and we look forward to your questions.
    Thank you, Mr. Chairman.
    [The joint statement of Mr. Borkowski and Mr. Fisher 
follows:]
     Joint Prepared Statement of Mark Borkowski and Michael Fisher
                             March 18, 2010
    Chairman Cuellar, Chairman Carney, Ranking Member Souder, Ranking 
Member Bilirakis, and distinguished Members of the committee, it is a 
privilege and an honor to appear before you today to discuss SBInet. I 
am Mark Borkowski, Executive Director of the Secure Border Initiative, 
and with me today is Acting Chief of the United States Border Patrol, 
Michael Fisher.
                      departmental-wide assessment
    Before I begin to discuss where we are with SBInet development, I 
want to briefly discuss the Department-wide reassessment that was 
ordered by the Secretary back in January. As the Governor of Arizona, 
Secretary Napolitano became uniquely aware of the promises that were 
made about SBInet and the shortfalls it has faced. When she came into 
the Department, she took a hard look at our progress with SBInet. She 
gave my team at CBP a fair chance to prove that we were on the right 
track. She asked hard questions about the future of the program and the 
feasibility of where we were headed and directed then-Acting 
Commissioner Jayson Ahern to provide his assessment of the path forward 
for SBInet. Based upon the results of that review, she ordered a 
Department-wide reassessment of the program to determine if there are 
alternatives that may more efficiently, effectively, and economically 
meet our Nation's border security needs.
    The Department-wide review is motivated by two major 
considerations. The first is that the continued and repeated delays in 
SBInet raise fundamental questions about SBInet's viability and 
availability to meet the need for technology along the border. The 
second is that the high cost of SBInet obligates this administration to 
conduct a full and comprehensive analysis of alternative options to 
ensure we are maximizing the impact and effectiveness of the 
substantial taxpayer resources we are devoting to border security 
technology. Quite frankly, this type of investment can only be 
justified if you know exactly what you are going to get, and this type 
of comprehensive analysis of alternatives should have been undertaken 
years ago. Secretary Napolitano recognized the need for such due 
diligence, which is why we will conduct such an analysis under the 
review she ordered.
    The assessment has an immediate and a long-term phase. This week, 
the Department announced that it will be redeploying $50 million in 
Recovery Act funds that were scheduled to be spent on SBInet to 
alternative currently available, stand-alone technology, such as 
remote-controlled camera systems called Remote Video Surveillance 
Systems (RVSSs), truck-mounted systems with cameras and radar called 
Mobile Surveillance Systems (MSSs), thermal imaging devices, ultra-
light detection, backscatter units, mobile radios, and cameras and 
laptops for pursuit vehicles, that will immediately improve our ability 
to secure the U.S.-Mexico border.
    In the long-term phase, we will conduct a comprehensive, science-
based assessment of alternatives to SBInet to ensure that we are 
utilizing the most efficient and effective technological and 
operational solutions in all of our border security efforts. If this 
analysis suggests that the SBInet capabilities are worth the cost, this 
administration will extend deployment of these capabilities. If this 
analysis suggests that alternative technology options represent the 
best balance of capability and cost-effectiveness, this administration 
will immediately begin redirecting resources currently allocated for 
border security efforts to these stronger options.
                           role of technology
    It has often been said that technology is one of three ``pillars'' 
that contribute to effective border security, with tactical 
infrastructure, such as physical fencing, and personnel being the other 
two. Physical fencing provides ``persistent impedance''--that is, it 
delays the progress of people who attempt to cross our borders between 
the ports of entry. These delays, in turn, provide more opportunity for 
our Border Patrol agents to respond to and interdict those attempts. 
From 2006 through 2008, the bulk of our funding within SBI focused on 
completion of the physical fence along areas of the southwest border 
where Border Patrol determined it was operationally necessary. Since 
then, as that fence has largely been completed, we have shifted our 
funding focus more towards technology.
    Technology is primarily used to provide continual monitoring and 
surveillance of a particular area, enhancing situational awareness for 
Border Patrol agents, detecting activity between the ports of entry and 
providing information about the type of activity (i.e. human or animal, 
vehicle or pedestrian, transporting contraband or not transporting 
contraband, etc.). This knowledge assists our Border Patrol agents in 
responding to and interdicting criminal activity, and enhances their 
safety by giving them information about the relative threat of any 
group or individual and about how best to approach the threat.
    CBP has already deployed technology to several specific areas of 
the border. As mentioned above, we have deployed Remote Video 
Surveillance Systems (RVSSs), which allow personnel to keep an eye on 
selected areas by displaying pictures at a central dispatch location. 
We have also deployed Mobile Surveillance Systems (MSSs), which 
transmit radar and camera images to a terminal in the cab of the truck 
where they are monitored by an operator. Finally, we have deployed 
Unattended Ground Sensors (UGS), which can detect movement in their 
vicinity. All of these systems provide important information to the 
Border Patrol about activity in a particular area.
    The goal of SBInet was to network a set of sensors that cover a 
wide area into a Common Operating Picture, or COP--in contrast to the 
individual, stand-alone systems described above, which are very useful 
and relatively inexpensive, but also labor-intensive and limited in 
coverage. By depicting a large amount of information in a small space, 
SBInet was designed to allow fewer personnel to monitor and direct 
operations across a larger area. Border Patrol agents would be able to 
observe, manage, and respond to multiple events more effectively.
                             sbinet block 1
    With respect to the development progress of SBInet, it is clear to 
all who are paying attention that progress has been slower than 
anticipated. Recent testing results suggests that SBInet Block 1 has 
demonstrated some progress, but the time it has taken us to get to this 
point is extremely discouraging and frustrating. As a partial 
mitigation to the delays, we worked with Boeing to make a change in our 
plans so that the Border Patrol could use parts of the system that are 
not yet fully complete ``as is'' while engineering work continued. The 
Border Patrol has been using these parts of the system in this capacity 
since February 6 and the feedback has been positive from agents on the 
frontlines. The next steps involve completing our engineering work and 
conducting formal testing. We expect to conduct System Acceptance 
Testing through August, and then to turn the system over to the Border 
Patrol for formal Operational Testing and Evaluation starting in 
September.
    Construction on a second part of the system, known as Ajo-1, 
started on January 25. Ajo-1 was delayed for several reasons, including 
technical concerns and environmental considerations--Ajo-1 is located 
in an environmentally sensitive area, so we have worked very closely 
with the Department of the Interior to ensure that we protected it 
appropriately. Much of the Ajo-1 AoR should be constructed by this 
spring. By August, we expect to complete construction of Ajo-1. We will 
then conduct acceptance and operational testing of Ajo-1 through the 
end of this calendar year.
                               conclusion
    Mr. Chairman and Members of the committee, we recognize that the 
SBInet program has been a frustration. This committee and the entire 
Congress has been supportive and patient with us as we have worked 
through issues and delays encountered by the program. The comprehensive 
review ordered by Secretary Napolitano demonstrates that she shares 
your concern. Technology along the border is of critical importance to 
our National security and the safety and effectiveness of our Border 
Patrol agents working in the field. We need to ensure that we provide 
them with proven, cost-effective tools that will help them do their 
jobs and keep our Nation safe--whether that means large-scale networks 
like SBInet or the inexpensive, stand-alone technology I mentioned 
above. One thing is clear: The Secretary's review will require all of 
us to go back and take a hard look at the assumptions that were made in 
the past, and it will ensure that we proceed in a manner that both 
bolsters the security of our Nation's borders while making the most out 
of the resources that have been devoted to technology solutions to our 
border security challenges. We look forward to answering your 
questions.

    Mr. Cuellar. Thank you very much for your testimony.
    Mr. Hite, you have got 5 minutes to summarize your 
statement.

  STATEMENT OF RANDOLPH C. HITE, DIRECTOR, IT ARCHITECTURE & 
     SYSTEMS ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Hite. Thank you, Chairman Cuellar, Chairman Carney, 
Chairman Thompson. Let me begin by commending you for holding 
this hearing today on SBInet testing. Today we are releasing 
our January 2010 report on SBInet, which one could say really 
details the good, the bad, and the ugly about how Block 1 has 
been tested, how it has been planned, executed, and what the 
results show.
    Given that DHS is in the process of positioning itself to 
begin the next major phase of testing, which is acceptance 
testing, the timing and focus of this hearing could not be 
better.
    Before I summarize my written statement, let me first 
provide two contextual remarks about testing.
    First, testing is not a one-time event. It is a series of 
incrementally expansive test events that build upon each other 
and complement previous test events. This is, each test event 
in the series can be viewed as a link in a chain, and thus each 
link must be well-planned and executed for testing to 
accomplish its intended purpose.
    This brings me to my second contextual point, which is that 
the purpose of testing is not to demonstrate the absence of 
problems, it is to find problems restated, it is a given that 
testing will result in the discovery of defects that will need 
to be resolved, and it is vitally important that they be 
resolved on the basis of assigned priorities and that their 
resolution be tracked.
    In so doing, meaningful understanding of the system's 
maturity and readiness for further testing and operational use 
can be gained.
    Now, with that as a backdrop, my bottom-line message today 
is that key aspects of the most recent SBInet test events, 
which include nine component qualification tests and one system 
qualification test, as well as the associated regression 
testing, have not been effectively managed.
    Specifically, while the plans for these 10 test events 
define, for example, roles and responsibilities of those 
involved and the items to be tested--and that is good--none 
sufficiently described the risks associated with completing the 
test and only one described the test schedule to be followed.
    This is important because such omissions have contributed 
to some test events not proceeding as expected and resources 
not being available when needed.
    Further, while most of the test cases associated with these 
10 events describe test objectives, expected outputs and the 
procedures to be followed--that is good--few describe either 
test inputs, dependencies among test cases, or the facilities 
and personnel needed to execute the test cases.
    This is important because such omissions have precipitated 
the need for additional time and effort to rerun test cases.
    In addition, even though test procedures, as I just noted, 
were largely defined for each of the test cases, the procedures 
for about 70 percent of these test cases were not followed as 
written, but instead were changed on the fly during test 
execution.
    Moreover, these changes were not subjected to written 
quality assurance checks, and in some cases the changes were 
extensive.
    For example, some procedures were completely crossed out 
and replaced with handwritten steps, while for others the 
system requirement that the procedure was to demonstrate was 
changed.
    To make matters worse, some of the changes were 
characterized as being made merely to pass the test case, 
rather than to demonstrate that the system could function as 
intended.
    In my view, the volume and the nature of the changes made 
to test procedures cast doubt on the sufficiency of the testing 
performed, which in turn increases the likelihood that system 
problems remain undiscovered.
    Notwithstanding these limitations, the test events 
nevertheless did identify a large number of defects. The latest 
data available to us showed that over 1,300 problems were 
discovered during a 17-month period when these tests were under 
way in some form or another.
    What is more of a concern, however, is not the total 
number, but rather the fact that during this 17-month period 
the number of new problems that were being discovered were 
outpacing the number that were being closed.
    The result is a trend in the number of unresolved defects 
that is not indicative of a maturing system.
    Exacerbating this 17-month trend are three factors.
    First, some of the problems have proven to be significant 
in that they caused lengthy delays to the program.
    Second, additional problems were reported at the end of 
this 17-month period based on an early assessment of the system 
by the Border Patrol.
    Third, the full magnitude of this upward trend is not 
clear, because most of the 1,300-plus defects were not assigned 
priorities based on their severity, thus limiting an 
understanding of the system's maturity.
    Now, having said all this, let me close on a positive note 
by saying that our report and testimony contains 
recommendations aimed at addressing these test-management and 
problem-resolution limitations, and so the next phase of 
testing would not suffer from the same ones.
    To the Department's credit, they have told us that actions 
are under way and planned to address them.
    This concludes my statement. I am happy to answer any 
questions.
    [The statement of Mr. Hite follows:]
                 Prepared Statement of Randolph C. Hite
                             March 18, 2010
                              gao-10-511t
    Mr. Chairman and Members of the subcommittees: Thank you for the 
opportunity to participate in today's hearing on the technology 
component of the Department of Homeland Security's (DHS) Secure Border 
Initiative (SBI). My statement today is based on our report Secure 
Border Initiative: DHS Needs to Address Testing and Performance 
Limitations That Place Key Technology Program at Risk, which is being 
released at this hearing.\1\
---------------------------------------------------------------------------
    \1\ GAO-10-158 (Washington, DC: Jan. 29, 2010). Both the report and 
this statement are based on work performed in accordance with generally 
accepted Government standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained during the course of 
this review does provide a reasonable basis for our findings and 
conclusions based on our audit objectives.
---------------------------------------------------------------------------
    As you know, SBI is intended to help secure the 6,000 miles of 
international borders that the contiguous United States shares with 
Canada and Mexico. The program, which began in November 2005, seeks to 
enhance border security and reduce illegal immigration by improving 
surveillance technologies, raising staffing levels, increasing domestic 
enforcement of immigration laws, and improving physical infrastructure 
along the Nation's borders. Within SBI, the Secure Border Initiative 
Network (SBInet) is a multibillion dollar program that includes the 
acquisition, development, integration, deployment, and operation of 
surveillance technologies--such as unattended ground sensors and radar 
and cameras mounted on fixed and mobile towers--to create a ``virtual 
fence'' along the border. In addition, command, control, 
communications, and intelligence software and hardware are to use the 
information gathered by the surveillance technologies to create a 
common operating picture (COP) of activities within specific areas 
along the border and transmit the information to command centers and 
vehicles.
    In September 2008, we reported to you that important aspects of 
SBInet were ambiguous and in a continuous state of flux, making it 
unclear and uncertain what technology capabilities were to be delivered 
when. In addition, the program did not have an approved integrated 
master schedule to guide the program's execution, and key milestones 
continued to slip. This schedule-related risk was exacerbated by the 
continuous change in and the absence of a clear definition of the 
approach used to define, develop, acquire, test, and deploy SBInet. 
Furthermore, different levels of SBInet requirements were not properly 
aligned, and all requirements had not been properly defined and 
validated. Also, the program office had not tested the individual 
system components to be deployed to initial locations, even though the 
contractor had initiated integration testing of these components with 
other system components and subsystems, and its test management 
strategy did not contain, among other things, a clear definition of 
testing roles and responsibilities; or sufficient detail to effectively 
guide planning for specific test events, such as milestones and 
metrics. Accordingly, we made recommendations to address these 
weaknesses which DHS largely agreed to implement.\2\
---------------------------------------------------------------------------
    \2\ GAO, Secure Border Initiative: DHS Needs to Address Significant 
Risks in Delivering Key Technology Investment, GAO-08-1086 (Washington, 
DC: Sept. 22, 2008).
---------------------------------------------------------------------------
    In light of SBInet's important mission, high cost, and risks, you 
asked us to conduct a series of four SBInet reviews. This statement and 
report being released today provide the results for the first of these 
reviews.\3\ Specifically, they address: (1) The extent to which SBInet 
testing has been effectively managed, including identifying the types 
of tests performed and whether they were well planned and executed; (2) 
what the results of testing show; and (3) what processes are being used 
to test and incorporate maturing technologies into SBInet.
---------------------------------------------------------------------------
    \3\ See attachment 1 for the objectives and status of the other 
three reviews.
---------------------------------------------------------------------------
    In summary, SBInet testing has not been adequately managed, as 
illustrated by poorly defined test plans and numerous and extensive 
last-minute changes to test procedures. Further, testing that has been 
performed identified a growing number of system performance and quality 
problems--a trend that is not indicative of a maturing system that is 
ready for deployment anytime soon. Further, while some of these 
problems have been significant, the collective magnitude of the 
problems is not clear because they have not been prioritized, user 
reactions to the system continue to raise concerns, and key test events 
remain to be conducted. Collectively, these limitations increase the 
risk that the system will ultimately not perform as expected and will 
take longer and cost more than necessary to implement. For DHS to 
increase its chances of delivering a version of SBInet for operational 
use, we are recommending that DHS improve the planning and execution of 
future test events and the resolution and disclosure of system 
problems. DHS agreed with our recommendations.
                               background
    Managed by DHS's Customs and Border Protection (CBP), SBInet is to 
strengthen CBP's ability to detect, identify, classify, track, and 
respond to illegal breaches at and between ports of entry. CBP's SBI 
Program Office is responsible for managing key acquisition functions 
associated with SBInet, including tracking and overseeing the prime 
contractor.
    In September 2006, CBP awarded a 3-year contract to the Boeing 
Company for SBInet, with three additional 1-year options. As the prime 
contractor, Boeing is responsible for designing, producing, testing, 
deploying, and sustaining the system. In September 2009, CBP extended 
its contract with Boeing for the first option year. CBP is acquiring 
SBInet incrementally in a series of discrete units of capabilities, 
referred to as ``blocks.'' Each block is to deliver one or more system 
capabilities from a subset of the total system requirements.
    In August 2008, the DHS Acquisition Review Board decided to delay 
the initial deployment of Block 1 of SBInet so that fiscal year 2008 
funding could be reallocated to complete physical infrastructure 
projects. In addition, the board directed the SBInet System Program 
Office (SPO) to deliver a range of program documentation, including an 
updated Test and Evaluation Master Plan (TEMP),\4\ detailed test plans, 
and a detailed schedule for deploying Block 1 to two initial sites in 
the Tucson Sector of the southwest border. This resulted in a revised 
timeline for deploying Block 1, first to the Tucson Border Patrol 
Station (TUS-1) in April 2009, and then to the Ajo Border Patrol 
Station (AJO-1) in June 2009. Together, these two deployments are to 
cover 53 miles of the 1,989-mile-long southern border. However, the SBI 
Executive Director told us in December 2009 that these and other SBInet 
scheduled milestones were being reevaluated. As of January 2010, the 
TUS-1 system is scheduled for Government acceptance in September 2010, 
with AJO-1 acceptance in November 2010. However, this schedule has yet 
to be approved by CBP.
---------------------------------------------------------------------------
    \4\ The TEMP defines the program's integrated test and evaluation 
approach, including the scope of testing and the staff, resources 
(equipment and facilities), and funding requirements associated with 
testing.
---------------------------------------------------------------------------
             dhs has not effectively managed sbinet testing
    Testing is essential to knowing whether the system meets defined 
requirements and performs as intended. Effective test management 
involves, among other things, developing well-defined test plans and 
procedures to guide test execution. It is intended to identify and 
resolve system quality and performance problems as early as possible in 
the system development life cycle.
    DHS has not effectively managed key aspects of SBInet testing, 
which has in turn increased the risk that the system will not perform 
as expected and will take longer and cost more than necessary. While 
the Department's testing approach appropriately consists of a series of 
progressively expansive test events, some of which have yet to be 
completed, test plans and test cases for recently executed test events 
were not defined in accordance with relevant guidance. For example, 
none of the plans for tests of system components addressed testing 
risks and mitigation strategies.
    Further, SBInet test procedures were generally not executed as 
written. Specifically, about 70 percent of the procedures for key test 
events were rewritten extemporaneously during execution because persons 
conducting the tests determined that the approved procedures were not 
sufficient or accurate. Moreover, changes to these procedures were not 
made according to a documented quality assurance process but were 
instead made based on an undocumented understanding that program 
officials said they established with the contractor. While some of 
these changes were relatively minor, others were significant, such as 
adding requirements or completely rewriting verification steps. The 
volume and nature of the changes made to the test procedures, in 
conjunction with the lack of a documented quality assurance process, 
increases the risk that system problems may not be discovered until 
later in the sequence of testing. This concern is underscored by a 
program office letter to the prime contractor stating that changes made 
to system qualification test procedures appeared to be designed to pass 
the test instead of being designed to qualify the system.
    These limitations are due, among other things, to a lack of 
detailed guidance in the TEMP, the program's aggressive milestones, 
schedule, and ambiguities in requirements. Collectively, these 
limitations increase the likelihood that testing will not discover 
system issues or demonstrate the system's ability to perform as 
intended.
   sbinet testing results have identified a growing number of system 
                    performance and quality problems
    The number of new SBInet defects that have been discovered during 
testing has increased faster than the number that has been fixed. (See 
figure 1 for the trend in the number of open defects from March 2008 to 
July 2009.) As we previously reported \5\ such an upward trend is 
indicative of an immature system.
---------------------------------------------------------------------------
    \5\ GAO, Office of Personnel Management: Improvements Needed to 
Ensure Successful Retirement Systems Modernization, GAO-08-345 
(Washington, DC: Jan. 31, 2008).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Some of the defects found during testing have been significant, 
prompting the DHS Acquisition Review Board in February 2009 to postpone 
deployment of Block 1 capabilities to TUS-1 and AJO-1. These defects 
included the radar circuit breaker frequently tripping when the radar 
dish rotated beyond its intended limits, COP workstations crashing, and 
blurry camera images, among others.
    While program officials have characterized the defects and problems 
found during development and testing as not being ``show stoppers,'' 
they have nevertheless caused delays, extended testing, and required 
time and effort to fix. Moreover, the SPO and its contractor have 
continued to find problems that further impact the program's schedule. 
For example, the radar problems mentioned previously were addressed by 
installing a workaround that included a remote ability to reactivate 
the circuit breaker via software, which alleviated the need to send 
maintenance workers out to the tower to manually reset the circuit. 
However, this workaround did not fully resolve the problem, and program 
officials said that root cause analysis continues on related radar 
power spikes and unintended acceleration of the radar dish that 
occasionally render the system inoperable. One factor that has 
contributed to the time and resources needed to resolve this radar 
problem, and potentially other problems, is the ability of the prime 
contractor to effectively determine root causes for defects. According 
to program officials, including the SBI Executive Director, the 
contractor's initial efforts to isolate the cause of the radar problems 
were flawed and inadequate. Program officials added, however, that they 
have seen improvements in the contractor's efforts to resolve technical 
issues.
    Along with defects revealed by system testing, Border Patrol 
operators participating in an April 2009 user assessment identified a 
number of concerns. During the assessment, operators compared the 
performance of Block 1 capabilities to those of existing technologies. 
While Border Patrol agents noted that Block 1 offered functionality 
above existing technologies, it was not adequate for optimal 
effectiveness in detecting items of interest along the border. Users 
also raised concerns about the accuracy of Block 1's radar, the range 
of its cameras, and the quality of its video. Officials attributed some 
of the identified problems to users' insufficient familiarity with 
Block 1; however, Border Patrol officials reported that the 
participating agents had experience with the existing technologies and 
had received 2 days of training prior to the assessment. The Border 
Patrol thus maintained that the concerns generated should be considered 
operationally relevant.
    Effectively managing identified defects requires a defined process 
for, among other things, assigning priorities to each defect and 
ensuring that more severe ones are given priority attention. However, 
the SPO does not have such a documented approach but instead relies on 
the prime contractor for doing so. Under this approach, defects were 
not consistently assigned priorities. Specifically, about 60 percent 
(or 801 of 1,333) of Block 1 defects identified from March 2008 to July 
2009 were not assigned a priority. This is partly attributable to the 
SPO's lack of a defined process for prioritizing and managing defects. 
Officials acknowledge this and stated that they intend to have the 
contractor prioritize all defects in advance of future test readiness 
reviews. Until defects are managed on a priority basis, the program 
office cannot fully understand Block 1's maturity or its exposure to 
related risks, nor can it make informed decisions about allocating 
limited resources to address defects.
dhs science and technology directorate testing process is being used to 
               leverage maturing technologies for sbinet
    The SPO does not have its own process for testing the relevance to 
SBInet of technologies that are maturing or otherwise available from 
industry or other Government entities. Instead, it relies on DHS's 
Science and Technology Directorate (S&T), whose mission is to provide 
technology solutions that assist DHS programs in achieving their 
missions. To leverage S&T, CBP signed a multiyear Interagency Agreement 
with the directorate in August 2007. According to this agreement, S&T 
is to research, develop, assess, test, and report on available and 
emerging technologies that could be incorporated into the SBInet 
system. To date, S&T has focused on potential technologies to fill 
known performance gaps or improve upon already-made technology choices, 
such as gaps in the radar system's ability to distinguish true radar 
hits from false alarms. S&T officials told us that they interact with 
Department of Defense (DOD) components and research entities to 
identify DOD systems for SBInet to leverage. In this regard, SPO 
officials stated that the current SBInet system makes use of DOD 
technologies, such as common operating picture software and radar 
systems. Nevertheless, S&T officials added that defense-related 
technologies are not always a good fit with SBInet, due to operational 
differences.
  gao is making recommendations to improve sbinet test management and 
                           problem resolution
    To improve the planning and execution of future test events and the 
resolution and disclosure of system problems, we are making the 
following four recommendations to DHS:
  <bullet> Revise the SBInet Test and Evaluation Master Plan to include 
        explicit criteria for assessing the quality of test 
        documentation and for analyzing, prioritizing, and resolving 
        defects.
  <bullet> Ensure that test schedules, plans, cases, and procedures are 
        adequately reviewed and approved consistent with the Test and 
        Evaluation Master Plan.
  <bullet> Ensure that sufficient time is provided for reviewing and 
        approving test documentation prior to beginning a given test 
        event.
  <bullet> Triage the full inventory of unresolved problems, including 
        identified user concerns, and periodically report the status of 
        the highest priority defects to Customs and Border Protection 
        and Department of Homeland Security leadership.
    In written comments on a draft of our report, DHS stated that the 
report was factually sound, and it agreed with our last three 
recommendations and agreed with all but one aspect of the first one. 
DHS also described actions under way or planned to address the 
recommendations.
    In closing, I would like to stress how integral effective testing 
and problem resolution are to successfully acquiring and deploying a 
large-scale, complex system, like SBInet Block 1. As such, it is 
important that each phase of Block 1 testing be managed with rigor and 
discipline. To do less increases the risk that a deployed version of 
the system will not perform as intended, and will ultimately require 
costly and time-consuming rework to fix problems found later rather 
than sooner. Compounding this risk is the unfavorable trend in the 
number of unresolved system problems, and the lack of visibility into 
the true magnitude of these problems' severity. Given that major test 
events remain to be planned and conducted, which in turn are likely to 
identify additional system problems, it is important to correct these 
testing and problem resolution weaknesses.
    This concludes my prepared statement. I would be pleased to respond 
to any questions that you or other Members of the subcommittees may 
have.
 Attachment 1--Summary of GAO's On-going SBInet Work for the Committee 
                          on Homeland Security
    SBInet's Commitment, Progress, and Acquisition Management. Our 
objectives are to determine the extent to which DHS has: (1) Defined 
the scope of its proposed system solution, (2) developed a reliable 
schedule for delivering this solution, (3) demonstrated the cost-
effectiveness of this solution, (4) acquired this solution in 
accordance with key life cycle management processes, and (5) addressed 
our recent recommendations. We plan to report our results in April 
2010.
    SBInet's Contractor Management and Oversight. Our objectives are to 
determine the extent to which DHS: (1) Has established and implemented 
effective controls for managing and overseeing the SBInet prime 
contractor and (2) is effectively monitoring the prime contractor's 
progress in meeting cost and schedule expectations. We plan to report 
our results during the summer of 2010.
    Security Border Initiative Financial Management Controls Over 
Contractor Oversight. Our objectives are to determine the extent to 
which DHS has: (1) Developed internal control procedures over SBInet 
contractor invoice processing and contractor compliance with selected 
key contract terms and conditions and (2) implemented internal control 
procedures to ensure payments to SBInet's prime contractor are proper 
and in compliance with selected key contract terms and conditions. We 
plan to report our results during the summer of 2010.

    Mr. Cuellar. Sir, I thank you very much for your testimony.
    At this time I recognize Mr. Krone for 5 minutes.

   STATEMENT OF ROGER A. KRONE, PRESIDENT, NETWORK AND SPACE 
 SYSTEMS, BOEING DEFENSE, SPACE & SECURITY, THE BOEING COMPANY

    Mr. Krone. Thank you, Mr. Chairman. Thank you, Chairman 
Cuellar, Chairman Carney, Chairman Thompson, Ranking Members.
    It has been 6 months since we last appeared here to discuss 
SBInet. In that time, the Government and industry team has made 
significant progress on the deployment of the SBInet Block 1 
system, and we are now seeing real-world results and actual 
Border Patrol operations in the Tucson sector.
    In addition, we have started a second Block 1 deployment in 
Ajo, and on the northern border we have delivered the Buffalo 
Project, and we are within weeks of delivering the Detroit 
Project.
    Testing is a critical function of all developmental 
programs. Its purpose is to understand system's performance, 
ensure system's functionality, and demonstrate that the design 
meets system's requirements.
    In any test, we expect to find problems.
    In many cases, we push the system to failure to understand 
its detailed functionality and durability.
    When issues are identified, we have a process in place to 
capture them, prioritize them and address them. We utilize a 
closed-loop, root-cause corrective action process to ensure we 
fully understand each problem and have implemented a corrective 
action that is both comprehensive and complete.
    Late last fall, our systems qualification test revealed 
several hardware and software changes that needed to be made. 
In addition, analysis of the Playas test bed and the Tucson-1 
production configuration identified differences in some 
components which necessitated a limited set of assessments on 
the Tucson-1 configuration to ensure traceability of and 
verification of artifacts and to reduce risk.
    At the same time, working closely with CBT and conscious of 
GAO's concerns, we revised our systems acceptance test plan to 
include an expanded set of routes and more precise success 
criteria for the key performance parameters. These tests will 
involve day and night operations along 60 or more Border 
Patrol-identified trafficking routes. These factors drove the 
schedule adjustment, which now has Tucson-1 acceptance testing 
starting in late summer, concluding in early fall.
    As you know, schedule delays drive costs. We are 
aggressively pursuing opportunities to reclaim schedule and 
reduce the cost of Tucson-1 and Ajo-1 deployments. However, in 
terms of performance on the program, progress is evident. We 
are not seeing any system-wide issues. We have plans in place 
for remaining lower-level issues, and we are confident the 
revised system acceptance test plan is robust and its success 
criteria are well-understood.
    This assessment is supported by the feedback we are getting 
from early operations. Early operations began, as Mark said, on 
February 6 and has provided the Border Patrol with the 
opportunity to use the Tucson-1 system during swing and 
midnight shifts, times that our engineers are not able to work 
on the system for safety and security reasons. To date, about 4 
dozen Border Patrol agents have taken the formal classroom 
training program. The system has performed reliably and 
effectively 7 days a week.
    I would like to relay to the committee my personal 
observations from a visit I made to Tucson sector less than 2 
weeks ago. I spent an evening in the command-and-control center 
at Tucson sector headquarters observing agents at three 
consoles of the Block 1 system, and I spent the following day 
visiting tower sites. I was struck by the speed with which 
agents are adapting to the system both at the consoles and in 
the field, and the skill they are displaying even at this early 
stage.
    Also apparent is the increased tactical advantage agents 
now have because of the significantly improved situational 
awareness the system provides them. The sensor information SBI 
collection relays to the agent in the field really does give 
him or her greater ability to deal with each encounter 
effectively and safely.
    So does SBInet pass the Border Security test? Based upon 
all the activities of the recent days, I would say there are 
three questions. Are we testing the system adequately? Does the 
system work? Does it provide value, best value to the Border 
Patrol?
    On testing, yes, the majority of the delay in our testing 
program is to bring the configuration of the system up to its 
production level and to conduct more rigorous testing, and we 
are seeing signs of a maturing system out in the field.
    Second question: Does it work? Definitely yes, it works 
today. I would ask you to direct your questions to Mark and to 
Chief Fisher, and it will get better as we finish the 
development and construction of the system. But more 
importantly, value--is this good value for money? Our job at 
Boeing is to design, develop, and deploy the system. Value is 
really a Customs and Border Patrol decision, but based upon my 
experience, the Tucson-1 system gives the agent in the field a 
significant tactical advantage, an increase in situation 
awareness, especially in night operations.
    So I appreciate the opportunity to talk to you today. I 
look forward to your questions. Thank you very much.
    [The statement of Mr. Krone follows:]
                  Prepared Statement of Roger A. Krone
                             March 18, 2010
    Good morning.
    It has been 6 months since we last appeared to discuss SBInet. In 
that time, the Boeing Team has made significant progress on the 
deployment of the SBInet Block 1 System, and we are seeing real-world 
results in actual Border Patrol operations in the Tucson Sector. In 
addition, we have started a second Block 1 deployment in the Ajo area. 
On the northern border, we have delivered the Buffalo project and are 
within weeks of delivering the Detroit project.
    This progress has been achieved through application of a 
disciplined engineering approach and lessons learned along the way. As 
we have discussed previously, there is inherent complexity associated 
with integrating multiple commercial off-the-shelf (COTS) components 
into a complex system.
    Testing is a critical function of all developmental programs. Its 
purpose is to ensure system functionality and that the design meets 
system requirements. In any test, we expect to find problems, and in 
many cases, we push the system to failure to understand its detailed 
functionality and durability. When issues are identified, we have a 
process in place to capture them, prioritize them, and address them. We 
utilize a closed-loop Root Cause Corrective Action (RCCA) process to 
ensure we fully understand each problem and have implemented a 
corrective action that is both comprehensive and complete.
                                schedule
    Late last fall, our System Qualification Test (SQT) revealed 
several hardware and software changes that needed to be made in the 
system before entering into System Acceptance Test (SAT). In addition, 
subsequent analysis of the Playas test bed and Tucson 1 (TUS1) 
configurations identified differences in some of the COTS hardware and 
software components, which necessitated we conduct a limited set of 
assessments on the TUS1 configuration to ensure traceability of our 
verification artifacts and reduce risk to a successful System 
Acceptance Test and Operational Test and Evaluation (OT&E).
    At the same time, working closely with CBP, we revised our SAT plan 
to include an expanded set of routes and a more precise set of success 
criteria for the Key Performance Parameters (KPPs). These tests will 
involve daytime and nighttime operations along more than 60 Border 
Patrol-identified trafficking routes. To ensure that the tests are 
statistically valid, multi-kilometer segments along each route will be 
walked multiple times by various group sizes. In addition to 
pedestrians, vehicles will also be evaluated. This is a time-consuming 
and labor-intensive process necessary to ensure the accuracy of the 
testing. These factors are the reason for delaying the start and 
extending the duration of SAT. TUS1 acceptance testing is now expected 
to start in late summer and conclude in early fall.
                                  cost
    The cost growth we have experienced on the program has been driven 
by the schedule delays. We are aggressively pursuing opportunities to 
reduce the cost of the TUS1 and AJO1 deployments. Our team has 
identified a number of opportunities in our TUS1 schedule to accelerate 
milestones and realize cost reductions as a result. In consideration 
for these delays, Boeing has committed to apply the fee that we receive 
for the TUS1 Deployment toward system enhancements that will be 
identified by the Border Patrol. In addition, Boeing has also committed 
company resources to establish a senior technical team to independently 
evaluate the readiness of the Block 1 System and to make 
recommendations on key areas that will enhance the system performance 
and availability.
    Based on where we are today in the program, the progress is 
evident. We are not seeing any system-wide issues; we have plans in 
place for the remaining lower-level issues and we are confident we have 
a robust SAT plan with well-understood success criteria. We are on the 
way to deliver a system with the capabilities and means to become a 
reliable force multiplier for the Border Patrol and one from which CBP 
and the Border Patrol can develop Tactics, Techniques, and Procedures 
(TTP) to meet our Nation's evolving border security needs.
                            early operations
    Our current view of the system is supported by the feedback we are 
getting from Early Operations. Early Operations began on Feb. 6, 2010, 
and has provided the Border Patrol with the opportunity to use the TUS1 
System during swing and midnight shifts, times that our engineers are 
not able to work on the system for safety and security reasons. To 
date, about four dozen Border Patrol Agents have taken the formal 
classroom training program at the Production Support Facility in 
Tucson. After the 3-day training session, the agents are able to use 
the TUS1 System to support Border Patrol operations in the Sasabe Port 
of Entry area. During Early Operations, Boeing engineers work side-by-
side with the agents to provide technical support as required. The 
feedback that we have received to date from the agents has been very 
positive and complimentary of the improvement over Project 28 and the 
impact on mission performance. To date, the system has performed 
reliably and effectively, 7 days per week.
    I'd like to relay to the committee my personal observations from a 
visit to the Tucson Sector less than 2 weeks ago. I spent an evening in 
the Command and Control Center at the Tucson Sector Headquarters 
observing three agents at the consoles of the Block 1 System and the 
following day visiting tower sites. I was struck by the speed with 
which the agents are adapting to the system--both at the consoles and 
in the field--and the skill they are displaying even at this early 
stage. Also very apparent is the increased tactical advantage agents 
now have because of the significantly improved situational awareness 
the system provides. The information the system relays to the agent in 
the field really does give him or her greater ability to deal with each 
encounter effectively and safely.
    As Early Operations progresses, we will work closely with the 
SBInet Program Office to capture issues and feedback. A formal system 
is in place to disposition issues as they arise, either in the form of 
corrections that need to be made prior to acceptance or as potential 
enhancements to be made after OT&E.
                                  ajo1
    In late January, we began the second deployment of Block 1 
technology, called AJO1, near the Lukeville Port of Entry in an 
environmentally sensitive area of the Organ Pipe Cactus National 
Monument. The 6-month delay to the start of the AJO1 Deployment was 
driven primarily by environmental and land management assessments and 
permits that were required before construction could begin. Since late 
January, we have erected five towers and our teams are actively at work 
at all the remaining sites where we have permission to work. The Ajo 
Station Command and Control Center was recently completed, and the full 
system will be ready for Operational Test & Evaluation late this 
calendar year. The speed at which AJO1 is erected, tested, and accepted 
by the CBP will demonstrate the increased maturity of the Block 1 
System.
                        northern border projects
    We also have significant progress to report on our northern border 
projects where we are installing the Remote Video Surveillance System 
(RVSS) to enhance agent surveillance capabilities in the river 
environments near Buffalo and Detroit. The Buffalo deployment was 
completed and accepted by CBP on Feb. 26, 2010, and is now part of 
operations of the Border Patrol. The completion of the Detroit 
deployment has been delayed by an issue with a Government vendor, but 
is expected to be delivered to CBP early next month. The delivery of 
both of these projects is in accord with the schedule outlined in the 
hearing last September.
                      mobile surveillance systems
    In addition, Boeing has been providing logistics sustainment for 
the Border Patrol's Mobile Surveillance Systems (MSS) since April 2009. 
These highly modified vehicles provide mobile radar and camera 
surveillance capability. When Boeing began this effort, the 
availability of the 41 MSS was less than 50 percent. Today, through 
close collaboration with CBP, the availability of the MSS is greater 
than 90 percent.
                               conclusion
    While SBInet has been a difficult and challenging program, we 
believe the original concept of providing timely and actionable 
situational awareness to Border Patrol Agents remains a sound one. With 
the support of CBP, we now have a version of the Block 1 System in use 
today by the Border Patrol--providing value to their operations. To 
date, we are more than three-quarters complete with the first two 
deployments and are within months of starting formal acceptance testing 
for the TUS1 system.
    So, does SBInet pass the border security test? Based on the 
capabilities developed, the engineering rigor, and the positive mission 
impact of Early Operations, the answer is ``yes.''

    Mr. Cuellar. Thank you, Mr. Krone, for your testimony.
    At this time, I remind each Member that he or she will have 
5 minutes to question the witnesses.
    I now recognize myself for questions.
    Mr. Borkowski, let me ask you this. The way I see this is 
we have GAO that goes and looks at your systems, and I think 
they have done it about 17 times. I understand you just came in 
just recently. I understand that.
    But one of the things I would like to see is the agency, if 
you agree with the recommendations, and my understanding is 
pretty much all have agreed to the recommendations. The last 
set of recommendations I think were about 18 months ago, Mr. 
Hite, is that correct?
    But then after you all get the recommendations, then you 
all talk about that. I haven't seen the improvement or the 
completion of those recommendations. You know, and the reason I 
say this, because you all should be looking at this 
cooperative, instead of adversarial, and I almost feel like, 
you know, you all feel, the Department feels that GAO is out to 
get you, but I see it more as an improvement.
    Where are we with those recommendations and when are we 
going to finish them? I know your background. You are new, but 
somebody has to answer those questions.
    Mr. Borkowski. Right. Absolutely. First of all, we concur 
with the GAO recommendations largely because we agree that they 
reflect best practices in the way that you manage a program of 
this complexity. We agree that the program did not have those 
practices in place.
    I just want to comment on a couple of things, though. One 
is, yes, we are working toward that kind of structure and 
discipline, but you don't undo 2 and 3 years in, you know, 15 
minutes. So that is a work in progress. It is going to take 
some time to close all of those.
    The second thing, though, that I would point out is that 
the GAO report we are talking about today is based on analysis 
of things that essentially were looked at last spring. So for 
example, when you talk about test procedures being adjusted, if 
you go into the report--and by the way, I have a draft report; 
we haven't seen the final, but I assume the draft is close--if 
you go in and you look at that, you will see that the GAO 
acknowledges that in April 2009, it was the program office that 
said to Boeing, ``It looks like you did this.'' So the point I 
am trying to make is that I think we are on it.
    The other thing is that between then and now, we have 
focused on a lot of the things that GAO also identified. We saw 
the same things. So that is a work in progress. I can't promise 
you, Mr. Chairman, that it will be done overnight. I can 
promise to you that we are very committed to increasing that 
discipline. I do think that the kind of things we are seeing in 
the initial ops, the fact that the system is not crashing when 
we turn it over to the Border Patrol, is in some measure due to 
the imposition of what discipline we have been able to achieve 
by this point.
    But you are absolutely right. This will go on for longer 
than today, tomorrow, and the next several months.
    Mr. Cuellar. Okay. If you can just keep the committee 
informed as to the progress itself.
    The other question is dealing with the $50 million that the 
Secretary just redeployed. Sensitivity--I am not asking you to 
give me details as to what equipment you are going to buy, but 
just generally what are we looking at? How does that improve 
value to the border security? How is Mr. Fisher, Border Patrol, 
included in buying that equipment? We had this conversation 
yesterday, but for the record.
    Mr. Borkowski. We actually asked. SBI did not make a 
determination of what equipment we should buy. We actually 
asked not only the Border Patrol, but the Office of Field 
Operations, the Office of Air and Marine, the Office of 
Intelligence for their priorities. We worked in kind of an 
integrated way to come up with those priorities.
    But the types of things we are looking at are the mobile 
surveillance systems, the remote video surveillance systems 
which are in use today. There are scope trucks that give night 
vision that the Border Patrol is very interested in. There are 
some additional sensors on aircraft. There are radars to detect 
low-flying aircraft. There are cameras and laptops for pursuit 
vehicles for the Office of Field Operations. There is equipment 
to support field operations, southbound operations. So we have 
a whole list of things that we collected from the agents and 
officers themselves and that is what we will use to build that 
$50 million plant.
    Mr. Cuellar. Okay. You heard my statement at the beginning. 
At the current rate of 28 miles every 4.5 years, it would take 
us 320 years to complete, which would be the year 2330 at that 
rate.
    If we look at--how much have we spent so far--$600 million, 
$700 million, including R&D and all that?
    Mr. Borkowski. Right, right. It is in the $700 million--
about $615 million to Boeing has been spent, and then another 
$100 million, $200 million on other costs related to that that 
were not Boeing.
    Mr. Cuellar. Okay. You do understand what our concerns are 
on costs and time, especially with the violence escalating 
across the river. CBP Air Marine--are the ones that operate the 
UAVs. I know they have to work out the cost, the certificates 
of authorization with the FAA. How is that coordinated--how is 
that coordinated with the SBI? UAVs or technology is 
technology, and one of the letters that I sent is I wanted to 
ask what is the long plan for the CAVs for the northern border, 
for the southern border, and my understanding is that Coast 
Guard working with CBP is working on the UAVs for the coastal 
areas.
    Mr. Borkowski. Well, I know you are aware that we have 
plans to buy UAVs, and I think you are right--that needs to be 
integrated. That is one of the reasons, I think, that the 
Secretary has directed this assessment is because UAVs should 
be part of the tradeoff against things like SBInet, against 
things like other technology. That evaluation should include a 
sense of how they work together.
    So part of, I think, the Secretary's intention in dealing 
with this assessment is also to get to that question.
    Mr. Cuellar. Okay. Thank you.
    Mr. Krone, I think it was earlier this week or last week, I 
saw--I think you had a tape of how your project has worked, the 
new one, and to me it looked pretty clear. I am not Border 
Patrol, and we will ask Mr. Fisher. But I saw there was some 
good things from what I saw, but at the same time, it is mixed, 
as Mr. Hite has mentioned. But what I saw was some good things 
coming in. It was clear, and my understanding is Border Patrol, 
and I will ask Mr. Fisher to add to this, but was they can play 
with a couple of screens, where they can get a couple of 
screens at one time that makes it, I think, more useful to look 
at different things at one time.
    My understanding also, and Mr. Fisher, I am asking I guess 
both of you all, was--it is easier, friendly for the agents to 
use this, or time for it to be trained? If you can just address 
that, and Mr. Fisher, tell us how you all see what is being 
done right now. Because again, look, for the record, Mr. Krone, 
if we are going to be paying this much money, I want Boeing to 
succeed, okay? I want you all to succeed. But I hope you all 
understand that we have got concerns about time and cost and 
some of the issues that have been brought up by GAO, Mr. Hite.
    Mr. Krone. Right. I will make a few comments and then 
clearly we all want to hear from the chief.
    So, again, I had the opportunity to go out to the Tucson 
command and control center. If you can imagine with me what the 
layout looks like, in the front row we have three consoles for 
Tucson-1, and each console controls three towers.
    Immediately behind that we have the old P28 system. So you 
can literally stand there and watch the P28 Border Patrol 
operators operating the old P28 system and the new system.
    For the Members and those of us who have been involved in 
this program for a long time know that we redesigned the 
interface software, which we call the common operating picture, 
when we moved from P28 to Tucson-1, and we did that in a very 
collaborative process with Border Patrol agents and actually 
brought them into the design early, a criticism that we had in 
P28, with the intent to make it extremely user-friendly and to 
reduce the training time that it would take agents to learn the 
new system.
    Just my observation being out in the command and control 
center is we provide 3 days' worth of training to the agents 
and then they are allowed to use the system--these early 
operations.
    I am extremely impressed at how significantly they have 
been able to use the Tucson-1 system vice the P28 even at this 
early stage. So I think we have got what I believe is a pretty 
good success in the user interface and the ability for the 
agents to adapt quickly to the system and, frankly, to use it 
effectively in engagements.
    But I would also like to hear from Chief Fisher.
    Mr. Cuellar. Mr. Fisher, if you can summarize. My time is 
up. But if you can just tell us your perspective on the system.
    Mr. Fisher. Yes, thank you, Mr. Chairman. Again, thank you 
for the opportunity to be here this morning.
    I will tell you first, I haven't seen firsthand the new 
developments that we are talking about personally, although I 
will have an opportunity at the end of the month to do so. But 
I have worked in Tucson over the years. I have seen the early 
developments when the system and the common operational system 
was being put together, and I will tell you, I think later 
there is a film, a short clip perhaps, that is going to show 
the capabilities.
    One of the things that impressed me when I first saw this 
the other day was certainly, as you have mentioned, sir, the 
clarity of the picture and everything.
    But what really impressed me from an operator's perspective 
was the sense of how protected the Border Patrol agents in the 
field are going to be because of this. Again, I am not 
projecting, you know, long-term this is going to be--certainly 
this is not the silver bullet.
    But what impressed me was the fact that an operator, a 
Border Patrol agent, back away from these smugglers, was able 
to provide in advance information to the Border Patrol agents 
on the field, relaying that information to them in real time, 
providing back-up perhaps of getting other agents to be able to 
move into position, and providing the interdiction, cover, and 
concealment if you will, and oversight that historically we 
just didn't have in the Border Patrol before.
    It does look promising. I am going to hold judgment until 
the actual testing and when the Border Patrol actually looks at 
it beyond what we have done so far in interim steps. But I will 
tell you that it has given us a general sense of better 
situational awareness just beyond some of the clarity with 
respect to some of the other detection capabilities that we 
have implemented along the southwest border over the years, 
sir.
    Mr. Cuellar. All right. Thank you.
    Chair now will recognize other Members for questions they 
may wish to ask of the witnesses. According to--committee rules 
and practice, I will recognize Members who were here present at 
the beginning based on seniority of the subcommittee, 
alternating between Majority and Minority.
    Those Members coming in at a later time will be recognized 
in the order of arrival.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Carney, for 5 minutes. Thank you.
    Mr. Carney. Thank you, Mr. Chairman. Once again, I 
appreciate the joint hearing.
    I am not sure where to start on this.
    So, Mr. Borkowski, I guess you are first on this one. As we 
all know, we have experienced significant delays with SBInet in 
Tucson-1 and Ajo-1. In fact, every time Congress was given a 
date for their completion, the date has come and gone.
    For example, in December 2008 we were told that Tucson-1 
and Ajo-1 would be completed in September 2009 and December 
2009, respectively. Then, in February 2009, those dates were 
pushed back to November 2009 and mid-2010.
    In April 2009, further delays caused the dates to be moved 
from--or to December 2009 and June 2010. Once again, in 
January--once January 2010 rolled around, we were told not to 
expect a timely completion because the system would not be 
finished until later in the year.
    Now, tests show that the date is moved further into the 
future than originally expected. I am afraid to ask, but, you 
know, we are here, I am going to ask, when do you expect full 
deployment of Tucson-1 and Ajo-1?
    Mr. Borkowski. We expect Tucson-1 and Ajo-1 to be 
completely in the hands of the Border Patrol by the end of this 
calendar year or very early next calender year. That is the 
short answer to your question.
    Now, turning it to the hands of the Border Patrol, the 
Border Patrol has options of doing some operational tests 
during that period for as long as they care to do it. But both 
of those we anticipate will be in the hands of the Border 
Patrol for operations toward the end of the year.
    Mr. Carney. That gives you a bit of wiggle room, doesn't 
it?
    Mr. Borkowski. Well, I can give you the precise dates.
    Mr. Carney. Yes, yes, that would be great.
    Mr. Borkowski. Okay. We expect to have Tucson-1 completed 
through its system acceptance testing by September 15, and at 
September 15 we would turn it over to the Border Patrol for 
their operational test and evaluation.
    Mr. Carney. Okay.
    Mr. Borkowski. In the case of Ajo-1, Ajo-1 is going through 
construction. Some of the delay there, by the way, was 
environmental. That is a highly sensitive environmental area. 
So some of the construction was delayed due to that.
    We are constructing it as we speak. There will be a kind of 
shutdown for a couple months for Sonora and prong-horn fawning 
season in the spring going into the summer, but that should be 
all constructed by the middle of August.
    Then the system acceptance testing for Ajo-1 will go on 
into about till November of this year, and after, again, system 
acceptance testing it would be turned over to the Border 
Patrol.
    Mr. Carney. Okay. Okay. Thank you. Appreciate that.
    Mr. Krone, I got to tell you, I have to commend you for 
your ability to spin this situation. It was truly an inspired--
an inspired performance.
    One question I have. How many miles of either Ajo-1 or 
Tucson-1 are actually under control using your technology?
    Mr. Krone. Well, all of Tucson-1 is under control with P28. 
P28 is up and operational. Then at night we double down, we 
have both P28 and the Block-1 system. But on Ajo we are in 
tower construction. So there is none of Ajo today and all of 
Tucson-1, essentially with two systems.
    Mr. Carney. Okay. Now, is that what was originally sold? Is 
that what you originally told us?
    Mr. Krone. Was that a schedule question?
    Mr. Carney. Yes.
    Mr. Krone. Clearly not. You know, whether we want to go and 
pick a particular date or a particular point in time.
    So it is a developmental program, Congressman Carney. We 
have made a decision to move from a schedule-based program to 
an event-based program.
    Now, what do I mean by that?
    Mr. Carney. No, I understand what you mean by that.
    Mr. Krone. Okay.
    Mr. Carney. I got it.
    Mr. Hite, I was really fascinated with your testimony here. 
I liked the good, the bad, the ugly part. Not so much the bad 
and the ugly.
    Are there proven technologies, other proven technologies 
out there that would accomplish the same thing, that they are 
already in existence?
    Mr. Hite. The short answer would be yes. I think that is 
the purpose of the assessment that the Secretary wants. There 
is a recognition that there are other technologies, that there 
is not necessarily one panacea that is going to satisfy the 
Border Patrol's needs across the entire border. They want to 
look at what are the options out there, and then what is the 
best allocation of those options across the border.
    Mr. Carney. Okay. Where might these technologies be in use 
right now, the other ones?
    Mr. Hite. Where they are actually in use, sir? I couldn't 
give you an answer----
    Mr. Carney. Are they in use--so you don't know if they are 
in use in Iraq or in Israel or places like that?
    Mr. Hite. Unfortunately, I can't give you the answer to 
that. I don't know for certain.
    Mr. Carney. Okay. If you could look and let us know----
    Mr. Hite. Yes, sir.
    Mr. Carney [continuing]. That would be great.
    Finally, Mr. Hite, you mentioned that 70 percent or so of 
the testing was changed on the fly. Who approved those changes? 
Who makes the decision to, in the middle of the test, change 
the test?
    Mr. Hite. Yes, sir. That was 70 percent of the procedures 
within--I am sorry, 70 percent of the test cases the procedures 
were changed to varying degrees, some of which were minor 
changes, some of which were more significant.
    The rules governing those changes were not laid out in a 
document at quality assurance process. Rather it was an 
informal agreement between the parties within the program 
office and Boeing. They described to us what that process was, 
and we in fact validated that that unwritten set of procedures 
was, in fact, followed, and that there were quality assurance 
sign-off on those changes at the time.
    Mr. Carney. You know, I got to tell you, it doesn't pass 
the smell test. I used to be a professor. You don't change a 
test in the middle of the test. I don't care who signs off on 
it.
    Mr. Hite. I would agree with you, particularly the volume 
of the changes that were made and how extensive they were.
    What it is indicative of is that, well, we didn't have the 
test procedures right to begin with, so we are going to try and 
fix them to try and get them right here at the last minute.
    Now, you run a risk of trying to do something like that on 
the fly, you know, at the last minute.
    Mr. Carney. So, hold on, if the test--if the test wasn't 
right, we are not even far enough along on the project to know 
what questions to ask?
    Mr. Hite. Well, what we were dealing, when you design a 
test, you are designing it to a requirement. Part of the 
problem here was the requirement in some cases was not well-
defined. If you are trying to write a test to execute a 
requirement that is not well-defined, you are going to run into 
difficulty in doing that.
    So what contributed to this situation relative to changes 
in test procedures were a number of things that didn't occur 
earlier on in the system development, because making sure that 
a system like this is successful and involves doing many things 
over many years means you got to have a lot of stars to align 
to form this constellation.
    All those early stars that were out there weren't aligned 
very well.
    Mr. Carney. I agree.
    Okay. I am way over my time. I thank you, Mr. Chairman. I 
look forward to the next round.
    Mr. Cuellar. Thank you, Mr. Chairman, gentleman from 
Pennsylvania.
    At this time, I recognize the gentleman from the State of 
Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    Mr. Borkowski, in your statement you discuss the SBInet 
review required by Secretary Napolitano. Who is responsible for 
conducting the review? What is the status now? When will the 
results be available?
    Mr. Borkowski. Well, the review is run by the Department. 
It is managed by the Secretary's office. There is a facilitator 
who is the chief of staff to the under secretary of management. 
We have met over the last couple of months to lay out structure 
and timelines and such.
    The Secretary's office is still working those, though, 
because on the one hand, the Secretary is very committed. She 
wants the technology now, as you can imagine. On the other 
hand, she does not want to go back to the earlier mistakes of 
not having done an analysis to justify significant investments. 
So the exact timelines are in review with the Secretary's 
office as we speak.
    Mr. Bilirakis. So are we talking about maybe getting 
something by the summer?
    Mr. Borkowski. My understanding is that the Secretary would 
like to have results to advise future budget decisions. That is 
about as much as I can say at this point about the timeline.
    Mr. Bilirakis. Mr. Chairman, I would request a review, 
maybe the office can brief us on the results, if that is 
possible.
    Mr. Borkowski. Yes, we will do that.
    Mr. Bilirakis. Okay.
    Okay, Mr. Krone, I understand that CBC has requested you 
consider alternative locations for the tower Ajo-1 due to 
issues with GSA. If you identify a viable alternative location, 
what steps must be taken to begin construction of the tower? 
What impact will that have on the completion of Ajo-1?
    Mr. Krone. I actually think we are--I think we are past 
that. I think all of the towers at Ajo-1 have been approved and 
the environmental impact assessments have been complete. What 
is holding us up on Ajo-1 really is this antelope fawning 
season, and our inability to move heavy construction equipment 
into the area to complete construction of those towers.
    But all of the tower sites in Ajo-1, I think the 
environmentalist assessment has been complete and we are 
really--go ahead, Mark.
    Mr. Borkowski. If I might. As you suggest, there is an 
issue with a communications tower at the Lukeville port of 
entry, which is a site that we have located and intended to 
use. We have been asked about relocating that tower to deal 
with some other CBP needs. So we are in the process of figuring 
out what the right way to handle that is. I don't think Mr. 
Krone is aware of that just yet, but we are in the process of--
--
    Mr. Bilirakis. Have you identified a location?
    Mr. Borkowski. No, not yet. We are looking at candidate 
locations. We haven't also identified that we have to move our 
tower just yet, but we are in the process of doing that.
    Mr. Bilirakis. Okay. Will you keep us informed?
    Mr. Borkowski. Absolutely. I think that will be a very 
significant effort, yes.
    Mr. Bilirakis. Okay.
    Mr. Borkowski, what impact will the Secretary's 
announcement to redeploy $50 million of recovery funds, funding 
originally located for Block 1, have on the Block 1 deployment? 
Will this further delay the completion of Block 1? Will the 
technology procured with the redirected Recovery Act funding be 
deployed? Will these technologies provide Border Patrol agents 
with a common operating picture?
    Mr. Borkowski. The intent of our SBInet stimulus funds was 
to buy what we call long-lead cameras, radars, equipment to 
build towers so that we would be spring-loaded to go build 
those once we were done with Tucson-1 and Ajo-1. So the effect 
of diverting the funds on the one hand, on SBInet, might have 
an impact on our ability to speedily, if we decide it makes 
sense--which again, the assessment hasn't yet concluded it 
does--to speedily continue deployment of Block 1.
    But on the other hand, the immediate diversion of those 
funds likely gives us quicker some technology that meets the 
needs of the Border Patrol than we would have gotten with 
SBInet. So there is a little trade-off here. There may be an 
impact on our ability to get SBInet if we decide to build more, 
but certainly it should result in quicker other technologies to 
the border to meet the needs of the agents and officers there.
    Mr. Bilirakis. Thank you.
    A question for Mr. Fisher. What impact have the delays in 
SBInet deployment had on the Border Patrol operations?
    Mr. Fisher. Well, sir, when you look at our capabilities 
and what we currently have, and the deployment and the 
evolution of our strategy under a border security context. Now 
what we are seeing in the deployment in Tucson, specifically 
with SBInet, is an on-going effort to provide beyond what our 
current detection capabilities are.
    We are going to continue--as a matter of fact, I had this 
discussion with the staff here and the field commanders when I 
first came up in January. I said we are going to continue. We 
are going to have objectives. We are going to continue to have 
objectives as it relates to our ability to, one, reduce the 
likelihood that dangerous people and dangerous things get into 
this country, and at the tactical level, make sure that we are 
able to gain, maintain, and expand operational control.
    We are going to have the ability to use personnel, 
technology, and infrastructure as part of our existing 
strategy. We also have to be cognizant of the fact that we are 
dealing with a threat that is ever-evolving and changing. So as 
we look at that, it is not a one-term solution as it relates to 
that right combination.
    Now, with respect to SBInet in Tucson, what we are seeing, 
although it has taken a lot longer than perhaps the operators 
would have liked, we are doing it right. I think at the end of 
the day, what we want to be able to do is use that, not to 
replace all of our detection capability, but add that to a 
suite of other things and other capabilities that the Border 
Patrol agents will have today and will have in the future to 
maintain that operational control.
    Mr. Bilirakis. Thank you very much.
    Last question for Mr. Krone. What is Boeing doing to 
prioritize and resolve defects identified during the testing?
    Mr. Krone. Yes, we have got to discipline both software and 
hardware defect management. It is a best practice. By the way, 
we will get together with Mr. Hite so we understand the 1,300 
issues that he has identified in his report. We have had 
trouble tracking to that number, but we have what we call a 
joint software review board with Customs and Border Patrol. We 
also have the change configuration board where we deal with 
hardware and software.
    We essentially put these defects and issues into five 
levels and prioritize them. Then we work cooperatively with 
Mark and his team to prioritize which ones get fixed 
immediately, which ones get rolled into the next block, and 
which ones, if you will, have no impact into systems operation 
and it is not a best value decision to go correct them.
    Mr. Bilirakis. Okay, thank you.
    Thank you, Mr. Chairman. Appreciate it. Yield back the 
balance.
    Mr. Cuellar. Yes, thank you.
    The gentleman from Florida, thank you very much.
    At this time, I recognize the gentleman from Mississippi, 
Chairman Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like to ask the clerk to display a slide for the 
committee, please.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Thompson. What you have displayed is a capsule of what 
Congress and this committee was promised when we started the 
SBInet program. We were promised completion by 2008. We were 
told that somehow the costs would be less than $2 billion, and 
that the coverage would be the entire southwest border, some 
1,933 miles.
    Based on what we have heard today, we are a long ways from 
completion, somewhere around $833 million, and--am I correct?--
around maybe 20 miles of control. So we have a long ways to go.
    Mr. Hite, you heard Mr. Krone indicate that Boeing looks at 
how they would view their system in three areas: Testing, the 
work, and value. In all those areas, he indicated that in his 
estimation, Boeing had passed; that the testing phase was 
complete; the work was complete; and that the value of the 
system as determined by CBP is good also.
    Do you agree with that?
    Mr. Hite. A couple of thoughts on that. When you critique 
something, or critique oneself, you do it against some type of 
baseline. The baselines that you have put up on the screen here 
talk about the timing of when that was going to get done, at 
what cost.
    If you look at what was promised from the outset on this 
program in terms of where we are right now, promises were made 
relative to deployment over a large geographic area--the entire 
southwest border--that we are about 8 years off of. Promises 
were made relative to sectors that we are probably about 3 
years off of. Then when you get down to specific locations, 
like Tucson-1 and Ajo-1, promises were made that we are 
probably somewhere between 12 and 15 months off of.
    So to evaluate performance and, you know, Mr. Krone was 
talking about where the system is right now, and he was talking 
about, you know, it is working; we have worked off these 
defects; it is being used by the Border Patrol; they like it.
    I am not going to take issue with precisely where the 
system is right now, but if you are going to measure yourself, 
measure yourself against some type of baseline.
    Mr. Thompson. Thank you.
    Mr. Borkowski, you talked about the $50 million purchase of 
equipment. How much operational control will we have of the 
border with the purchase of that equipment?
    Mr. Borkowski. Well, the equipment by itself doesn't get 
you operational control of the border. SBInet by itself doesn't 
get you operational control of the border. It is a combination 
of the personnel, the infrastructure--for example, fence--and 
the technology.
    So I can't really answer that question. I can tell you that 
we have asked the Border Patrol. We have asked the Office of 
Field Operations. We have asked the Office of Air and Marine 
where they would like us to put priority in putting this 
equipment. Then it will be up to them to apply the equipment 
with the other elements, the other three pillars of the stool, 
to determine how far they can get with operational control.
    I don't know--perhaps Chief Fisher might be better 
postured.
    Mr. Fisher. Yes, Mr. Chairman. I think, you know, a point 
worth making is the fact that not a piece of tower or one 
technology solution, not 10 or 15 Border Patrol agents in a 
particular zone, nor an access road or primary fence or 
secondary fence in and of themselves is going to, in our 
tactical operational definition, achieve operational control.
    So in areas where we do have effective operational control, 
which means our field commanders over a period of time have 
deployed or redeployed resources, took out a lot of factors to 
make a determination that those sections of the border were 
either at what we called the controlled or managed level. They 
have made an assessment, more so on the conditions as opposed 
to attributing specifically whether it was the Border Patrol 
agents or whether it was the fence or whether it was the 
technology that caused that area to be under effective control.
    Mr. Thompson. Well, let me ask it another way. Did you ask 
the Border Patrol, Mr. Borkowski, ``What do you need to do your 
job?'', or did you say, ``We have $50 million, go spend it''?
    Mr. Borkowski. We have done both. In fact, we have 
completely restructured the way we design what we do for 
technology, what we need. So we have done both.
    As part of that process, the $50 million is in fact kind of 
the highest priority, most obvious kind of opportunities.
    Obviously, as we make future investments--and, for example, 
the Secretary has frozen the other SBInet so that it is 
available, if appropriate, to divert to other technologies--as 
we make other investments and as those dollars become 
increasingly significant, we will want to do more detailed 
cost-effectiveness analysis.
    But right now, yes, we have gone to the Border Patrol and 
ask that question.
    Mr. Thompson. Yes. What I guess I am trying to figure out 
is, now that we are spending $50 million because of 
shortcomings with SBInet, are you saying we just get a better 
operational control of certain areas? Is that 10 miles? Is that 
20 miles? Is it 50 miles?
    Mr. Borkowski. Mr. Chairman, I don't have that number 
handy. We would have to go and work with the Border Patrol on 
where they want to deploy it.
    Mr. Thompson. Well, I think you need to get it to us, 
because we are just throwing up a $50 million figure, and you 
can't provide the committee any information as to what we get 
for it other than some redundancy and some other things within 
existing systems, and that is fine.
    Mr. Krone, there is some question about Boeing's 
utilization of small service-connected disabled veterans within 
the different tracks. Can you provide the committee with the 
current statistical data within a week?
    Mr. Krone. Yes, sir, we would be happy to provide the 
committee with the information. Let me just give you a couple 
summary numbers today.
    As you know, we have a small-business goal on the program 
of 40 percent content. Right now on the program when you 
include the steel and the fence construction, we are at 33, 
about 34 percent small business.
    We were actually over our goal before we signed up to 
manage the steel supply chain as part of the construction of 
the physical fence. If we removed the purchase of the steel 
from our numbers, we would actually exceed the goal of 40 
percent. We would be at 48 percent.
    But we have the details, and we would be pleased to provide 
them to your office.
    Mr. Thompson. If you will not only provide the percentages, 
but the name of the companies, so we can make sure they do fit 
the criteria----
    Mr. Krone. Yes, sir.
    Mr. Thompson [continuing]. Of small and service connected--
--
    Mr. Krone. We would be pleased to do that.
    Mr. Thompson [continuing]. And other things.
    Mr. Borkowski, at what point can we receive copies of the 
requested assessment that the Secretary indicated was under 
way?
    Mr. Borkowski. I will have to check with the Department on 
that because that is actually in the control of the Secretary's 
office. But we will ask the Department to answer that question.
    Mr. Thompson. Well, we were told it would take 5 weeks. I 
think we are in week 6 or 7 right now. So if you can provide 
that, we are anxiously awaiting the results of the assessment 
that the Secretary indicated would be forthcoming.
    I beg the indulgence.
    Mr. Hite, the question of testing came into some of the 
testimony now. When you test the systems and found the thing, 
who was present? What staff was involved? Who was around?
    Mr. Hite. We did not actually test the system. We----
    Mr. Thompson. Who provided the information?
    Mr. Hite. The Department of Homeland Security, the SBInet 
program office provided us the information.
    Mr. Thompson. So you were provided information indicating 
that tests had failed. Am I correct?
    Mr. Hite. We were provided the information surrounding the 
plans that were prepared for testing. The actual test cases, we 
could analyze them to see how complete they were. We were 
provided the results of testing. We actually went through the 
test cases, went through the results.
    So we didn't actually conduct the tests ourselves, we 
analyzed what was done.
    Mr. Thompson. In your estimation, that was incomplete?
    Mr. Hite. Yes, sir. For tests to be well-planned, they 
needed to have certain characteristics, contain certain 
information, and that information was missing.
    So that made it, in our view, not adequate, and there were 
consequences associated with those omissions.
    Mr. Thompson. Last question, Mr. Chair.
    Mr. Borkowski, what was the official position of the 
Department on this GAO review?
    Mr. Borkowski. The GAO, the Department largely concurred. 
We took some exception, a partial exception to a discussion 
about a particular kind of document, called a test and 
evaluation master plan, which is one of the many types of 
documents. But in general we concurred with the GAO report.
    Mr. Thompson. I yield back. Thank you, Mr. Chair.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time I recognize the gentleman from Texas, Mr. 
McCaul, for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    The recent killings in Juarez of U.S. Consulate officials I 
think demonstrate the dire situation down at the U.S.-Mexico 
border, across from El Paso, my home State of Texas.
    Last year in Mexico over 6,000 people were murdered at the 
hands of the drug cartels, many in very horrific execution-
style slayings.
    There is a war going on, and the president of Mexico calls 
that--calls it a war, because it is. We can't afford to delay 
and delay and wait. We met with Secretary Napolitano this 
morning, and she said, ``You know, I want to take a time-out 
and review this situation and assess SBInet.'' That is fine, I 
respect her opinion on that.
    But we can't afford any more time-outs. I mean, 2008, then 
2013. Then we were told that the earliest this could be 
completed would be 2016.
    Meanwhile, there is a war going on. There are people being 
killed. It is going to spill over into this country. It is a 
threat--security threat--not only to Mexico, but a National 
security threat to the United States. People in our State see 
it up close and personal.
    I have the video clip I want to show. There is an operation 
going on at SBInet Block 1 in the Tucson sector that began on 
February 6 where about four dozen Border Patrol agents, even 
though it is being tested, are making it operational, even 
though it hasn't had final approval.
    Chief Fisher, I would like for you to go ahead, if you may, 
and narrate what we are seeing on this video.
    Mr. Fisher. Yes, sir, I would be happy to.
    This happened last month in the Tucson area of 
responsibility. What you are seeing here in the middle of the 
screen are six backpackers coming in from Mexico. They were 
detected and are being tracked now. You can see carrying 
marijuana, what turned out to be almost 200 pounds of 
marijuana.
    Now, as the screen switches and you see the white hot, you 
see in the upper corner, you will see a Border Patrol agent 
lying in wait. His partner is up ahead of the group, waiting to 
do the interdiction.
    What is also happening, as you can see as it pans out, is 
the Border Patrol agent that is operating the system at the 
command and control is taking a look at their surrounding area 
to provide security for those two Border Patrol agents who are 
about to do the interdiction. At the same time, command and 
control will be calling out to other Border Patrol agents to 
start moving into the area to provide cover.
    Now, the other thing of note I would like you to see is 
when the interdiction is made and the Border Patrol agent in 
front starts challenging the group, identifies himself or 
herself as a Border Patrol agent, the group starts to run, 
except for the person that is first in line with the dopers.
    What happens a lot of times is this person is the guide, 
person who knows where they are going. In some cases in this 
particular area that person may be armed.
    What is happening here is we have a better sense of 
situational awareness, we have a better sense of identifying 
the particular threat. That information would be relayed to the 
Border Patrol agents prior to that interdiction being made.
    Mr. McCaul. Well, I want to thank CBP for sharing this 
video with us, with the committee, with myself. I viewed this 
video a couple days ago and it seems to be working pretty 
effectively. I know that there is even more technology where 
they can put a laser on the dopers crossing to better guide the 
Border Patrol agents to where they are.
    Mr. Fisher. Yes, sir.
    Mr. McCaul. So it works.
    Mr. Borkowski, why is this going to take so much longer to 
finally get approved and get ready? Because, you know, our 
State, home State of Texas has zero, we have nothing on our 
border. The Texas-Mexico border has nothing down there. That is 
where a lot of the killings are taking place.
    Mr. Borkowski. Yes, it does work, but what you see there is 
a system which has some patches. We are finalizing--we want the 
final version of the software, for example. So you have got 
beta versions of software, for example.
    It has to go through something called certification and 
accreditation. So, for example, on your home computer, 
occasionally, you know, Windows sends you a note says there is 
a security patch you need to download. Because we were working 
on the software we didn't download any of those. We have held 
them all in abeyance. We have got to get those in. That takes 
some time.
    Some of the issue is making sure we do have a good test 
plan for the final measurement because we are going to use that 
to make a decision about spending potentially a lot of money on 
more of these.
    So it is important, I think, that we do this right (a), and 
that at the end of the day this looks very, very promising, but 
we make sure we have really tested it, much in line with what 
Mr. Hite has said.
    Mr. McCaul. I can appreciate that.
    What is your time frame--because we saw a successful 
apprehension--what is your time frame for getting this 
approved?
    Mr. Borkowski. As we said, the plan that we have right now 
is to get all of this--these clean-up activities done. The 
system acceptance test should run basically through August and 
we should be ready to turn it over to the Border Patrol for 
their operational tests. They get a chance to say, 
notwithstanding the engineering, they like it, they don't like 
it, very formally. So that should happen in September.
    Mr. Borkowski. We are building Ajo, and one of the reasons 
we are building Ajo is to start to demonstrate, if we decided 
we want more, how quickly they can go up and what they will 
actually cost.
    So Ajo is very important, I think, to your consideration, 
Congressman, because that will give us evidence of whether or 
not it can go up quickly, how long it would take, where it 
would make sense.
    Mr. McCaul. If all goes well and it is approved in short 
order, how soon can be--because 2016 is a very long time out in 
the future. As I mentioned earlier, I don't think we have time. 
We are running out of time here. What can we do to expedite 
this?
    Mr. Borkowski. Again, I think the thing to do to expedite 
this is to divert funds immediately to other technologies which 
are perhaps not quite this effective, but still very effective, 
to those critical areas based on Border Patrol priorities. We 
have started that. We have started diverting funds. The 
Secretary has said this is urgent. There are areas where we 
need something today and if that means this existing 
technology, we are going to do that.
    If it turns out that SBInet Block 1 should be done more 
broadly, then we will have to have a discussion with the 
Congress about the pace and the funding and the budgets 
required for that, but we are just not there yet. In the mean 
time, the Secretary has said technology is urgent; divert some 
funds for some of these other technologies to plug those holes.
    Mr. McCaul. Well, this issue has been largely ignored, in 
my view, by the Congress. I think we need to prioritize this 
issue. There is nothing more important, I think, to a lot of my 
constituents.
    Last question, the Chairman mentioned the UAVs. I have been 
a big proponent of that. I had an amendment on the floor that 
was unfortunately defeated, to provide more UAVs down there. 
There are some. I think it has been very successful in terms of 
surveillance. The Governor from the State of Texas has 
requested additional UAVs to add more resources down to the 
border.
    Would anybody on the panel care to comment on that?
    Mr. Fisher. Yes, sir. As a matter of fact, I am working 
with the assistant commissioner for CBP's Air and Marine, 
General Kostelnik, and one of the things we are looking at is 
trying to expand that capability across the southwest border. 
We are continuing to work with FAA.
    I think it was mentioned earlier that the certificates of 
authorization in trying to get us airspace to be able to, you 
know, deploy those UASs beyond our current capability right 
now. That is going to help our ability to achieve operational 
control even beyond some of those areas where we can fly those 
UASs. We are looking at that, sir.
    Mr. McCaul. The Secretary didn't mention the airspace 
issue. Is there anything that I can do to help you? I am here 
to help, so thank you very much.
    I yield back.
    Mr. Cuellar. I want to thank the gentleman from Texas.
    Let me just add one point. I did meet with CBP Air and 
Marine on the UAVs, and they said they were waiting for FAA to 
give them the CAOs for the State of Texas based there in Corpus 
Christi and to cover Corpus--and all the way up. So I called 
the FAA administrator, Mr. Babbitt, and he told me he has not 
officially gotten the request from CBP.
    I know there has been communication and maybe they have a 
different opinion what a official request is, but I would ask 
you all to contact Mr. Babbitt because I was trying to help you 
all to move this along, because I know we can't fly if we don't 
get those COAs. But I just want to let you know what Mr. 
Babbitt officially told me was that he has not received the 
official request from CBP to get that UAV.
    So whatever that means, I would appreciate an answer as 
soon as you can.
    At this, I would like to----
    Mr. McCaul. Mr. Chairman.
    Mr. Cuellar. Yes, sir.
    Mr. McCaul. If I might for one moment.
    Just to continue briefly on this vein of UAV use. We know 
that a Predator A with a full sensor sweep, very robust sensor 
sweep, day-night, you know--is about $8 million a copy, 
something like that. You know, you could buy several of those 
for the money that Secretary Napolitano set aside and still 
have money left for other things.
    So, you know, as a proponent of this particular system, I 
think, you know, you really ought to consider it. But in any 
event, I yield. Thank you.
    Mr. Cuellar. Thank you very much.
    At this time, I want to thank again the gentleman from 
Texas.
    But at this time, I would like to recognize the gentleman 
from New Jersey, Mr. Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    The aerial border operation that we had working in 2006, 
2007, it was discontinued to address what the gentleman from 
Texas was talking about. Has that been continued? Mr. 
Borkowski.
    Mr. Borkowski. I am not familiar with that. I am sorry, 
Congressman.
    Chief, are you aware of----
    Mr. Pascrell. Acting Director Fisher.
    Mr. Fisher. I am sorry, sir. Could you repeat that, please?
    Mr. Pascrell. Yes, we had an aerial operation which was 
very effective, and both governments said it was very 
effective--Mexico and the United States. I want to know whether 
we have decided to renew that capability again or have we not?
    Mr. Fisher. I am not specifically sure which operation you 
are referencing, but I will find out and let you know, sir.
    Mr. Pascrell. Which brings me to the question of 
accountability. I listened very carefully. In fact, I read your 
testimony, Mr. Hite. The GAO found a lot of inadequacies in 
terms of not only the testing, but the management. I mean, 
somebody is in charge from Homeland Security to review whether 
the testing is proper and going on.
    I think, and any time I ask questions about Homeland 
Security, I want to know who is accountable, because we know 
what happens. The bigger the bureaucracy, the less ability you 
have in any manner, shape, or form, to find out who is 
accountable. Who is accountable, Mr. Borkowski?
    Mr. Borkowski. Ultimately, I am. I am accountable.
    Mr. Pascrell. Well, during this period of testing, you had 
a management team, did you not?
    Mr. Borkowski. Yes, I did.
    Mr. Pascrell. Who was the management? I don't want to know 
names, but you appointed them? How did they get their jobs? I 
mean, we have a serious charge of 70 percent of the testing was 
doctored. That is pretty serious.
    Mr. Borkowski. Congressman, 70 percent of the testing was 
not doctored.
    Mr. Pascrell. Well, let's use another word--changed.
    Mr. Borkowski. Right.
    Mr. Pascrell. At the last moment. How is that? How does 
that term suit you?
    Mr. Borkowski. That is true. That is fine.
    Mr. Pascrell. Okay. Go ahead, tell me.
    Mr. Borkowski. A certain amount of that typically goes on, 
but I agree with Mr. Hite--70 percent is too much. I would also 
point out that----
    Mr. Pascrell. But you don't disagree with the figure, the 
percentage?
    Mr. Borkowski. No.
    Mr. Pascrell. Okay. Okay.
    Mr. Borkowski. I would point out that a good deal of that 
is what my team caught and is what my team has been dealing 
with.
    Mr. Pascrell. Okay, then, who was held accountable for 
that? What did you do to the contractor? What did you do to the 
folks who perhaps let it slip by?
    Mr. Borkowski. The folks that I have who, by the way, have 
worked very hard, Mr. Pascrell, and I do need to defend them. 
The folks that I have have tried very hard to handle this 
program, and I do not believe that they felt they had the 
support from the people at my level. I believe they feel that 
now and we are improving this.
    Mr. Pascrell. Every problem we address, whether it is this 
subcommittee or the other subcommittees, we really never get to 
the fundamental problems of who pushed Jake. We say that the 
problem is too complex. The operation is too complex. We are 
still out there testing, but no one is ever held accountable. 
We are talking about people's lives here.
    The fact that we have tried to implement a very intricate 
technical system is in direct contrast to what we are doing on 
the northern border, which is twice as big, whether it is 
Detroit--regardless of where it is. In fact, in the northern 
border, the construction of cameras, let's say in the Buffalo 
region, is complete. They are much more simplistic. They don't 
include radar capabilities. Why not?
    Mr. Borkowski. Because the idea on the--and again, talking 
with the northern border, and we also were using the money that 
had been earmarked by this Congress. We looked at the best use 
of that money. What they needed was some of the systems that 
are currently available on the southwest border, but had not 
been on the northern border. That is their down payment, 
frankly, and it is a reasonable down payment, and it is one 
that the operators there thought would be very effective.
    Mr. Pascrell. Do you know what percentage of the northern 
border is unprotected?
    Mr. Borkowski. Perhaps the chief can talk to that. I would 
not.
    Mr. Fisher. Sir, just for clarification, I am not quite 
sure when you say ``unprotected.'' We have deployment of--
agents. We have a little bit of infrastructure, not much, and 
some technology that Mr. Borkowski talked about. Some areas, in 
the Buffalo area and Detroit as well, having additional----
    Mr. Pascrell. You have very little infrastructure in the 
north, and when you look at the number of patrols that you have 
patrol--border patrolmen that you have along the border, do you 
know the small percentage that exist per mile in that area?
    Mr. Fisher. Yes, sir. I do.
    Mr. Pascrell. Mr. Fisher, I know you recently took over as 
the head of the Border Patrol.
    Mr. Fisher. In acting capacity----
    Mr. Pascrell. Yes, I wish you well.
    Mr. Fisher. Thank you, sir.
    Mr. Pascrell. I know you have considerable experience in 
the field, especially along the southwest border. Considering 
that experience, I want to ask you, and I want you to give me a 
straight answer, as you usually do, what you feel is the most 
effective way to secure the border. To be clear, are we 
creating an over-reliance on technology instead of hiring more 
border agents, more physical barriers, et cetera, and using 
more traditional methods to patrol the border?
    Finally, isn't this especially true since the technology we 
have spent so much money on and will continue to spend money on 
doesn't seem to be ready for prime time? I think that is a fair 
question.
    Mr. Fisher. Yes, sir. I would agree. I think generally my 
response to that would be our ability to achieve operational 
control and protect the American people is always 
fundamentally, again in my opinion, going to come down to the 
brave men and women that put on this uniform every day and 
recognize that this threat, at least in my lifetime, is not 
going to go away.
    Now, to the extent that we can get additional technology, 
and a lot of different ways, shapes, or forms--I mean, one of 
the things that we look at when we talk about the 
implementation of the strategy, and it is not necessarily so 
simplistic. I am not suggesting that anybody on this particular 
committee. You understand the challenges that we face in an air 
and marine and land threat environment.
    When you take into consideration the environments in which 
we have worked, in the urban, the rural, the remote areas, and 
the fact that the northern border is different from the 
southern border, and the fact that, yes, over the last few 
years we are looking at a workforce now that over 45 percent 
has less than 2.5 years experience, we get that.
    I can tell you, sir, with certainty, what I can guarantee 
you, that each and every day when I put on this uniform and I 
talk with those men and women, is we are going to commit to 
achieving this objective.
    If it means there is going to be an SBI tower in a 
particular area, perhaps in south Texas, if that is what the 
field commanders are telling me that is what they need to be 
able to increase probability of detection and apprehension, we 
are going to do that, sir. If it also means that we are going 
to increase our ability to respond--I apologize, I am new at 
this, sir--we are going to continue to do that as well.
    But I will also tell you that the implementation of the 
strategy, how we do this, is always going to come down to the 
training, the recruiting and Border Patrol agents, both men and 
women, who fundamentally understand this threat and are 
committed.
    When they take that oath of office, and when they say that 
they are going to swear to support and defend the Constitution 
of the United States against all enemies foreign and domestic, 
there is no technology that can guarantee that, sir. That is 
something that I am charged with, to maintain that this culture 
that we are developing will continue to develop in the Border 
Patrol is--continues to be impressed upon the organization.
    Yes, the technology is going to help us do that, sir, and 
it may be a tower, it may be a--surveillance system, may be 
some additional UASes down the road. But fundamentally it is 
that one Border Patrol agent who this afternoon is going to go 
out there and may not have the technology right now, but 
understands that it is not going to happen on their watch.
    So thank you, sir, for that question. I hope that answered 
it.
    Mr. Pascrell. Thank you, Acting Chief Fisher. I hope you 
become the chief.
    Mr. Fisher. Thank you, sir.
    Mr. Cuellar. Want to thank the gentleman from New Jersey 
for his line of questioning.
    At this time I would like to recognize the gentlewoman from 
Ohio, Ms. Kilroy.
    Ms. Kilroy. Thank you, Mr. Chairman.
    Thank you to the panelists for your time here this morning.
    Mr. Borkowski, I would like to ask, you indicated that the 
next steps would be completing the engineering and to taking a 
look at what tools are proven and effective. I would like to 
understand, can you tell us what you are doing to strengthen 
the capacity for systems engineering at the program office 
level?
    Mr. Borkowski. Certainly. I thank you for the question 
because that is very critical to how we got here in the first 
place.
    We have actually within the Secure Border Initiative itself 
reorganized the office in recognition of the fact that there 
are some critical capabilities that a Government program office 
has to have in order to effectively manage a contractor.
    One of those things is to build an office that is focused 
on developing a Government competency for system engineering 
that can be applied not only to this program, but to other 
technology programs as they evolve.
    In addition to that, the Department itself has put a great 
deal of focus on this. The Department, in its chief procurement 
officer, its Acquisition Program Management Division, has also 
established a function to develop a core competency in system 
engineering.
    That is a critical function, and it is often--the lack of 
that function is often the cause of the kinds of problems we 
have seen in the last several years on this program.
    So we are building that. It will take some time. We have to 
hire people. We have to train people. But we recognize the 
significance of it.
    Ms. Kilroy. So we had that core competency in place, could 
we have avoided some of the issues like the last minute changes 
in the testing procedures?
    Mr. Borkowski. Absolutely. Much of the kinds of things that 
Mr. Hite is telling you about are tied to a failure to have 
established a core competency in things like systems 
engineering, yes.
    Ms. Kilroy. Mr. Hite, what do you see that we need to do to 
go forward to improve systems, to address maybe a lack of rigor 
or lack of cooperation or lack of competency? Or are there 
other issues that you see that would be able to improve these 
processes for SBInet or others that we are engaged in?
    Mr. Hite. Yes, ma'am. What you see that has transpired with 
this program over the years in many ways is a microcosm of the 
Department. I would say that the Department has been challenged 
since its inception in being able to manage large-scale 
acquisitions like SBInet.
    There is a number of factors that have contributed to that. 
Just like in performing any type of operation, you accomplish 
things, so you effectively manage a program like this by 
bringing to bear three things. You bring people with the 
knowledge, skills, and abilities to execute these critical 
functions. You define them in a way that is clear and 
transparent and so that they can be consistently applied. Then 
you provide them with the tools they need in order to execute 
these functions.
    In the case of SBInet in particular, from the outset I 
think this program was underestimated in terms of its size and 
complexity. I think it was driven by the need to meet a pre-
defined schedule as opposed to what is it going to take to put 
this kind of system in place. For the sake of schedule, you 
were willing to bypass some of the discipline that comes with 
defined processes executed by adequately staffed and 
knowledgeable people.
    I see that changing now. I have the utmost respect for Mr. 
Borkowski. He is a very competent individual. He came into a 
situation where you had a train moving down a track and you 
needed to change it while it was moving. You just can't stop--
you just couldn't stop it and say, ``Let me build the capacity 
to do this thing right while this train is moving, I have got 
to do these things simultaneously.'' That is not an easy thing 
to do, it is not going to happen overnight. Progress is being 
made in that direction.
    Ms. Kilroy. Thank you. I appreciate the need for competency 
in all of these areas, starting from writing the specs for the 
contracts and writing the contracts themselves, all the way--
all the way through to managing the projects, holding vendors 
accountable.
    But I would also say that there is responsibilities on the 
part of the vendor as well to live up to things and to bring 
problems to attention in a timely manner.
    So, Mr. Krone, is this, the experiences that you are having 
with this particular contract, is that in any way different or 
atypical from other Federal contracts that Boeing has acquired?
    Mr. Krone. Thank you for that question. We have been 
involved in the SBInet program, ma'am, as you know, for 4 or 5 
years. There are clearly different types of contracts under 
what we call the IDIQ umbrella. So there were fixed-price 
elements of this and there are cost-plus and cost-plus 
incentive--award fee.
    Boeing has executed development programs under all those 
types of contract structure, and just as we have across our 
portfolio of programs, delivered some on cost and on schedule, 
some early, and some late. If we look at the task orders under 
the IDIQ umbrella, under SBInet, you would find that there are 
parts of the program that we delivered on cost and on schedule, 
in fact some ahead of schedule; there are some that we have 
delivered on time; but we are here today because on the Arizona 
deployment task order we are over cost and behind schedule, and 
we regret that.
    But if you look at the totality of the SBInet program, from 
P28, northern border, to the fence fabrication, the steel, we 
have a fence lab that we constructed, I think overall the 
Government has gotten good value for their money.
    Ms. Kilroy. What steps would you recommend to prevent more 
delays in the future?
    Mr. Krone. I think most of recommendations that we might 
have, have already been implemented, and I would like to second 
Mr. Hite's comment about the addition of Mark Borkowski to the 
SBInet team.
    Since Mark has taken over as program manager of the SBInet 
program, frankly, ma'am, everything has been working much, much 
better. We have done more system engineering, we have slowed 
down when we have needed to. We have had the latitude of doing 
appropriate analysis ahead of moving systems in the field.
    We feel as good about this program as we have in the last 4 
years and really looking forward to SAT, the systems acceptance 
testing, and turning the system over in OT&E in both Tucson and 
Ajo.
    Ms. Kilroy. One last question, directed to Chief Fisher or 
to Mr. Borkowski.
    As Custom and Border Patrol officers have begun using the 
Block 1 technology, are you seeing an increase in 
effectiveness? Are they preventing or deterring more illegal 
crossings, covering more territory out of one station?
    Mr. Fisher. Although it hasn't been going on too long, what 
we are seeing is, it is increasing our capacity in a variety of 
ways.
    One, it is helping us understand what is actually occurring 
on the ground there. Two, I think it is teaching the Border 
Patrol agents who are at the command-and-control station how to 
think a little bit differently about approaching this 
particular threat.
    So early indications are it is helping us achieve our 
overarching objective, and it is teaching the Border Patrol 
agents--who, by the way, aren't just going to stay their whole 
career looking at the cameras at the command-and-control, they 
are going to go back down into the field to have to work these 
groups, and it is going to give them a better perspective when 
they do that.
    So it is helping, yes, ma'am.
    Mr. Borkowski. Again, I think Chief Fisher is authoritative 
on it. I think it is just interesting to pass on some of the 
feedback that we have gotten, which is one of the things that 
this system provides--and, again, it is very costly--but one of 
the things that this system provides that nothing else we have 
seen or have does is the ability for an agent to observe the 
entire area and everything that is going on in that area at the 
same time.
    Other systems are kind-of localized, so an agent here will 
know this is going on and an agent there will know that is 
going on. But to be able to see four or five or six groups all 
at the same time and to be able to deploy resources to deal 
with each of those, and in fact to see the kinds of things that 
at least the agents have told us about where a group perhaps of 
drug smugglers will lay up and wait for another group to move 
so that the Border Patrol will divert to that group and then 
these drug smugglers can come in behind, now the Border Patrol 
sees all of that and can stop that.
    Now, we still need time to see how that evolves. As Chief 
Fisher properly notes, it is very, very early. But that 
opportunity to see the whole area at once in one place and to 
be able to allocate resources to deal with four or five groups 
at a time from a central location looks like it could be very 
significant.
    Ms. Kilroy. Thank you all.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you. I thank the gentlewoman from Ohio 
for her lines of questioning.
    A couple of things, and we will go down one more round 
quickly, but I just have a couple of questions.
    Mr. Fisher, back on February 16 of this year I sent the 
acting deputy commissioner, Mr. Aguilar--the letter was asking 
him about the UAVs. What are the plans for the northern border 
coverage? I know there is some in parts of it and I know there 
is parts in the southwest also. What is planned for for the 
northern border, for the southern border, or the time table, 
including the coastal area where the Coast Guard, along with 
the Air and Marine are working together on some of the testing.
    I would like to have a request, and I know you have got 
your Congressional folks here, but will you remind Mr. Aguilar 
that it has been 30 days plus 2 days, and that I will ask 
that--and I will ask--work with the committee that 5 working 
days from today that I expect to see that letter. I think that 
is more than sufficient time so he can give us an idea of what 
his plans are on that, No. 1.
    No. 2, we also have a testing coming up I believe in 
April--I believe in April for the DIA. I talked to Boeing, 
talked to Mr. Borkowski also and so did Mr. Fisher. They are 
doing a testing. As you know, DIA, they do use taxpayers' 
dollars and they have done a lot of research and development 
also. They have used a lot of this equipment in Iraq and 
Afghanistan, and if it is tested and it works for the military, 
I have no idea what we can use some of that equipment. Because 
I assume we are not going to use one patch for the whole 
border. I think we are going to use different areas.
    So I want to ask you, and Mr. Borkowski I know we have 
talked about this and we talked about it again yesterday, is, 
one, for you all to sit down with the DIA and see what ideas. 
You know, it might be that maybe the equipment is not 
sufficient, but at least let's sit down with them. I certainly 
want to invite you and the committee Members to Laredo, and the 
committee will give us the exact date for that testing. They 
are doing that testing there. They have done it in the south. 
They have gone to the north. So I certainly want to invite all 
the witnesses to join us at that time.
    I have no further questions. At this time, I will recognize 
Mr. McCaul, the gentleman from Texas, for his lines of 
questions.
    Mr. McCaul. Thank you, Mr. Chairman. Let me echo your 
sentiments. The Department of Defense is testing this type of 
capability. Certainly, with the Afghanistan-Pakistan border, we 
have some serious--I mean that is a serious border issue as 
well. There is no reason why you couldn't apply the same 
technology they are advancing there on our--on our U.S.-Mexico 
border.
    I know the Chairman I think is planning a CODEL I think 
down to look at this facility in Texas, and I hope to join you 
on that.
    When I was down in El Paso, and chief, you do have some 
great men and women working for you. I was down there in El 
Paso last time when they were killing police officers in 
Juarez. I said, ``What do you perceive to be the biggest threat 
still?'' He said, ``It is the terrorist threat. It is the human 
trafficking. It is the terrorist threat.''
    This situation actually kind of reminds me a lot of where 
we were in the Iraq war where there was loss of confidence on 
the part of Congress in the operation. Then we had Secretary 
Gates and General Petraeus came in and they restored confidence 
on the part of the Congress and on the mission itself.
    I am hopeful that Mr. Borkowski and Chief Fisher, you all 
are going to be able to play that role here, to restore faith 
in the Congress that this can be done. But like Gates and 
Petraeus, they came forward and basically were very honest with 
us. They weren't trying to spin anything. They got the 
confidence of the Congress by being sincere and honest and 
admitting where we made mistakes.
    But they also came up with a game plan--you know, a surge, 
the Sunni awakening, the de-Baathification. You know, a lot of 
things that at the end of the day worked--counterinsurgency 
plans. I see a lot of analogies in what happened there to this. 
I think what we are really asking for is for you all to come up 
with a game plan. You know, be honest with us. Come up with 
some metrics that actually are realistic, some quantifiable 
numbers, so that we can be assured, you know, that we are back 
on track here.
    You know, tell us that you know what, here are the 
problems, but we are looking at adding in terms of the virtual 
fence, if you will, you know, 200 miles a year or whatever it 
is. But you know, this is--it is so unquantifiable right now, 
it is hard to get a handle on where we are.
    I think as representatives of the American people, I really 
think that is where the American people are with this. They 
just want to know, you know, when is this going to get done. Be 
honest with us and realistic in your assessment. Then I think 
you are going to find if you do that, like in Iraq and that 
situation, you are going to you are going to have a lot more 
support on the part of the Congress.
    I think Mr. Borkowski and Chief Fisher, you have a unique 
opportunity coming in sort of as a fresh face to this to turn 
this thing around and put it in the right direction. I don't 
know if there are any comments to that. If there are, I would 
be happy to hear that.
    Mr. Fisher. Sir, you have my commitment that I will always 
be forthright with this committee and all committees, and I 
will do my level best to make sure that our border security 
mission, that we achieve those objectives and we are able to 
articulate the extent to which we are able to do that during my 
command. Thank you, sir.
    Mr. Borkowski. I would just add, I think you make a very 
good point, sir. I think we are getting to the point where we 
better understand where we are, but I think what is missing is 
the: ``What is the game plan forward?''. I believe that that is 
a large part of the Secretary's intent in going through this 
assessment is to require us to present a game plan forward.
    Mr. McCaul. Because you have, you know, you have good 
technology here. I know Boeing has been working hard on this. I 
know you all have as well. But I know the Secretary has taken a 
deep breath and is looking at all this. But I would, you know, 
that is just my advice to you.
    With that, I yield back.
    Mr. Cuellar. Thank you, Mr. McCaul. Again, I agree and I 
certainly want to echo the statement by my friend from the 
State of Texas. I think following up on that point, I think the 
fact that the Secretary sat back and is looking at the big 
picture, I think that is good for all of us, and certainly we 
want to be team players with you on this endeavor.
    I understand it is a very difficult situation. I know 
technology is only a component. You know, the men and women 
that are out there, I know a lot of them. They live in my 
neighborhood there in Laredo and I am sure we have got them all 
over the southern-northern border. We appreciate the work.
    Technology is one part of it. It is one component, but it 
is an important component to this.
    So I want to thank all of you. I know this is a very 
difficult situation, but it is one that we have to win. We just 
have to win this one.
    So I want to thank all the witnesses for their valuable 
testimony and the Members for their questions. Members may have 
additional questions for the witnesses and we will ask you to 
respond to those questions in writing as soon as possible.
    Hearing no further business, this subcommittee stands 
adjourned.
    [Whereupon, at 11:56 a.m., the subcommittees were 
adjourned.]


         SBINET: DOES IT PASS THE BORDER SECURITY TEST? PART II

                              ----------                              


                        Thursday, June 17, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                 joint with
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [Chairman of the Management, Investigations, and 
Oversight subcommittee] presiding.
    Present from the Subcommittee on Management, 
Investigations, and Oversight: Representatives Carney, Green, 
and Bilirakis.
    Present from the Subcommittee on Border, Maritime, and 
Global Counterterrorism: Representatives Cuellar, Sanchez, 
Kirkpatrick, Miller, McCaul, Rogers, and Smith.
    Mr. Carney [presiding]. The subcommittees will come to 
order. The Subcommittee on Management, Investigations, and 
Oversight and the Subcommittee on Border, Maritime, and Global 
Counterterrorism are meeting today to receive testimony on 
``SBInet: Does it Pass the Border Security Test? Part Two.''
    Good morning, and I would like to take a second to thank 
Chairman Cuellar and his subcommittee for continuing to work 
with my subcommittee on this issue, so thank you, Henry.
    Today we are here to receive testimony on the Department of 
Homeland Security's efforts to secure the Nation's borders 
through the Secure Border Initiative technology or SBI, also 
known as SBInet.
    According to the GAO report released today entitled 
``Secure Border Initiative: DHS Needs to Reconsider its 
Proposed Investment in Key Technology Program,'' poorly defined 
requirements and limitations in the capabilities of 
commercially available system components have led the 
Department to downgrade its expectations for SBInet.
    The result will be a deployed and operational system that, 
like Project 28, may not live up to expectations and provide 
less mission support than was originally envisioned. As Boeing 
developed the system, it became clear it would not meet the 
requirements established by the Department.
    As opposed to ensuring that the requirements were 
satisfied, the number of component-level requirements was 
reduced from 1,286 to 880, or by about 32 percent.
    Some examples of requirements that received waivers or 
deviations include, unattended ground sensors that could not 
differentiate between human, vehicle, and animal targets. Since 
they were only able to identify potential vehicles, not humans 
and animals, this requirement was changed.
    The daytime cameras to identify humans were judged to be 
operationally ineffective over 5 kilometers, while the 
requirement indicated that the cameras should be effective to 
10 kilometers.
    The laser range finder was determined to have an effective 
range of less than 2 kilometers, while the requirement for the 
effective range was again 10 kilometers.
    The geographic locations that will deploy SBInet 
capabilities have also been reduced. As of September 2008, the 
initial Block 1 deployment was to span three Border Patrol 
sectors--Tucson, Yuma, and El Paso--for a total of 655 miles. 
Deployment to these three areas was the priority of the Border 
Patrol, due to the high threat levels.
    At present, the only areas expected to be covered by SBInet 
technology on the southwest border are Tucson and Ajo-1. 
Together, these two for--that is Tucson-1 and Ajo-1. Together, 
these two deployments cover a mere 53 miles of the 1,989-mile 
southern border.
    The Department has not yet estimated a reliable life-cycle 
cost of deploying Block 1, in violation of OMB regulations. The 
cost estimate should include all Government and contractor 
costs over the program's full life-cycle, from program 
inception, through design, development, deployment, operation, 
and maintenance all the way to retirement.
    According to the GAO, the cost estimate calculated by the 
Department does not include all relevant costs, such as support 
contractor costs, costs associated with system and software 
design, development, and all testing activities.
    Furthermore, the cost estimate has not been updated to 
reflect program changes that have occurred since its 
development.
    In response to GAO's findings, Department officials 
indicated that the DHS Cost Analysis Division was unable to 
prepare an accurate cost estimate due to a shortage in the 
personnel and the tools needed to do so.
    It also has indicated that as of July 2009, there were only 
eight cost estimators, six in headquarters and two in program 
offices, for the entire Department of Homeland Security.
    SBInet has been plagued with a number of technology and 
systems integration issues, as highlighted by GAO. Over $1.1 
billion has been spent on a Secure Border Initiative, and over 
$800 million has been spent on SBInet alone. Fifty-three miles 
at a cost of $1.1 billion is unacceptable.
    At our last hearing on SBInet in March, I asked if we could 
get a refund, and I believe the taxpayers would still like one. 
Now perhaps some good has come from this program, but not 
nearly enough to justify the funding and the time that has been 
spent on this program. I urge the Department to continue to 
explore alternative means to secure the border in a timely and 
effective manner.
    I want to thank the witnesses for their testimony. I look 
forward to hearing from them.
    [The statement of Chairman Carney follows:]
          Prepared Statement of Chairman Christopher P. Carney
                             June 17, 2010
    Today we are here to receive testimony on the Department of 
Homeland Security's (DHS) efforts to secure the Nation's borders 
through the Secure Border Initiative (SBI) technology component known 
as SBInet. According to the GAO report released today entitled ``Secure 
Border Initiative: DHS Needs to Reconsider its Proposed Investment in 
Key Technology Program,'' poorly defined requirements and limitations 
in the capabilities of commercially available system components have 
led the Department to downgrade its expectations for SBInet. The result 
will be a deployed and operational system that, like Project 28, may 
not live up to expectations and provide less mission support than was 
originally envisioned.
    As Boeing developed the system, it became clear it would not meet 
the requirements established by the Department. As opposed to ensuring 
that the requirements were satisfied, the number of component-level 
requirements was reduced from 1,286 to 880, or by about 32 percent.
    Some examples of requirements that received waivers or deviations 
include:
    Unattended ground sensors that could not differentiate between 
human, vehicle, and animal targets. Since they were only able to 
identify potential vehicles--not humans and animals--this requirement 
was changed.
    The daytime cameras to identify humans were judged to be 
operationally ineffective over 5 kilometers, while the requirement 
indicated that the cameras should be effective to 10 kilometers.
    The laser range finder was determined to have an effective range of 
less than 2 kilometers, while the requirement for the effective range 
was 10 kilometers.
    The geographic locations that will deploy SBInet capabilities have 
also been reduced. As of September 2008, the initial Block 1 deployment 
was to span three Border Patrol sectors: Tucson, Yuma, and El Paso--for 
a total of 655 miles. Deployment to these three areas was the priority 
of the Border Patrol, due to the high threat levels. At present, the 
only areas expected to be covered by SBInet technology on the southwest 
border are Tucson-1 and Ajo-1. Together, these two deployments cover a 
mere 53 miles of the 1,989-mile southern border.
    The Department has not yet estimated a reliable life-cycle cost of 
deploying Block 1, in violation of OMB regulations. The cost estimate 
should include all Government and contractor costs over the program's 
full life-cycle, from program inception, through design, development, 
deployment, operation, and maintenance all the way to retirement. 
According to the GAO, the cost estimate calculated by the Department 
does not include all relevant costs, such as support contractor costs, 
costs associated with system and software design, development, and all 
testing activities. Furthermore, the cost estimate has not been updated 
to reflect program changes that have occurred since its development.
    In response to GAO's findings, Department officials indicated that 
the DHS Cost Analysis Division was unable to prepare an accurate cost 
estimate due to a shortage in the personnel and tools needed to do so. 
It was also indicated that, as of July 2009, there were only eight cost 
estimators (6 in headquarters and 2 in program offices) for the entire 
Department of Homeland Security.
    SBInet has been plagued with a number of technology and systems 
integration issues, as highlighted by GAO. Over $1.1 billion has been 
spent on the Secure Border Initiative, and over $800 million has been 
spent on SBInet alone. Fifty-three miles at a cost of $1.1 billion is 
unacceptable. At our last hearing on SBInet in March, I asked if we 
could get a refund and I believe the taxpayers would still like one. I 
believe some good has come from this program, but not nearly enough to 
justify the funding and time that has been spent on this program. I 
urge the Department to continue to explore alternate means to secure 
the border in a timely and effective manner.

    Mr. Carney. The Chair now recognizes the Ranking Member of 
the Management, Investigations, and Oversight Subcommittee, the 
gentleman from Florida, for an opening statement.
    Mr. Bilirakis. Thank you, Mr. Chairman. I want to welcome 
the witnesses. The Committee on Homeland Security and its 
subcommittees have held no less than eight hearings on the 
Secure Border Initiative and its technology piece, SBInet, 
since 109th Congress. Unfortunately the news has not gotten 
better over time.
    I am extremely concerned with GAO's conclusion in its most 
recent SBInet review that DHS has yet to demonstrate that its 
proposed SBInet solution is cost-effective--is the cost-
effective course of action, and thus whether the considerable 
time and money being invested to acquire and deploy it is a 
wise and prudent use of limited resources.
    As I noted at our last hearing on SBInet in March, it is 
simply unacceptable that our borders are not secure. I, along 
with many of my colleagues, am anxiously awaiting the results 
of the Secretary's assessment of SBInet and her strategy for 
securing the border going forward.
    I am interested in hearing from our witnesses about when we 
can anticipate the completion of this assessment. What is the 
status of the plan to redeploy $50 million in Recovery Act 
funds originally intended for Block 1 to other commercially 
available border security technologies. When? Where and when 
will this technology be deployed?
    I am also supportive of deploying National Guard troops to 
the border, but once again, the requirement has not provided 
this committee with the details of its plan. This piecemeal 
approach and consistent lack of details makes me question 
whether the Secretary has a comprehensive strategy for securing 
our borders.
    I am also troubled by the themes that run through many of 
the Department's large-scale procurements. Many of the GAO 
findings related to SBInet also apply to other large-scale DHS 
procurements.
    The GAO finding that the Department lacks the basis to 
determine whether the proposed SBInet system will work and is 
cost-effective is similar to the GAO findings on procurements 
such as a transformation and systems consolidation, the 
Department's financial management consolidation effort.
    In both procurements, there is an inability to reliably 
estimate the overall cost of the projects. Mr. Chairman, we on 
this--the management subcommittee, must work to ensure that the 
Department has the resources and staffing it needs to develop 
the vital acquisition management capabilities such as cost 
estimation.
    Until we can mature these functions at the headquarters 
level, I fear that we will continue to see problems in these 
large-scale procurements. With that, I would like to welcome 
our witnesses, again. I look forward to your testimony. 
Securing our borders is essential to homeland security, and we 
have to get it right.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Carney. Thank you.
    The Chair now recognizes the Chairman of the Border, 
Maritime, and Global Counterterrorism Subcommittee, the 
gentleman from Texas, Mr. Cuellar, for an opening statement.
    Mr. Cuellar. Thank you, Mr. Chairman, Mr. Carney. I 
appreciate that both of our committees are working together, so 
I want to thank you and your Members on that.
    Today, the subcommittees come together to continue our 
examination of the SBInet to discuss the finding of a new 
report from the Government Accountability Office. Almost 3 
months ago, we heard from this same panel of witnesses on the 
Department's on-going efforts to deploy technology at our 
Nation's ports.
    As you all know, there has been some good spots and there 
has been some other areas that we need to improve. I know Mr. 
Borkowski you have been down to the border and I appreciate 
your effort. Hopefully we will spend some time with the new 
chief also on that.
    But we really appreciate, you know, the good efforts that 
are being made. But there is still some issues, as we all know, 
about SBInet. A number of problems the SBInet was growing 
faster than the numbers being fixed.
    There has been some questions as to whether the testing 
procedures have been modified to help the system pass the test 
instead of ensuring that the system delivered as promised.
    This is not what we envisioned back in 2006 when this got 
started. At that time, DHS called SBInet a ``strategic 
partnership'' that would allow the Department to ``exploit the 
private sector ingenuity and expertise to quickly secure our 
Nation's borders.''
    Unfortunately, as you know, there has been issues about 
planning, missed deadlines, technology issues and questions 
about oversight. Again, we talked about this and we will spend 
a little bit more time talking about that.
    Again, I am one of those that I like to recognize the good 
parts because there are some improvements. But we still have 
got to look at some of the efforts.
    As you know, I do represent a border district and I have 
been following SBInet's development and progress and working 
with our former Chair Loretta Sanchez. We have been working on 
the SBInet along with our Chairman on this particular issue.
    We, you know, of course we are going to talk about and 
certainly want to see the responses to the GAO's findings, you 
know, that promises made at the start of the program still 
remain unfulfilled as the expected scope and capabilities of 
SBInet have continued to shrink over the last few years.
    For example, the initial SBInet deployment was supposed to 
cover 655 miles and three Border Patrol sectors, Tucson, Yuma, 
and El Paso. However, the initial deployment at now best covers 
only 387 miles and includes only Tucson and the Yuma sectors.
    Over the last 15 months, the number of system requirements 
has dropped from 1,286 to 880 or 32 percent. Again, those are 
things that we have to look at. SBInet was created to 
strengthen the ability to detect, identify, and respond to 
unauthorized entries, and certainly some of the performance 
capabilities have been relaxed.
    I am one of those I feel that using, in my personal 
opinion, using a fence is a 14th century solution to a 21st 
century problem that we have. This is why the right mixture of 
technology, personnel, the overall procedures that Border 
Patrol and the other folks use are so important.
    But again, you know, these are issues that we need to look 
at very carefully. One of my concerns is trying to get the 
border covered as soon as possible. If you look at it, for the 
last 4 years I think we spent about $1.3 billion.
    If you look at the page, you know, if you just work with me 
on the addition, the covered amounts that we have covered so 
far cover the--almost 2,000 miles. It will take us roughly to 
the year 2034--2034.
    Then if you multiply $1.3 billion every 4 years and get to 
2034, that will give you a large number. I know we can do 
better and I know we can do this quicker than the year 2034 to 
secure 2,000 miles of border.
    So certainly, Mr. Borkowski and your folks, Mr. Fisher, we 
appreciate the work and I certainly commend Secretary 
Napolitano for taking the reviews so we can step back, take a 
breath, see what works. You know, how do we make this thing 
work as soon as possible?
    So certainly I appreciate all the good work that you all 
are doing, but we do have some issues that we need to address. 
I think by working together, by addressing these issues, we 
will be able to address it.
    At this time I want to thank the witnesses for being here. 
Keep in mind that we are not here to try and catch anybody. We 
are trying to see how do we make things work so it is not us 
versus you? It is not us versus you. It is all of us working 
together to find that security.
    [The statement of Hon. Cuellar follows:]
              Prepared Statement of Chairman Henry Cuellar
                             June 17, 2010
    Today, the subcommittees have come together to continue our 
examination of SBInet and discuss the findings of a new report from the 
Government Accountability Office. Almost 3 months ago, we heard from 
this same panel of witnesses on the Department's on-going effort to 
deploy integrated technology at our Nation's borders.
    The testimony was worrisome: The number of problems with SBInet was 
growing faster than the number being fixed. Testing procedures appeared 
to have been modified to help the system ``pass the test'' instead of 
ensuring the system delivered as promised.
    The state of this program is not what was envisioned when it was 
initiated in 2006. At that time, DHS called SBInet a ``strategic 
partnership'' that would allow the Department ``to exploit private 
sector ingenuity and expertise to quickly secure our Nation's 
borders.''\1\
---------------------------------------------------------------------------
    \1\ Michael Chertoff, DHS Secretary, ``DHS Announces SBInet 
Contract Award to Boeing,'' Department of Homeland Security Press 
Release, September 21, 2006, available at http://www.dhs.gov/xnews/
releases/pr_1158876536376.shtm.
---------------------------------------------------------------------------
    Unfortunately, in the years since, SBInet has been plagued by poor 
planning, missed deadlines, technology issues, and inadequate 
oversight. I have the privilege of representing a district along the 
southern border and, as a result, I have been closely following 
SBInet's development and progress.
    People along the southern border have been eagerly awaiting the 
additional support promised by SBInet in the face of growing violence. 
However, as the GAO's findings indicate, the promises made at the start 
of the program remain unfulfilled as the expected scope and 
capabilities of SBInet have continued to shrink over the last few 
years.
    For example, the initial SBInet deployment was supposed to cover 
655 miles and three border patrol sectors: Tucson, Yuma, and El Paso. 
However, the initial deployment will now, at best, cover only 387 miles 
and include only Tucson and Yuma sectors. Over the last 15 months, the 
number of system requirements has dropped from 1286 to 880 or 32 
percent.
    The reductions to SBInet do not end there.
    SBInet was created to strengthen the ability to detect, identify, 
and respond to unauthorized entries. However, its performance 
capability has been relaxed. Under new thresholds, SBInet performance 
is acceptable if it identifies a mere 49 percent of items of interest. 
As even my two daughters know, 49 percent is not even close to a 
passing grade.
    After numerous hearings and GAO reports since the inception of the 
program, it is my sincere hope that DHS can take the lessons learned 
and apply them in a meaningful way. After more than 4 years and 
approximately $1.3 billion, we need to get on the same page about what 
a technology solution at the border looks like.
    I am curious to learn more about the status of the Department's on-
going assessment of SBInet and what it means for the future of the 
program. I commend Secretary Napolitano for undertaking this review.
    Most importantly, I want to hear a commitment to doing more to 
secure our borders sooner rather than later, whether through additional 
personnel or proven technologies. Border communities, like those I 
represent, have waited long enough.

    Mr. Cuellar. The Chair now recognizes the Ranking Member of 
the Border, Maritime, and Global Counterterrorism Subcommittee, 
the gentlewoman from Michigan, for an opening statement. Mrs. 
Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman, and Mr. 
Chairman. I appreciate you both holding this joint hearing 
today; interested listening to the comments about SBInet and 
the experience that our Nation has had on the southern border.
    I would like to make a couple of comments about our 
experience with SBInet on the northern border. We have a 
modified version of SBInet, mainly involving camera towers and 
mobile surveillance equipment that has been deployed in two 
primary locations, both in Buffalo and Detroit.
    In the Detroit sector, which actually runs through my 
Congressional district, so I am very familiar with it, we have 
10 of the 11 towers that have been proposed already installed. 
They cover approximately 37 miles along the St. Clair River, 
which is an international river between Michigan and Canada.
    If you think of the map of Michigan, St. Clair River is 
running sort of along from the tip of the thumb here--oh, 
excuse me, not quite the tip of the thumb, but right from about 
this knuckle down the St. Clair River there.
    According to the reports from the Detroit sector chief, who 
has worked very, very diligently I might say, on the roll-out 
and the community outreach related to this initiative, and I 
would like to recognize Mr. Borkowski who was there when we had 
our community roll-out which went very, very well.
    The towers and the cameras have been installed. They are 
operating with minor delays, and the CBP actually accepted the 
program, the system in April of this year. In fact, the 
``Detroit News'' is going to be writing a very large article 
about SBInet on the northern border this weekend.
    I think it is important that the current review of SBInet 
under way in the Department also includes a review of what is 
happening on the northern border sites. I think about how we 
might expand these programs.
    Operational control of the border must be a top and urgent 
priority, and I understand what is happening on the southern 
border. I understand the problems there. Believe me, I am 
sensitive to them.
    I still think it is important to point out there is a lot 
we don't know about illegal activity happening on the northern 
border because we lack sufficient Border Patrol resources and 
technology. In fact, there are only 32 miles considered to be 
under effective control on the northern border, which is a 
4,000-mile long border.
    I think when we have our first big ``get,'' if we could 
call it that, with the SBInet on the northern border, I think 
people's eyes will pop out when they see what is coming across 
the northern border as well.
    I think one of the things that concerns me is the sort of 
matter-of-fact way that canceling the SBInet is being 
discussed. We have invested nearly $1 billion in this 
technology, and so we don't want to let it go to waste.
    I think as the Department moves ahead either with SBInet or 
another system, I think we obviously all have to think about, 
as has already been mentioned, we need to be good stewards of 
the taxpayer money and make use of the investments that we have 
made in SBInet thus far.
    I am also a bit concerned by the Department's backtracking 
on the end goal of providing essential detection and 
identification capability for the Border Patrol.
    I would say one of the things that concerns me most about 
the efforts to secure the border is the lack of a cohesive or a 
coherent plan from the Department on how to move forward. We 
find that nearly every month either the Department or 
particularly the White House announces a new initiative or 
assessment. But then we don't see any results or progress.
    I would just mention in January, Secretary Napolitano 
announced the review of SBInet plus an assessment of 
alternatives to see what other technology could be used on the 
border. That has been 6 months, and I don't think we are any 
closer to knowing how we are going to proceed. Hopefully 
today's hearing will shed a bit of light on that.
    As has also been mentioned, last month the Obama 
administration took the first step in acknowledging that we 
need more to be done on the southwest border and by requesting 
$500 million in emergency spending up to 1,200 additional 
National Guard troops, I think everybody welcomed this change.
    But again, it has been 23 days since that announcement has 
been made. Incredibly no additional information has been 
provided on how the money would be spent, how many additional 
Border Patrol agents could be added, when and how the National 
Guard will operate.
    It seems as though the administration perhaps made this 
announcement in a vacuum without even--I know the DHS can't 
comment on this, but it seems as though they were not consulted 
on this prior to the announcement.
    I would just close by mentioning one other issue that has 
been in the news this week. That is that this week ICE 
announced significant changes for illegal aliens in their 
detention standards. This may not be the place to talk about 
that, but I will mention this because it had a lot of interest 
around the Nation.
    Apparently moving forward a number of the facilities will 
now be offering bingo and dance classes, 12-hour visitation 
rights and a snack bar. I raise that because I think this shows 
a disconnect between the priorities of this administration and 
of the majority of the American people about the will that we 
have as a Nation for securing our borders.
    I think we certainly need to see a sense of urgency from 
the administration to develop a very clear strategy for gaining 
control of the border.
    With that I would yield back my time. Thank you, Chairman.
    Mr. Carney. Thank you, Mrs. Miller.
    Other Members of the subcommittees are reminded that under 
committee rules opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
           Prepared Statement of Chairman Bennie G. Thompson
                             June 17, 2010
    In 2006, the Department of Homeland Security announced its plan to 
install technology along the southwest border that would serve as a 
virtual fence and provide Border Patrol with the information it needs 
to secure the border.
    Four years and $1 billion later, we are still without the plan that 
was originally envisioned.
    To make matters worse, this was not our first opportunity to get 
this right.
    Two former border technology programs--the Integrated Surveillance 
Intelligence System (ISIS) and the American Shield Initiative (ASI)--
were eliminated due to mismanagement and equipment failure.
    The third time, as they say, was supposed to be a charm.
    This committee's oversight, along with the report that GAO will 
release at today's hearing, indicates otherwise.
    Regrettably, the partnership between DHS and Boeing has produced 
more missed deadlines and excuses than results.
    When Boeing was awarded the SBInet contract in 2006, we were told 
that SBInet technology would be deployed along 655 miles of the 
southwest border in Tucson, El Paso, and Yuma by the end of 2008, to 
help the Border Patrol gain operational control of the southwest 
border.
    Four years later, and 2 years beyond the original deadline, SBInet 
technology is only being deployed along 23 miles in what is called 
Tucson-1 and 30 miles along what is referred to as Ajo-1 totaling a 
mere 53 miles; which is a far cry from 655.
    According to my calculations, that equals nearly $20 million per 
mile.
    Furthermore, the capability of what is being deployed along those 
53 miles is far less than what was originally expected.
    The original plan was to approve equipment that met a threshold of 
95 percent for detecting and identifying items of interest that crossed 
the border.
    When it was determined that the system in place would not meet that 
standard, instead of attempting to improve what we had, Boeing and the 
Department lowered the standard to 70 percent.
    As we learned in our last hearing on this issue, this same type of 
numbers game was also used when the system was tested.
    As a result, I have little to no confidence in the usability of 
this system, despite its exorbitant cost.
    I am convinced that DHS and Boeing grossly underestimated the task 
of standing up SBInet.
    I am pleased that the Secretary is conducting an evaluation of 
SBInet's future, including Boeing's performance under its contractual 
obligations.
    I would urge the Department to continue to look to the innovation 
of this great country for border security technology, as opposed to 
continuing to use taxpayer dollars on a system that does not live up to 
our expectations.

    Mr. Carney. I would like to welcome our panel of witnesses 
today. Our first witness is Mr. Randolph Hite. He is director 
of information technology architecture and systems issues at 
GAO, where he is responsible for GAO's work on IT issues across 
the Government concerning architecture and systems acquisition, 
development, operations, and maintenance.
    During his 30-year career with GAO, Mr. Hite has directed 
reviews of major Federal IT investments, including DHS' border 
security modernization programs.
    Our second witness is Mr. Mark Borkowski. Mr. Borkowski was 
named executive director of the Secure Border Initiative 
Program Executive Office in October 2008. Mr. Borkowski 
oversees SBI implementation at Customs and Border Protection.
    Previously, Mr. Borkowski served as the executive director 
for mission support at Border Patrol headquarters. Before 
joining CBP, Mr. Borkowski was a program executive for the 
robotic lunar exploration program at NASA headquarters.
    Our third witness, Chief Michael J. Fisher, was named chief 
of the Border Patrol on May 7, 2010. In that role, Chief Fisher 
serves as the Nation's highest-ranking Border Patrol agent and 
directs the enforcement efforts of more than 20,000 Border 
Patrol agents responsible for patrolling our Nation's borders 
between the official ports of entry.
    From January 3, 2010 until his May appointment, Chief 
Fisher served as the acting chief. Prior to that appointment he 
served as chief of Border Patrol's San Diego sector. Chief 
Fisher started his duty along the southwest border in 1987 in 
Douglas, Arizona.
    After completion of the selection process for the Border 
Patrol Tactical Unit in 1990, he was selected as a field 
operations supervisor for the tactical unit assigned to El 
Paso. Chief Fisher has also served in Detroit and Tucson at the 
Border Patrol headquarters.
    Our fourth witness, Mr. Roger Krone, is president of 
Network and Space Systems for the Boeing Company. Before the 
formation of Network and Space Systems, Mr. Krone was vice 
president and general manager of Boeing's Army Systems 
Division.
    He has held several other business management and financial 
positions at Boeing's U.S. Army programs in military rotorcraft 
and Boeing Military Aircraft and Missile Systems.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask the witnesses to summarize 
their statements for 5 minutes, beginning with Mr. Hite.

 STATEMENT OF RANDOLPH C. HITE, DIRECTOR, IT ARCHITECTURE AND 
     SYSTEMS ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Hite. Thank you, Chairman Carney, Chairman Cuellar. 
Before I begin, let me first commend each of you for your 
oversight, the oversight by you and your staffs on SBInet.
    In my opinion you have made a difference in bringing 
attention to a program that from the outset has been troubled. 
Despite the addition of some new and qualified program 
leadership, it has struggled to right itself over the last 18 
months.
    Today we are releasing the latest in a series of reports 
that we have done on SBInet. This report was issued to you on 
May 5 of this year. Like the prior report in this series, we 
continue to sound the alarm about program uncertainties, 
management weaknesses, performance shortfalls, and risks.
    In particular, we reported early on that DHS was investing 
heavily in a system solution without committing to what system 
capabilities would be delivered by when and at what cost and 
without linking capabilities to measurable mission outcomes or 
benefits.
    We also reported that the manner in which the program was 
being executed was extremely wanting, to the point that it was 
unlikely that the delivery system would meet mission needs and 
perform as intended.
    We further reported that changes to the program milestones 
were all too frequent, and the program's exposure to risk 
because of the uncertainties, the shortfalls and the 
weaknesses, was not being adequately disclosed and mitigated.
    More recently we reported what I described in this hearing 
room 3 months ago as ``The Good, the Bad, and the Ugly,'' about 
how SBInet was being tested, as well as a disconcerting trend 
in the number of unresolved system problems that was not 
indicative of a maturing system.
    Our latest report continues to raise serious concerns about 
the program's commitments and its execution. I will summarize 
the report's message by making four points.
    Point No. 1, while DHS is finally committed to what 
capabilities the first increment of SBInet is to include, these 
capabilities have continued to shrink in terms of what the 
system is to do and how well and where it is to do it.
    One example of that deals with the geographic footprint 
that many of you have already described. Another deals with the 
system performance of the system that has been relaxed to the 
point that it will be deemed accessible if but 49 percent of 
the items of interest across the border can be identified.
    Point No. 2, the schedule being used to execute the program 
that was available at the time of our review did not adequately 
capture when and in what order the work needed to deliver the 
system would occur.
    At the same time milestones for the program have continued 
to be pushed out into the future. As a result, we do not have 
any confidence that the most recent set of program milestones 
associated with accepting the system will be met.
    Point No. 3, DHS has yet to demonstrate, and many of you 
have made this point as well, that SBInet will not produce 
mission benefits that are commensurate with the system's 
December 2008 estimated cost of $1.3 billion.
    In particular, this estimate is not reliable for a litany 
of reasons, and measureable benefits expected from the system 
will not be known, according to DHS, until the system has been 
deployed and can be operationally evaluated.
    In effect, DHS is saying that it will have to invest more 
than a billion dollars in SBInet before it will know whether 
doing so is economically justified and cost-effective vis-a-vis 
other technology alternatives.
    Point No. 4, DHS has continued to fall short in its 
application of acquisition management discipline and rigor 
associated with, for example, requirements definition and 
management. Such discipline is absolutely necessary to 
reasonably ensure the capability, benefit, cost, and schedule 
commitments on a program like SBInet can be met.
    Not surprisingly, DHS has established a pattern of not 
living up to SBInet commitments. Simply put, the answers to the 
two most basic questions associated with successfully acquiring 
a system like SBInet, namely: ``Are we doing the right thing? 
Are we doing it the right way?''
    Right now, the answers would be, ``We don't know,'' and 
``No, we are not.'' As many of you mentioned, after having 
invested almost a billion dollars in 5 years, the answers to 
these questions should be, ``Yes.''
    In closing, let me end on a positive note by saying that 
DHS has agreed with many of our recommendations and has already 
taken action aimed at addressing them. For example, the program 
office has taken steps to improve its risk management efforts.
    Also, the DHS Secretary has ordered an assessment of SBInet 
vis-a-vis alternative system solutions and has decided to limit 
further investment in the initial increment until this 
assessment is completed.
    Both actions are consistent with the key recommendations in 
our report. I should add, however--excuse me--I should add, 
however, that such an assessment, frankly, should have been 
done years ago.
    With that I will conclude my statement and be happy to 
answer any questions that you may have.
    [The statement of Mr. Hite follows:]
                 Prepared Statement of Randolph C. Hite
                             June 17, 2010
                              gao-10-840t
    Messrs. Chairmen and Members of the subcommittees: I appreciate the 
opportunity to participate in today's hearing on the technology 
component of the Department of Homeland Security's (DHS) Secure Border 
Initiative (SBI). My statement today is based on our report, Secure 
Border Initiative: DHS Needs to Reconsider Its Proposed Investment in 
Key Technology Program, which is being released at this hearing.\1\
---------------------------------------------------------------------------
    \1\ GAO-10-340 (Washington, DC: May 5, 2010). Both the report and 
this statement are based on work performed in accordance with generally 
accepted Government auditing standards. Those standards require that we 
plan and perform the audit to obtain sufficient, appropriate evidence 
to provide a reasonable basis for our findings and conclusions based on 
our audit objectives. We believe that the evidence obtained during the 
course of this review does provide a reasonable basis for our findings 
and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    As you know, SBI is intended to help secure the 6,000 miles of 
international borders that the contiguous United States shares with 
Canada and Mexico. The program, which began in November 2005, seeks to 
enhance border security and reduce illegal immigration by improving 
surveillance technologies, raising staffing levels, increasing domestic 
enforcement of immigration laws, and improving physical infrastructure 
along the Nation's borders. Within SBI, the Secure Border Initiative 
Network (SBInet) is a multibillion dollar program that includes the 
acquisition, development, integration, deployment, and operation of 
surveillance technologies--such as unattended ground sensors and radar 
and cameras mounted on fixed and mobile towers--to create a ``virtual 
border fence.'' In addition, command, control, communications, and 
intelligence (C3I) software and hardware are to use the information 
gathered by the surveillance technologies to create a real-time picture 
of what is transpiring within specific areas along the border and 
transmit the information to command centers and vehicles.
    Since 2007, we have identified a range of management weaknesses and 
risks facing SBInet, and we have made a number of recommendations to 
address them that DHS has largely agreed with and, to varying degrees, 
taken actions to address. Recently, in September 2008, we reported that 
important aspects of SBInet were still ambiguous and in a continuous 
state of flux 3 years after the program began, making it unclear and 
uncertain what technology capabilities were to be delivered when.\2\ In 
addition, the program still lacked an approved schedule to guide its 
execution, and key milestones continued to slip. This schedule-related 
risk was exacerbated by the absence of a clearly defined approach used 
for developing and deploying SBInet. Furthermore, different levels of 
SBInet requirements were not properly aligned, and not all requirements 
had been properly defined and validated. Also, the program office was 
not effectively managing early test events. We thus emphasized at that 
time that the program was not on a path for success and that change was 
needed. In March 2010, we reported that recently completed test events 
were not adequate, as illustrated by poorly defined test plans and 
numerous and extensive last-minute changes to test procedures, and we 
reported on a growing number of system performance and quality 
problems, which we said was not indicative of a maturing system.\3\ We 
have also reported multiple times on the impact that SBInet performance 
limitations have had on Border Patrol operations. In particular, we 
reported that the instability of the cameras, mechanical problems with 
the tower-mounted radar, and the sensitivity of the radar have limited 
system reliability and contributed to significant delays in system 
deployment along the southwest border. As a result, Border Patrol 
agents have been forced to rely on existing technologies that have 
their own limitations, such as cameras mounted on towers that 
intermittently lose signals.\4\
---------------------------------------------------------------------------
    \2\ GAO, Secure Border Initiative: DHS Needs to Address Significant 
Risks in Delivering Key Technology Investment, GAO-08-1086 (Washington, 
DC: Sept. 22, 2008).
    \3\ GAO, Secure Border Initiative: Testing and Problem Resolution 
Challenges Put Delivery of Technology Program at Risk, GAO-10-511T 
(Washington, DC: Mar. 18, 2010).
    \4\ See, for example, GAO, Secure Border Initiative: DHS Has Faced 
Challenges Deploying Technology and Fencing Along the Southwest Border, 
GAO-10-651T (Washington, DC: May 4, 2010).
---------------------------------------------------------------------------
    My statement today summarizes our most recent report on SBInet, 
which is being released publicly at this hearing. In summary, the 
report provided a timely and compelling case for DHS to rethink the 
plans it had in place at the beginning of this year for investing in 
SBInet. In this regard, we showed that the scope of the initial 
system's capabilities and areas of deployment have continued to shrink, 
thus making it unclear what capabilities are to be delivered when. 
Moreover, DHS had yet to demonstrate the cost-effectiveness of the 
proposed SBInet solution, and thus whether the considerable time and 
money being invested represented a prudent use of limited resources. 
Further, DHS had not employed the kind of acquisition management rigor 
and discipline needed to reasonably ensure that the proposed system 
capabilities would be delivered on time and within budget. 
Collectively, we concluded that these limitations increased the risk 
that the proposed solution would not meet the Department's stated 
border security and immigration management goals. To minimize the 
program's exposure to risk, we recommended that DHS determine whether 
its proposed SBInet solution satisfied the Department's border security 
needs in the most cost-effective manner and that the Department improve 
several key life-cycle management areas. DHS largely agreed with our 
recommendations. More importantly, since receiving these 
recommendations in a draft of our report in March 2010, the Secretary 
of Homeland Security has taken action to limit the Department's near-
term investment in SBInet pending its completion of an analysis of 
alternative investment options. This and other planned actions are 
consistent with the intent of our recommendations.
                               background
    Managed by DHS's Customs and Border Protection (CBP), SBInet is 
intended to strengthen CBP's ability to detect, identify, classify, 
track, and respond to illegal breaches at and between ports of entry. 
The SBI Program Executive Office, which is organizationally within CBP, 
is responsible for managing key acquisition functions associated with 
SBInet, such as requirements management and risk management. Within the 
Executive Office, the SBInet System Program Office (SPO) is responsible 
for managing the day-to-day development and deployment of SBInet.
    In September 2006, CBP awarded a 3-year contract to the Boeing 
Company for SBI, with three additional 1-year options. As the prime 
contractor, Boeing is responsible for designing, producing, testing, 
deploying, and sustaining the system. In September 2009, CBP extended 
its contract with Boeing for the first option year. CBP is acquiring 
SBInet incrementally in a series of discrete units of capabilities, 
referred to as ``blocks.'' Each block is to deliver one or more system 
capabilities from a subset of the total system requirements. The first 
block, known as Block 1, is to include a mix of surveillance 
technologies (e.g., cameras, radars, and sensors) and C3I technologies 
that are to produce a common operating picture--a uniform presentation 
of activities within specific areas along the border. Block 1 is to be 
initially deployed within the Tucson Sector to the Tucson Border Patrol 
Station (TUS-1) and to the Ajo Border Patrol Station (AJO-1). As of May 
2010, the TUS-1 system is scheduled for Government acceptance in 
September 2010, with AJO-1 acceptance in November 2010.\5\
---------------------------------------------------------------------------
    \5\ This schedule has yet to be approved by CBP.
---------------------------------------------------------------------------
    In January 2010, the DHS Secretary ordered a Department-wide 
reassessment of the program to include a comprehensive assessment of 
alternatives to SBInet to ensure that the Department utilizes the most 
efficient and effective technological and operational solutions to 
secure the border. Pending the results of the assessment, the Secretary 
also froze all Block 1 expenditures beyond those needed to complete the 
implementation of the initial SBInet deployments to TUS-1 and AJO-1. 
Further, in March 2010, the Department announced its plans to redeploy 
$50 million from its American Recovery and Reinvestment Act of 2009 
funding to purchase currently available, stand-alone technology, such 
as remote-controlled camera systems called Remote Video Surveillance 
Systems, and truck-mounted systems with cameras and radar, called 
Mobile Surveillance Systems, to meet near-term operational needs.
 block 1 capabilities, geographic coverage, and performance standards 
                       have continued to decrease
    In order to measure system acquisition progress and promote 
accountability for results, organizations need to establish clear 
commitments around what system capabilities will be delivered, and when 
and where they will be delivered. In September 2008, we reported that 
the scope of SBInet was becoming more limited without becoming more 
specific, thus making it unclear and uncertain what system capabilities 
would be delivered when and to what locations.\6\ Accordingly, we 
recommended that DHS establish and baseline the specific program 
commitments, including the specific system functional and performance 
capabilities that are to be deployed to the Tucson, Yuma, and El Paso 
Sectors, and establish when these capabilities are to be deployed and 
are to be operational.
---------------------------------------------------------------------------
    \6\ GAO-08-1086.
---------------------------------------------------------------------------
    To its credit, the SPO subsequently defined the scope of the first 
incremental block of SBInet capabilities that it intended to deploy and 
make operational; however, these capabilities and the number of 
geographic locations to which they are to be deployed have continued to 
shrink. For example, the number of component-level requirements \7\ to 
be deployed to the TUS-1 and AJO-1 locations has decreased by about 32 
percent since October 2008 (see fig. 1).
---------------------------------------------------------------------------
    \7\ Component-level requirements describe required features of 
various surveillance components (e.g., cameras and radars) and 
infrastructure (e.g., communications). 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In addition, the number of sectors that the system is to be 
deployed to was reduced from three border sectors spanning about 655 
miles to two sectors spanning about 387 miles. Further, the stringency 
of the performance measures was relaxed, to the point that system 
performance is now deemed acceptable if it identifies less than 50 
percent of items of interest that cross the border. According to 
program officials, the decreases are due to poorly defined requirements 
and limitations in the capabilities of commercially available system 
components. The result will be a deployed and operational system that 
does not live up to user expectations and provides less mission support 
than was envisioned.
   a reliable schedule for completing block 1 has not been developed
    The success of a large-scale system acquisition program, like 
SBInet, depends in part on having a reliable schedule of when the 
program's set of work activities and milestone events will occur, how 
long they will take, and how they are related to one another. Among 
other things, a reliable schedule provides a road map for systematic 
execution of a program and the means by which to gauge progress, 
identify and address potential problems, and promote accountability. In 
September 2008, we reported that the program did not have an approved 
master schedule that could be used to guide the development of SBInet. 
Accordingly, we recommended that the SPO finalize and approve an 
integrated master schedule that reflects the timing and sequencing of 
SBInet tasks.
    However, DHS has yet to develop a reliable integrated master 
schedule for delivering the first block of SBInet. Specifically, the 
August 2009 SBInet integrated master schedule, which was the most 
current version available at the time of our review, did not 
sufficiently comply with seven of nine schedule estimating practices 
that relevant guidance \8\ states are important to having a reliable 
schedule.\9\ For example, the schedule did not adequately capture all 
necessary activities to be performed, including those to be performed 
by the Government, such as obtaining environmental permits in order to 
construct towers. Further, the schedule did not include a valid 
critical path, which represents the chain of dependent activities with 
the longest total duration in the schedule, and it does not reflect a 
schedule risk analysis, which would allow the program to better 
understand the schedule's vulnerability to slippages in the completion 
of tasks.
---------------------------------------------------------------------------
    \8\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: March 2009), 218-224.
    \9\ These are: (1) Capturing all activities, (2) sequencing all 
activities, (3) assigning resources to all activities, (4) establishing 
the duration of all activities, (5) integrating activities horizontally 
and vertically, (6) establishing the critical path for all activities, 
(7) identifying reasonable float between activities, (8) conducting a 
schedule risk analysis, and (9) updating the schedule using logic and 
durations.
---------------------------------------------------------------------------
    These limitations are due, in part, to the program's use of the 
prime contractor to develop and maintain the integrated master 
schedule, whose processes and tools do not allow it to include in the 
schedule work that it does not have under contract to perform, as well 
as the constantly changing nature of the work to be performed. Without 
having a reliable schedule, it is unclear when the first block will be 
completed, and schedule delays are likely to continue.
        cost-effectiveness of block 1 has not been demonstrated
    The decision to invest in any system, or major system increment, 
should be based on reliable estimates of costs and meaningful forecasts 
of quantifiable and qualitative benefits over the system's useful life. 
However, DHS has not demonstrated the cost-effectiveness of Block 1. In 
particular, it has not reliably estimated the costs of this block over 
its entire life cycle. To do so requires DHS to ensure that the 
estimate meets key practices that relevant guidance \10\ states are 
important to having an estimate that is comprehensive, well-documented, 
accurate, and credible. However, DHS's cost estimate for Block 1, which 
is about $1.3 billion, does not sufficiently possess any of these 
characteristics.
---------------------------------------------------------------------------
    \10\ GAO-09-3SP, 8-13.
---------------------------------------------------------------------------
    Further, DHS has yet to identify expected quantifiable or 
qualitative benefits from this block and analyze them relative to 
costs. According to program officials, it is premature to project such 
benefits given the uncertainties surrounding the role that Block 1 will 
ultimately play in overall border control operations, and that 
operational experience with Block 1 is first needed in order to 
estimate such benefits. While we recognize the value of operationally 
evaluating an early, prototypical version of a system in order to 
better inform investment decisions, we question the basis for spending 
in excess of a billion dollars to gain this operational experience. 
Without a meaningful understanding of SBInet costs and benefits, DHS 
lacks an adequate basis for knowing whether the initial system solution 
is cost-effective.
    block 1 has not been managed in accordance with key life cycle 
                          management processes
    Successful management of large information technology programs, 
like SBInet, depends in large part on having clearly defined and 
consistently applied life cycle management processes. In September 
2008, we reported that the SBInet life cycle management approach had 
not been clearly defined. Accordingly, we recommended that the SPO 
revise, approve, and implement its life cycle management approach, 
including implementing key requirements development and management 
practices, to reflect relevant Federal guidance and leading practices. 
To the SPO's credit, it has defined key life-cycle management processes 
that are largely consistent with relevant guidance and associated best 
practices. However, it has not effectively implemented these processes. 
In particular:

The SPO revised its Systems Engineering Plan, which documents its life-
cycle management approach for SBInet definition, development, testing, 
deployment, and sustainment, in November 2008, and this plan is largely 
consistent with DHS and other relevant guidance. For example, it 
defines a number of key life-cycle milestone or ``gate'' reviews that 
are important in managing the program, such as initial planning 
reviews, requirements reviews, system design reviews, and test reviews. 
The plan also requires most key artifacts and program documents that 
DHS guidance identified as important to each gate review, such as a 
risk management plan and requirements documentation. However, the SPO 
has not consistently implemented these life-cycle management activities 
for Block 1. For example, the SPO did not review or consider key 
artifacts, including plans for testing and evaluating the performance 
of the system, as well as assessing the robustness of the system's 
security capabilities, during its Critical Design Review, which is the 
point when, according to the plan, verification and testing plans are 
to be in place.

The SBInet Requirements Development and Management Plan states that: 
(1) A baseline set of requirements should be established by the time of 
the Critical Design Review; (2) requirements should be achievable, 
verifiable, unambiguous, and complete; and (3) requirements should be 
bi-directionally traceable from high-level operational requirements 
through detailed low-level requirements to test plans. Further, the 
plan states that ensuring traceability of requirements from lower-level 
requirements to higher-level requirements is an integral part of 
ensuring that testing is properly planned and conducted. However, not 
all Block 1 component requirements were sufficiently defined at the 
time that they were baselined at the Critical Design Review. Further, 
operational requirements continue to be unclear and unverifiable, which 
has contributed to testing challenges, including the need to 
extemporaneously rewrite test cases during test execution. In addition, 
while requirements are now largely traceable backwards to operational 
requirements and forward to design requirements and verification 
methods, this traceability has not been used until recently to verify 
that higher-level requirements have been satisfied.

In 2008, the SPO documented a risk management approach that largely 
complies with relevant guidance. However, it has not effectively 
implemented this approach for all risks. Moreover, available 
documentation does not demonstrate that significant risks were 
disclosed to DHS and Congressional decision-makers in a timely fashion 
as we previously recommended, and, while risk disclosure to DHS 
leadership has recently improved, not all risks have been formally 
captured and thus shared. For example, some of the risks that have not 
been formally captured include the lack of well-defined acquisition 
management processes, staff with the appropriate acquisition expertise, 
and agreement on key system performance parameters. However, the SPO 
recently established a risk management process for capturing SBI 
enterprise-wide risks, including the lack of well-defined acquisition 
management processes and staff expertise.

    Reasons cited by program officials for not implementing these 
processes include their decision to rely on task order requirements 
that were developed prior to the Systems Engineering Plan and competing 
SPO priorities, including meeting an aggressive deployment schedule. 
Until the SPO consistently implements these processes, it will remain 
challenged in its ability to successfully deliver SBInet.
  dhs has agreed to implement gao recommendations aimed at addressing 
              sbinet long-standing uncertainties and risks
    To address the program's risks, uncertainties, and acquisition 
management weaknesses, our report being released today provides 12 
recommendations.
    In summary, we recommended that DHS limit future investment in 
SBInet to work that is either already under contract and supports the 
completion of Block 1 activities for deployment to TUS-1 and AJO-1 and/
or provides a basis for a Departmental decision on what, if any, 
expanded investment in SBInet is justifiable as a prudent use of DHS's 
resources for carrying out its border security and immigration 
management mission. As part of this recommendation, we reiterated prior 
recommendations pertaining to program management challenges and 
recommended that DHS address weaknesses identified in our report by, 
for example, ensuring that the SBInet integrated master schedule, Block 
1 requirements, and the Systems Engineering Plan, among other program 
elements, are consistent with best practices.
    We also recommended that the program undertake a detailed cost-
benefit analysis of any incremental block of SBInet capabilities beyond 
Block 1 and report the results of such analyses to CBP and DHS 
leadership. Further, we recommended that DHS decide whether proceeding 
with expanded investment in SBInet represents a prudent use of the 
Department's resources, and report the decision, and the basis for it, 
to the Department's authorization and appropriations committees.
    To DHS's credit, it has initiated actions to address our 
recommendations. In particular, and as previously mentioned, the 
Department froze all funding beyond the initial TUS-1 and AJO-1 
deployments until it completes a comprehensive reassessment of the 
program that includes an analysis of the cost and projected benefits of 
additional SBInet deployments, as well as the cost and mission 
effectiveness of alternative technologies.
    Further, in written comments on a draft of our report, DHS 
described steps it is taking to fully incorporate best practices into 
its management of the program. For example, DHS stated that, in 
response to our previous recommendations, it has instituted more 
rigorous oversight of SBInet, requiring the program to report to the 
Department's Acquisition Review Board at specified milestones and 
receive approval before proceeding with the next deployment increment. 
With respect to our new recommendations, DHS stated that it is, among 
other things, taking steps to bring the Block 1 schedule into alignment 
with best practices, verifying requirements and validating performance 
parameters, updating its Systems Engineering Plan, and improving its 
risk management process.
    In closing, let me emphasize our long-held position that SBInet is 
a risky program. To minimize the program's exposure to risk, it is 
imperative for DHS to follow through on its stated commitment to ensure 
that SBInet, as proposed, is the right course of action for meeting its 
stated border security and immigration management goals and outcomes, 
and once this is established, for it to ensure that the program is 
executed in accordance with proven acquisition management best 
practices. To do less will perpetuate a program that has for too long 
been oversold and under-delivered.
    This concludes my prepared statement. I would be pleased to respond 
to any questions that you or other Members of the subcommittees may 
have.

    Mr. Carney. Thank you, Mr. Hite.
    I now recognize Mr. Borkowski for 5 minutes.

STATEMENT OF MARK BORKOWSKI, EXECUTIVE DIRECTOR, SECURE BORDER 
 INITIATIVE PROGRAM EXECUTIVE OFFICE, U.S. CUSTOMS AND BORDER 
  PROTECTION, DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED BY 
MICHAEL J. FISHER, CHIEF, U.S. BORDER PATROL, U.S. CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Borkowski. Thank you, Mr. Chairman, Chairman Carney, 
Chairman Cuellar, Ranking Member Miller, distinguished Members 
of the committee. Thank you again for this opportunity to 
describe what we are trying to do to deal with the issues you 
have described.
    This is a continuation of the hearing from March, and our 
written testimony is pretty much that testimony, but I will try 
to recap a little bit and give an update as to where we are 
compared to what we said in March.
    As we discussed then, the Secretary has ordered a 
reassessment of the program, and in fact has frozen funds 
beyond those required to complete what is already started. 
Those are the two areas of SBInet Block 1 deployment known as 
Tucson-1 and Ajo-1, those areas that you described.
    That is driven by the same concerns the Secretary has come 
to--the same conclusions that the committee has already 
identified, as has the GAO--which is that we suffer from two 
fundamental flaws. One is we need to become convinced that the 
program we have designed is actually even viable.
    The second is that we need to become convinced that even if 
it is viable that it is the right way to spend money, that we 
are getting value for that money. So that is the purpose of the 
Secretary's assessment is to answer those two questions before 
we invest more money in SBInet Block 1.
    Now, I would like to be clear about what we mean by SBInet 
Block 1, because we often use SBI and SBInet and technology 
interchangeably. SBInet Block 1 is a certain kind of 
technology. It is a technology which we don't yet have but 
which we have endeavored to develop. It includes fixed towers 
that have radars and cameras.
    It includes the computer software and the communication 
network that allows all of that information from all of those 
towers to be combined in one place so it can be acted on by the 
Border Patrol. So it is that technology configuration, and it 
is that technology configuration that is designed to work at 
the beginning in Arizona. We call that SBInet Block 1.
    There is other technology that SBI provides, for example, 
the northern border technology that Congresswoman Miller talked 
about or mobile surveillance systems. So we do have 
alternatives and we do have options.
    But SBInet Block 1 is the development of something that we 
hoped would give us a step function increase in capability by 
allowing us to network a depiction of what is going on in one 
area.
    We have, frankly, failed in delivering what was promised at 
the beginning, so we would not argue with your 
characterization, Chairman Carney. So the question for us has 
been what do we do now?
    So we are looking at this system, and we are looking at 
this, the cost-effectiveness of it. There are two fundamental 
questions, as I said, that the Secretary's assessment is 
designed to get at. One is: Is the system viable?
    The way that we intend to assess that is by completing 
Tucson-1 and Ajo-1, going through the testing that is required 
to characterize it and then using that as a quantitative 
measure of what this system does.
    We will also, of course, know what it costs at that point, 
not just what it cost to develop but what it costs to produce 
in a recurring way. So that will give us insight into the 
viability. As I told you in March, we expected to have the 
engineering test results for Tucson-1 by September, and we are 
still on schedule for that.
    We expected to have engineering test results for Ajo-1 by 
the end of the calendar year, and we are still on schedule for 
that.
    The other part of the assessment is the question of whether 
or not it is--even if it works is it worth it? There are other 
technologies so I can have less capability at less dollars, 
more capability at more dollars. The question is do I get value 
for those more dollars?
    That is the quantitative science-based assessment the 
Secretary has talked about, and we are doing that in some 
phases because it is a deliberative effort. The first of those 
we should have data by the end of June. That data will be 
focused on an analysis of Arizona and then based on that we can 
extend that analysis to other parts of the border.
    But what that is designed to do is to compare SBInet Block 
1 to other technology options in a very quantitative science-
based way so we can make more intelligent decisions about where 
it makes sense to spend money on this system.
    That quantitative analysis, depending on how that looks, 
will continue into other areas of the border before we make any 
commitments to those areas of the border.
    I also wanted to mention that we also talked about a near-
term assessment where we would look at the $50 million of 
stimulus funds that had been originally designed for SBInet 
Block 1. In fact, we have concluded to divert those to other 
technology, including many more mobile surveillance systems, 
sensors for our aircraft, backscatter radars for Border Patrol 
checkpoints and even pursuit cameras for our office of field 
operations, Customs and Border Protection officers at the 
ports.
    So we are in the process of acquiring those, and we expect 
to start to see delivery of those within a matter of some 
months here. That is the quick and dirty summary and recap of 
where we are, what we said we would be doing last March and how 
we are doing on it. I will look forward to your questions going 
forward.
    [The joint statement of Mr. Borkowski and Mr. Fisher 
follows:]
     Joint Prepared Statement of Mark Borkowski and Michael Fisher
                             June 17, 2010
    Chairman Carney, Chairman Cuellar, Ranking Member Bilirakis, 
Ranking Member Miller, and distinguished Members of the committee, it 
is a privilege and an honor to appear before you today to discuss 
SBInet. I am Mark Borkowski, Executive Director of the Secure Border 
Initiative (SBI), and with me today is the Chief of the United States 
Border Patrol, Michael Fisher.
                      departmental-wide assessment
    Before I begin to discuss where we are with SBInet development, I 
want to briefly discuss the Department-wide reassessment that was 
ordered by the Secretary back in January. As the Governor of Arizona, 
Secretary Napolitano became uniquely aware of the promises that were 
made about SBInet and the shortfalls it has faced. When she came into 
the Department, she took a hard look at our progress with SBInet. She 
gave my team at CBP a fair chance to prove that we were on the right 
track. She asked hard questions about the future of the program and the 
feasibility of where we were headed and directed then-Acting 
Commissioner Jayson Ahern to provide his assessment of the path forward 
for SBInet. Based upon the results of that review, she ordered a 
Department-wide reassessment of the program to determine if there are 
alternatives that may more efficiently, effectively, and economically 
meet our Nation's border security needs. Secretary Napolitano also 
ordered a freeze on all SBInet funding beyond SBInet Block 1's initial 
deployment to the Tucson and Ajo regions until the assessment is 
completed.
    The Department-wide review is motivated by two major 
considerations. The first is that the continued and repeated delays in 
SBInet raise fundamental questions about SBInet's viability and 
availability to meet the need for technology along the border. The 
second is that the high cost of SBInet obligates this administration to 
conduct a full and comprehensive analysis of alternative options to 
ensure we are maximizing the impact and effectiveness of the 
substantial taxpayer resources we are devoting to border security 
technology. Quite frankly, this type of investment can only be 
justified if you know exactly what you are going to get, and this type 
of comprehensive analysis of alternatives should have been undertaken 
years ago. Secretary Napolitano recognized the need for such due 
diligence, which is why we will conduct such an analysis under the 
review she ordered.
    The assessment has an immediate and a long-term phase. In March, 
the Department announced it was redeploying $50 million in Recovery Act 
funds that were scheduled to be spent on SBInet to alternatives 
currently available, stand-alone technology, such as remote-controlled 
camera systems called Remote Video Surveillance Systems (RVSSs), truck-
mounted systems with cameras and radar called Mobile Surveillance 
Systems (MSSs), thermal imaging devices, ultra-light detection, 
backscatter units, mobile radios, and cameras and laptops for pursuit 
vehicles, that will immediately improve our ability to secure the U.S.-
Mexico border.
    In the long-term phase, we will conduct a comprehensive, science-
based assessment of alternatives to SBInet to ensure that we are 
utilizing the most efficient and effective technological and 
operational solutions in all of our border security efforts. If this 
analysis suggests that the SBInet capabilities are worth the cost, this 
administration will extend deployment of these capabilities. If this 
analysis suggests that alternative technology options represent the 
best balance of capability and cost-effectiveness, this administration 
will assess options for redirecting resources to these stronger border 
technology options.
                           role of technology
    It has often been said that technology is one of three ``pillars'' 
that contribute to effective border security, with tactical 
infrastructure, such as physical fencing, and personnel being the other 
two. Physical fencing provides ``persistent impedance''--that is, it 
delays the progress of people who attempt to cross our borders between 
the ports of entry. These delays, in turn, provide more opportunity for 
our Border Patrol agents to respond to and interdict those attempts. 
From 2006 through 2008, the bulk of our funding within SBI focused on 
completion of the physical fence along areas of the southwest border 
where Border Patrol determined it was operationally necessary. Since 
then, as that fence has largely been completed, we have shifted our 
funding focus more towards technology.
    Technology is primarily used to provide continual monitoring and 
surveillance of a particular area, enhancing situational awareness for 
Border Patrol agents, detecting activity between the ports of entry and 
providing information about the type of activity (i.e. human or animal, 
vehicle or pedestrian, transporting contraband or not transporting 
contraband, etc.). This knowledge assists our Border Patrol agents in 
responding to and interdicting criminal activity, and enhances their 
safety by giving them information about the relative threat of any 
group or individual and about how best to approach the threat.
    CBP has already deployed technology to several specific areas of 
the border. As mentioned above, we have deployed Remote Video 
Surveillance Systems (RVSSs), which allow personnel to keep an eye on 
selected areas by displaying pictures at a central dispatch location. 
We have also deployed Mobile Surveillance Systems (MSSs), which use 
truck-mounted radar and camera to provide greater situational awareness 
to operators in the field. Finally, we have deployed Unattended Ground 
Sensors (UGS), which can detect movement in their vicinity. All of 
these systems provide important information to the Border Patrol about 
activity in a particular area.
    The goal of SBInet was to network a set of sensors that cover a 
wide area into a Common Operating Picture, or COP--in contrast to the 
individual, stand-alone systems described above, which are very useful 
and relatively inexpensive, but also labor-intensive and limited in 
coverage. By depicting a large amount of information in a small space, 
SBInet was designed to allow fewer personnel to monitor and direct 
operations across a larger area. Border Patrol agents would be able to 
observe, manage, and respond to multiple events more effectively.
                             sbinet block 1
    With respect to the development of SBInet, it is clear that 
progress has been slower than anticipated. Recent testing suggests that 
SBInet Block 1 has demonstrated some progress, but the time it has 
taken us to get to this point is extremely discouraging and 
frustrating. As a partial mitigation to the delays, we worked with 
Boeing to make a change in our plans so that the Border Patrol could 
use parts of the system that are not yet fully complete ``as is'' while 
engineering work continued. The Border Patrol has been using these 
parts of the system in this capacity since February 6 and the feedback 
has been positive from agents on the front lines. The next steps 
involve completing our engineering work and conducting formal testing. 
We expect to conduct System Acceptance Testing through August, and then 
to turn the system over to the Border Patrol for formal Operational 
Testing and Evaluation starting in September.
    Construction on a second part of the system, known as Ajo-1, was 
delayed for several reasons, including technical concerns and 
environmental considerations. Ajo-1 is located in an environmentally 
sensitive area, so we have worked very closely with the Department of 
the Interior to ensure that we protected it appropriately. Much of the 
Ajo-1 Area of Responsibility (AoR) has been constructed, and most of 
the system will be completed by August. We will then conduct acceptance 
and operational testing of Ajo-1 through the end of this calendar year.
                   sbi efforts on the northern border
    In addition to our activities on the southwest border, CBP has 
continued to make investments in technology on the northern border to 
enhance situational awareness and capabilities of the Border Patrol.
    As a part of SBI's Northern Border Project, CBP has deployed proven 
surveillance systems, including Remote Video Surveillance Systems 
(RVSS) and Mobile Surveillance Systems (MSS), to the Buffalo, Detroit, 
and Swanton Border Patrol Sectors. Two MSSs were deployed to the 
Swanton Sector in 2009. The Buffalo Sector deployment, completed in 
February 2010, consists of 5 RVSS sites along the upper Niagara River, 
expanding upon an earlier deployment of 4 remote video surveillance 
cameras in 2003. The Detroit Sector deployment consists of 1 MSS and 11 
RVSS sites along the St. Clair River, covering approximately 35 miles 
from Lake Huron to Lake St. Clair. Ten of the sites are completed and 
operational, with the eleventh scheduled for completion by the end of 
the year.
    These technology deployments provide an immediate capability to 
help Border Patrol agents expand their ability to detect, identify, 
classify, respond to, and resolve illegal cross-border activity, while 
providing lessons learned that will enable CBP to design better-
tailored, longer-term technology options for the northern border. CBP 
chose the Buffalo, Detroit, and Swanton Sectors based on the needs of 
the Border Patrol and the unique operational area, which includes 
coastal maritime, river, urban, and rural environments.
    In the fiscal year 2009 Consolidated Security, Disaster Assistance, 
and Continuing Appropriations Act (Pub. L. 110-329), Congress directed 
$40 million within the Border Security, Fencing, Infrastructure, and 
Technology account towards a ``Northern border security technology 
investment.'' CBP is using these funds to conduct a demonstration of 
capabilities in the Detroit area that will attempt to integrate sensors 
and data from a variety of sources. The goals of the pilot project are 
to improve operational integration of border security efforts in the 
Detroit area, improve detection capabilities in the vicinity of the St. 
Clair River area, and enhance situational awareness for CBP and their 
mission partners in the region.
    To that end, construction is currently underway for the 
establishment of an Operational Integration Center (OIC). The OIC will 
provide a collaborative work area and communications capabilities for 
representatives of CBP, U.S. Coast Guard, other DHS components, Federal 
law enforcement agencies, State and local law enforcement, and Canadian 
officials. This facility will serve as a laboratory for border security 
agencies to explore and evaluate enhanced border security capabilities. 
Additionally, the OIC is intended to enhance situational awareness by 
providing multiple information feeds within one single location. 
Initial operations at the OIC are scheduled to begin October 2010.
                               conclusion
    Mr. Chairman and Members of the committee, we recognize that the 
SBInet program has been a frustration. This committee and the entire 
Congress has been supportive and patient with us as we have worked 
through issues and delays encountered by the program. The comprehensive 
review ordered by Secretary Napolitano demonstrates that she shares 
your concern. Technology along the border is of critical importance to 
our National security and the safety and effectiveness of our Border 
Patrol agents working in the field. We need to ensure that we provide 
them with proven, cost-effective tools that will help them do their 
jobs and keep our Nation safe--whether that means large-scale networks 
like SBInet or stand-alone technology I mentioned above. One thing is 
clear: the Secretary's review will require all of us to go back and 
take a hard look at the assumptions that were made in the past, and it 
will ensure that we proceed in a manner that both bolsters the security 
of our Nation's borders while making the most out of the resources that 
have been devoted to technology solutions to our border security 
challenges. We look forward to answering your questions.

    Mr. Carney. Thank you, Mr. Borkowski.
    I understand Chief Fisher was a joint statement, so Mr. 
Krone for 5 minutes, please.

   STATEMENT OF ROGER A. KRONE, PRESIDENT, NETWORK AND SPACE 
 SYSTEMS, BOEING DEFENSE, SPACE & SECURITY, THE BOEING COMPANY

    Mr. Krone. Oh, excuse me. Thank you, Chairman Carney, 
Chairman Cuellar and Members of the committee. It has been 3 
months since we last appeared here to discuss the SBInet 
program, and I am pleased to be able to report good performance 
by our team and excellent progress in meeting the milestones of 
all the projects we are working on.
    The two northern border projects have been accepted by the 
Customs and Border Patrol, and the two southern projects are on 
track for completion on the schedules we discussed in March. 
Early operations of the Tucson-1 system continues to be very 
successful, and we plan to extend early operations to our 
second deployment, Ajo-1, in August.
    With continued good performance we expect to have both of 
the systems permanently in the hands of the Border Patrol by 
the end of the year.
    This program was transferred to my business unit in August 
2007. I would like to provide a little background that might 
put some perspective on the comments from the Government 
Accountability Office that we are discussing here today.
    The original concept of SBInet was to create a spiral 
development program utilizing to the maximum degree commercial 
off-the-shelf equipment in order to get a capability to the 
southwest border as quickly as possible.
    As such, many of the 12 best practice program management 
recommendations by the GAO in today's report were not proposed, 
bid, nor implemented in the original SBInet program.
    However, since the program transitioned from what I would 
call the P28 phase to the Block 1 phase, many of the suggested 
scheduling, systems engineering, requirements, and baseline 
management and risk management processes have been implemented. 
Today, the program is run in a manner very similar to a 
Department of Defense ACAT I or ACAT II program.
    The GAO questions whether the SBInet is ``a cost-effective 
course of action.'' Although the value question is best 
addressed by the Customs and Border Patrol relative to other 
means of securing the border, I would like to clarify where the 
Government's money has been spent on the program to date.
    The GAO states, ``SBInet is being acquired and deployed in 
incremental blocks of capability with the first block to cost 
about $1.3 billion.'' This representation is not entirely 
accurate and bears some clarification.
    First, of the $1.3 billion, $441 million has been spent to 
construct 32 miles of physical fence and purchase 140,000 tons 
of steel mesh for other fence construction. Utilizing the 
numbers in Table One of the GAO report, updated for current 
cost performance, we can see the remaining $828 million has 
been spent in the following way.
    Four hundred eighty-four million dollars has been spent for 
non-recurring design development, supplier, and program 
management and the construction of the Systems Integration Lab 
in Playas, New Mexico for the Block 1 system. Construction of a 
network operation center and systems operation center in 
Springfield, Virginia.
    Most of this investment will not be repeated if we complete 
additional deployments beyond those under contract. Eighty 
million dollars was spent for design and development of the 
command and control software to drive the Block 1 system, 
referred to as the common operating environment, also a non-
recurring investment.
    Seventy-one million dollars has been spent for contractor 
logistics support of P28 Block 1 and other border surveillance 
systems. So of the $1.3 billion, only $195 million has been 
spent on actual deployments of technology solutions to the 
border under the SBInet program.
    Of that, $20 million has been spent on the Buffalo and 
Detroit northern border towers, $20 million has been spent for 
P28 that covers 28 miles of Arizona border and $155 million, 
which is our current estimated complete, what we call the 
Arizona Deployment Task Order, more commonly known as Tucson-1 
and Ajo-1, which will cover 25 and 30 miles of the border 
respectively, a total of 55 miles.
    We know today that we have a system that the Border Patrol 
agents helped design and are using in real operations along the 
Arizona-Mexico border. In September we expect to have 
successfully accomplished system acceptance test for Tucson-1 
and to complete system acceptance testing of Ajo-1 by the end 
of the year.
    The Government has almost finished its investment in the 
development of the Block 1 system. Deployments beyond Tucson-1 
and Ajo-1 will be done on a fixed-price basis at prices 
significantly lower than those of the Arizona Deployment Task 
Order, with reliable schedules based upon demonstrated 
performance.
    The GAO recommends that the Government answer the question 
as to the value of the SBInet program. At Boeing we are hopeful 
that such assessments will lead to a positive outcome, and we 
can get restarted on further deployments and help our customer 
secure the border.
    Thank you very much, and I am prepared to answer any 
questions you might have.
    [The statement of Mr. Krone follows:]
                  Prepared Statement of Roger A. Krone
                             June 17, 2010
    Thank you, Mr. Chairman
    It's been 3 months since we last appeared here to discuss the 
SBInet Program.
    At that time, I described the status of our two southern and two 
northern border deployments, the work remaining on SBInet Block 1 
technology to achieve System Acceptance from the Customs and Border 
Protection (CBP) customer, and our positive experience with Early 
Operations, an initiative that allows the Border Patrol to use the 
Tucson-1 (TUS1) System during the swing and night shifts when our 
contractor team must clear the operational area where the towers are 
located.
    On all these projects, I am able to report strong performance by 
our team and excellent progress in meeting the milestones of the 
program.
                            northern border
    On the northern border, we have completed the Detroit and Buffalo 
Projects, both of which included installing cameras along the St. Clair 
and Upper Niagara Rivers, respectively. Both projects have been 
accepted by CBP and are now part of daily operations for the agents 
there.
                                tucson-1
    In March, I discussed the remaining developmental issues for the 
first deployment of the SBInet Block 1 technology known as Tucson-1 
(TUS1). The TUS1 deployment, covering approximately 24 linear miles of 
border and 1,000 square miles around the Sasabe Port of Entry, has 
incorporated expanded testing into the program plan to validate system 
success and acceptance by the customer. We have now incorporated the 
hardware fixes identified by earlier testing and updated the software 
to address critical program change requests (PCR).
    Our progress over the past 3 months puts the program into position 
to start the preliminary readiness activities and tests that lead into 
System Acceptance Test (SAT). We will complete the Preliminary Test 
Readiness Review (PTRR) this month and will then begin conducting dry 
run tests of the routes used during SAT. With satisfactory completion 
of the dry runs, we will proceed to the Test Readiness Review (TRR) and 
then to System Acceptance Test runs for record in July.
    All of this progress is the result of hard work and dedication by 
the Boeing, CBP, and Border Patrol teams. We are adhering to the 
Integrated Master Schedule that was developed in February 2010, and 
have focused on critical path management and risk management. 
Challenges remain, but we are tracking to a mid-September delivery to 
CBP.
                                 ajo-1
    The second deployment, Ajo-1 (AJO1), covering approximately 30 
linear miles of border and 1,500 square miles around the Lukeville Port 
of Entry in an environmentally sensitive area, is progressing well. 
Seven of the 10 towers have been erected as we speak, and most have the 
sensors packages installed. We have begun the tower characterization 
step, which will provide the initial check-out of each completed tower. 
System Acceptance Test for AJO1 is scheduled to begin early this fall 
with final delivery to CBP around the end of the calendar year.
    Similar to TUS1, the CBP and Boeing team has been focused on 
managing the critical path to schedule completion. Improvement in risk 
management, including bi-weekly Risk Management Board meetings and 
increased discipline in risk and issue identification and resolution 
have helped to ensure that the schedule is realistic and manageable.
                           cost-effectiveness
    Throughout the development and deployment of TUS1 and AJO1, Boeing 
has maintained a detailed cost database and developed an in-depth life-
cycle cost model that we continue to refine. We are sharing this 
information with CBP and are committed to identify potential cost 
savings that will be reflected in future deployments.
                      system component performance
    The user assessment conducted in Playas, New Mexico, in 2009 
identified deficiencies in performance in the ground surveillance 
radar, the electro-optical camera and the laser range finder. Playas is 
the representational testbed we established to test and validate the 
system, and I can tell you today that the issues identified there 
during the user assessment have been addressed. Boeing worked directly 
with the radar component's original equipment manufacturer (OEM) to 
develop software changes that improved the performance of the radar and 
provide the user with more controls. Working closely with the CBP and 
the camera OEM, settings were adjusted in the daylight, electro-optical 
cameras, resulting in significant performance improvement. Regarding 
the laser range finder, Border Patrol agents are using it today in TUS1 
Early Operations to enhance the accuracy of coordinates when 
appropriate.
    Probably more significant is the overall performance of the Block 1 
technology in the Tucson area of responsibility. Observations from 
Early Operations and feedback from the end-users tell us those 
component-level issues are not present in TUS1. Moreover, we are seeing 
improved performance of the total system through interaction and 
integration with other border security systems and personnel resources.
                            early operations
    In March, we also discussed Early Operations of the TUS1 system. At 
that time, the Border Patrol had been using the TUS1 system for nightly 
operations for about 5 weeks. At the request of Rep. McCaul, a video of 
an encounter using the system was shown and narrated by Chief Fisher. 
As he said then, the system gives agents ``a better sense of 
situational awareness, we have a better sense of identifying the 
particular threat.''
    Today, we have more than 4 months of Early Operations experience 
totaling nearly 5,000 agent-hours on the system. Availability has been 
excellent despite interruptions due to our planned developmental work, 
and we continue to get very positive feedback from the agents. The high 
utilization rate of the system, in my opinion, is evidence that the 
agents want to use the TUS1 capabilities whenever possible.
    While we have a considerable amount of testing left to accomplish 
before Government acceptance of the system later this summer, the fact 
that the system has been in the hands of the operators, being used in 
actual operations for thousands of hours, makes a strong statement 
about its maturity and its suitability for use along the southern 
border.
    SAT will provide the official measurement of whether the system 
meets the requirements set out for it in the contract. We are on 
schedule to complete that by mid-September.
                               next steps
    We know today that we have a system that Border Patrol agents 
helped design and are using in real operations along the Arizona-Mexico 
Border. In September, we expect to have successfully accomplished SAT 
for TUS1 and to complete AJO1 by the end of the calendar year. This 
brings us to the questions of, where do we deploy the Block 1 System 
next; how long will it take to build; and, how much will it cost?
    These are questions for the Government to answer, but it has always 
been our position that once the technology is proven, we could embark 
on serial deployments of the system that would be rapid, efficient, and 
cost-effective.

    Mr. Carney. Thank you. I would like to thank all the 
witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the witnesses, and I will recognize myself 
for 5 minutes. Begin with you, Mr. Hite, as you know the 
Secretary suspended future spending on SBInet until the 
analysis is done on its viability. Frankly, do you think the 
project can be saved or is it time to move to other options?
    Mr. Hite. See, I hesitate to give you a definitive answer 
on that. You know, making those kind of tough decisions 
requires access to data that I haven't seen. It certainly is a 
legitimate question to pose at this point in time, but if I was 
in a position to make that decision now based on what I know, I 
would be asking for more information to inform my decision.
    Mr. Carney. Certainly the original project as contracted 
and envisioned it is far and away a lot greater than we have in 
reality today with the project.
    Mr. Hite. Absolutely.
    Mr. Carney. Why? What has happened to see sort of a 
shrinkage of capability?
    Mr. Hite. A lot of things in combination have contributed 
to that, not the least of which is an underestimation and over-
optimism about what could be delivered, what it would take in 
order to accomplish that, optimism surrounding what is 
available in the commercial marketplace. Underestimating what 
it is going to take to integrate those components.
    As the witness mentioned, the program originally set out 
under a spiral development approach, which my personal opinion 
is a risky approach to take. It evolved over time and so the 
definition and the implementation of the kind of acquisition of 
rigor that my experience has shown can contribute to a 
successful program wasn't there from the outset.
    I don't think the program had the people it needed to run 
it successfully from the outset. So I mean this, as I mentioned 
in my oral statement is this program was in trouble months 
after it was started. It was spiraling downhill after that.
    So, you know, I, as I mentioned, despite here in the last 
18 to 24 months bringing in more capability, trying to address 
some of these limitations, it is hard to, you know, redirect an 
iceberg once it has started moving in one direction. That is, 
you know, what we have been faced with.
    Mr. Carney. At least icebergs can block something. Why have 
the thresholds been so constrained? I mean the parameters have 
changed. It is, you know, I am struck by the fact that cameras 
only work at five clicks rather than 10, that the laser only 
works to two rather than 10.
    Mr. Borkowski or Mr. Krone, can you answer that question?
    Mr. Borkowski. Well, first of all I think we have improved 
the cameras. But having said that, what we did is we selected 
commercially available off-the-shelf hardware. We tried to do 
that in a way at the time, and this in hindsight may have been 
a mistake so I am not trying to make excuses for it.
    But at the time when we had a very ambitious schedule, what 
we did is we compromised on performance of some of the hardware 
in order to get it in time to meet the then-anticipated 
schedule.
    Now, in hindsight that turned out not to be wise because we 
both failed to meet that schedule and ended up with cameras 
that were probably less than optimal. Now, having said that, we 
have made some improvements to the cameras, and I don't want 
people to think we haven't.
    But those two things sort of conspired, the interest in 
commercially available, quickly available to support a schedule 
and to support a cost ended up causing us to make compromises 
in specific components.
    Mr. Carney. Mr. Krone.
    Mr. Krone. See, I would concur with that. I would also, I 
think, mention that we, in tweaking with the cameras and 
working on their performance in many scenarios today, they 
actually exceed the 10 kilometer range.
    But the range in which they work is certainly dependent 
upon the environment, the atmospheric conditions, and there are 
some conditions where they don't have the 10 kilometer range. 
But in other places we have actually seen them in operations, 
in early operations, where they have exceeded the range.
    The initial deployment of the COTS hardware didn't meet 
spec or our expectations, and we have been working hard with 
the Customs and Border Patrol to improve their performance.
    Mr. Carney. Okay, thank you. I imagine we will have a 
couple of rounds of questions.
    I now recognize the Ranking Member from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Again, just before the subcommittee's last hearing on 
SBInet, the Secretary announced her intention to use, as I said 
during my statement and I know you said, the $50 million in the 
recovery funds.
    I am aware that there is promising DOD technology, Mr. 
Borkowski, being used on the border. Will the redeployed 
Recovery Act funding be used to leverage this technology?
    Mr. Borkowski. The specific DOD technology, no, not with 
the stimulus funding. However, as we go forward and make 
decisions about what is the right technology we have talked to 
the DOD. In fact, many elements of DOD as well as, by the way, 
many, many vendors, probably well over hundreds of 
conversations I have had both with DOD and vendors.
    We will use all of that as candidates for the appropriate 
technology. So we have talked to DOD but it is not in this 
initial $50 million.
    Mr. Bilirakis. Thank you.
    Mr. Fisher, I have long been concerned about the impact of 
the border violence on CBPOs and the Border Patrol agents. I 
understand in fiscal year 2009 there were nearly 1,100 assaults 
on Border Patrol agents.
    Based on CBP statistics recently provided to the committee, 
through May 31 there have been nearly 800 assaults on Border 
Patrol agents this fiscal year, with more than 100 assaults 
alone in May.
    What is the reason for this escalation of violence against 
the Border Patrol agents? What resources do CBPOs and Border 
Patrol agents have in terms of protective equipment and 
training to ensure their safety and the protection of lawful 
travelers as well?
    Mr. Fisher. Congressman, with respect to your first 
question as it relates to the cause of the violence across the 
southwest border at--in between the ports of entry, I will just 
offer a general statement because there is a lot of different 
reasons depending upon the area. Depending upon which 
transnational criminal organization happens to own that area in 
which we are operating.
    But in general terms, what we have seen over the years and 
consistent with what we are seeing so far this year, is that 
there is generally a cause and effect of what we do with 
respect to our enforcement posture at the ports of entry and 
between the ports of entry.
    By the way, I should mention those aren't being done 
independently. Those are being done collectively within the 
field leadership because we recognize that the criminal 
organizations historically have tried to exploit at the ports 
and in between the ports.
    So what we are doing in our joint planning, joint 
enforcement posture, is we are making a difference in the 
criminal organizations to operate in these particular areas 
where historically they have operated with impunity.
    Where we are making a difference, the criminal 
organizations are adjusting their tactics. Some of those 
tactics do include aggressive assaults against Border Patrol 
agents, again CBP officers, in the hopes that we will pull 
further away from the border and allow them to again operate 
within some of those same areas.
    So that is a general statement we have seen that over time 
and certainly we are seeing that as well this year.
    Mr. Bilirakis. How about the protective equipment? Can you 
answer that as well?
    Mr. Fisher. Yes, sir, I can. Again, throughout the year as 
we start seeing the evolution, if you will, of that threat, as 
an operator we take that into consideration in planning and 
making sure that the agents and officers are trained properly, 
they have the equipment.
    What we have instituted over the years we are currently 
deploying today, are forms of less lethal capabilities. That 
would take the form of FN 303s, pepper ball systems, riot gear.
    We also had specially trained CBP officers and Border 
Patrol agents that when we know we need to go into a particular 
area and the threat assessment indicates that the propensity of 
violence may be high, we go ahead and deploy those troops in 
advance with extra equipment, extra training.
    To make sure that when we do go in and enforce those areas 
that we do have the appropriate agents that are trained and 
equipped to handle the commensurate threat.
    Mr. Bilirakis. Thank you. Mr. Krone, in your testimony you 
stated that should DHS decide to continue to deploy SBInet 
technology beyond Block 1 it could be deployed rapidly, 
efficiently, and cost-effectively. How much would it cost and 
how long would it take to deploy this technology to additional 
Border Patrol sectors?
    Mr. Krone. At the time that we were put on stop work, we 
had three additional deployments that we had done some initial 
planning, what we call the Tohono O'odham Nation 60-mile 
sector, the Nogales 30-mile sector and the Sonoita 30-mile 
sector.
    At that time we had rough order of magnitude estimates at 
complete, again, these are not contractual numbers, and when we 
are put on contract I am sure we will have a negotiation with 
Mark on the actual numbers. But for the TON deployment, which 
is about 60 miles, that is in the order of $100 million to $110 
million.
    For Nogales about 30 miles in the $50 million to $60 
million range and Sonoita would be about the same, 30 miles at 
about the $50 million to $60 million, or at a cost per mile 
around $2 million per mile of border.
    Mr. Bilirakis. Thank you very much. I yield back, Mr. 
Chairman. Thank you.
    Mr. Carney. Thank you. The Chair now recognizes Chairman 
Cuellar for 5 minutes.
    Mr. Cuellar. All right. One of the things when we talk 
about securing the border is we have got--and we are using 
taxpayers' dollars--is we want to know is the--what we are 
trying to do, is it efficient? Is it effective? Is it 
accountable to the taxpayers?
    But the other thing is that we ought to ask for, is it 
worthwhile on that? That is where I am coming from on this 
particular issue.
    So let us go back to my basic question. If you have 
somebody in Brownsville, Texas, for example, or similar in 
another part of the four States that border Mexico, when can we 
tell the taxpayers that we can secure our border using this 
technology?
    I understand that we can use different technology. There is 
not going to be a cookie-cutter situation. It depends, you 
know, in west Texas you might use something else and in Arizona 
you might use something else. You can make an argument that in 
Texas you have a Rio Grande that provides a natural boundary so 
you use something else.
    In Arizona you might use a fence because you can step from 
one side to the other side, so I understand all that. My 
question to all of you all is when can we say to the taxpayer 
that we can secure the border? How much would it cost?
    Mr. Borkowski. Chairman Cuellar, and I apologize in advance 
for this, but we can't secure the border with just technology, 
okay?
    Mr. Cuellar. No, no, I understand.
    Mr. Borkowski. Okay.
    Mr. Cuellar. A mixture of technology, a mixture of 
personnel----
    Mr. Borkowski. All right.
    Mr. Cuellar [continuing]. A mixture of the operation 
strategy.
    Mr. Borkowski. Right.
    Mr. Cuellar. I understand that. When can we say that we 
have sufficient technology to address that? Because I mean 
there is areas that certainly I would like to see those towers 
and fences and cameras and--up and down the border.
    But I mean just for example, Mike McCaul and ourselves, we 
got in one of those civil air patrol planes the other day, 
actually last year, and we just very low flying we flew up from 
Laredo, followed the river all the way for a couple hours down 
all the way to Brownsville.
    Of course, I was making my argument on how do you put a 
fence all around there, but nevertheless how do you secure that 
area? That is only one part from Laredo down to Brownsville. So 
how do we address this issue?
    Mr. Borkowski. Well----
    Mr. Cuellar. How much would it cost us, time and money?
    Mr. Borkowski. Okay. Probably the worst case, the worst 
case would be if we decided to take SBInet Block 1 or whatever 
is up--the appropriate iteration, put that all along the 
southwest border with some ambitious but potentially realistic 
funding assumptions.
    We have talked about those numbers before. We talked about 
$8 billion. We have talked about 2016, 2017.
    Mr. Cuellar. Yes.
    Mr. Borkowski. That is probably worst case, and by the way, 
probably very unlikely because I doubt that we would conclude 
that SBInet is the right answer for the entire border.
    Mr. Cuellar. Okay.
    Mr. Borkowski. But that is a worst-case assessment. So the 
challenge for the Secretary's assessment, the Department now is 
saying, okay, now we have got that worst-case assessment. It 
has very ambitious funding assumptions because obviously it 
would slip based on funding.
    But is that the right answer? Can we get some things more 
quickly if we go to other technology, less expensively if we go 
to other technology? We expect the Secretary's assessment to 
advise that.
    So worst case, very ambitious funding assumptions, and by 
very ambitious I am talking like a billion dollars a year into 
technology, okay, 2016, 2017 if you used SBInet Block 1.
    We are hopeful that through this assessment process we can 
identify and better tailor technology so that we can accelerate 
that with the appropriate technology at lower cost compared to 
that kind of worst-case SBInet baseline. But we haven't built 
that yet and won't build that until we have completed the 
assessment.
    Mr. Cuellar. So roughly 2016, 2017 for the 2,000 miles, at 
least in the southern border, and we are not even talking about 
the northern border----
    Mr. Borkowski. Right.
    Mr. Cuellar [continuing]. But let us say the southern 
border, 2016, 2017.
    Mr. Borkowski. In order to have technology SBInet Block 1 
with some ambitious budgeting. Again, we hope we can do better 
after we go through the assessment, but that is kind of the way 
the baseline was laid out. Don't expect to execute that 
baseline. I want to be very clear of that, but in order to size 
the problem that is probably the best place to start.
    Mr. Cuellar. Money-wise?
    Mr. Borkowski. Well, the estimate for SBInet across the 
southwest border was $8 billion. Now again, to be fair, that 
estimate suffers from some of the deficiencies that Mr. Hite 
has described, but that is the estimate that we have had up to 
this point.
    Mr. Cuellar. Okay. So I am sorry--so how much again for 
2016, 2017 in U.S. dollars?
    Mr. Borkowski. 2016, 2017 about $8 billion if we put in 
SBInet Block 1. Again, I want to reemphasize, I don't expect us 
to do that. That is a worst case, I believe.
    Mr. Cuellar. Okay. So worst-case scenario might be $8 
billion up to 2016, but if you use different type of technology 
it might be faster. That is the worst-case scenario. Give me 
the best-case scenario.
    Mr. Borkowski. I guess I am hesitant to do that because I 
would be speculating at this point, Chairman Cuellar. That 
would be pretty dangerous for me. So if I could defer I would--
--
    Mr. Cuellar. Finally, the last question I have for all of 
you all, do you talk to GAO besides the time that we are here 
in a committee? Because I mean GAO comes up with term findings 
and I know you are not going to agree with. That includes also 
Mr. Krone, all of you all. I mean do you all talk to each other 
before we come to the committee?
    I mean, the way I see it is GAO is not doing a catch you--
hey, we have got you here. I mean to me it is I look at the 
findings. You work with them, fix them, the ones that you agree 
with. The ones you don't agree with then debate them on that.
    But do you all talk, seriously? I know you are going to say 
yes, but do you really talk to each other before you come to 
this committee hearing?
    Mr. Borkowski. First of all, Chairman Cuellar, I do agree 
with most of the GAO findings. What I look for in the GAO is 
whether they found something I didn't already know, okay? So I 
agree with the findings. I might disagree with some of the 
technical or packaging of it, but I agree wholeheartedly with 
the findings. The GAO has identified weaknesses in this 
program.
    Yes, we do talk. Now, we don't get together before the day 
of the hearing and compare notes. But the GAO is with us all 
the time. We have many exchanges of data. They interview us for 
their findings. They come in and they tell us what they are 
seeing and ask us, are we aware of it? Have we seen it?
    Mr. Hite and I are not, you know, drinking friends, but he 
does come into the office from time to time----
    Mr. Cuellar. Maybe you should be drinking friends.
    Mr. Borkowski. Well, maybe we should.
    [Laughter.]
    Mr. Borkowski. In fact, that is not a bad idea. But he does 
come in and share his ideas on--not on every an every week 
basis but probably every couple of months. So yes, we do 
compare notes.
    Mr. Cuellar. Okay. Let me just give you, again, my personal 
opinion. I appreciate your attitude because we have had other 
folks in the past, and I am not talking about your program, but 
other folks that are very defensive when it comes to the GAO.
    I like your attitude as, you know, whether it improves, 
doesn't improve, you know, I like that attitude. So I just, Mr. 
Borkowski, I appreciate that type, and I thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Chairman.
    The Chair now recognizes the gentleman from Texas, Mr. 
McCaul for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman. Thanks for being here 
today, and I think I felt like we just did this a few weeks 
ago. But I don't really need to tell you all about the threats 
that exist at the border. There is a war going on.
    We have U.S. officials targeted in Nuevo Laredo, Juarez. We 
had a deputy sheriff in Arizona shot. We just had a shooting in 
the El Paso, Juarez border. Every day we hear a news story 
about some violent killing. More people died in Mexico at the 
hand of the drug cartels than the wars in Iraq and Afghanistan 
combined.
    So my constituents and the American people, they get 
frustrated and they want this to happen now. When they hear 
2016, 2017 and I know all of you understand this, that to them 
that is not acceptable. I don't think it is either. I think we 
can do better.
    I think Mr. Borkowski, you and Mr. Fisher have a--being new 
to the scene have a great opportunity to get this done right. 
There are some good technologies out there. I think, you know, 
I showed a video of Block 1 last hearing and it seems to be 
working relatively well. The agents seem to like.
    As I understand your testimony, by the end of June, Mr. 
Borkowski you will have an assessment on that?
    Mr. Borkowski. Not of that. By the end of June what we will 
have done is this so-called quantitative science-based 
assessment to say with SBInet we expect it to do, compared to 
what other technology could do, what SBInet would cost to do 
it, what other technology would cost to do it. What is the best 
trade-off in cost and benefit for Arizona? That is the end of 
June.
    In terms of taking the experience of the agents, and which 
has been very encouraging, but it is not quantitative. It is 
subjective. So to put that in other words what the agents are 
seeing and doing they like. What we don't know is, are we 
seeing and doing all the things that we are supposed to be 
seeing and doing?
    That is the system acceptance testing we talked about that 
would be completed for Tucson-1 in September. So we will 
combine that. That will be measurable. We will have some 
measures. We will combine that with the qualitative assessments 
of the agents and we will characterize the system.
    Mr. McCaul. Okay, so by the end of September you will have 
a better idea----
    Mr. Borkowski. Yes.
    Mr. McCaul [continuing]. On it? I appreciate your 
comprehensive approach. I think there are a lot of good 
technologies out there. I think as Congressman Cuellar and I 
talked about we have seen--well, you and I took a trip down to 
the border and saw technologies that we are using in 
Afghanistan on the Pakistan borders that the taxpayers already 
paid for.
    It seems to me we ought to be using that. Not duplicate 
efforts and use that same technology on the southwest border 
where it is needed. I think you agree with that, got good 
sensor technologies, surveillance technology.
    We saw an operation the other day that uses radio frequency 
to shut down vehicles, boats. I mean think about the 
applications that that would have. So I think you are smart to 
look at all the menu of technologies out there and to using 
best for the taxpayer.
    UAVs, do you--and Mr. Fisher and Borkowski, do you value 
the use of UAVs down there?
    Mr. Fisher. Yes, Congressman, we do.
    Mr. McCaul. I would like to see more of them down there. 
Would that be helpful to your mission?
    Mr. Fisher. Yes, Congressman, it would.
    Mr. McCaul. We just, you know, we have several in Arizona 
but not enough in Texas in my view where I come from.
    I know my time is limited, but I wanted to follow up on 
something, Mr. Borkowski, you said, and that is we can't secure 
the border with just technology. I think technology is an 
important piece. The fence is by and large finished except for 
those parts litigated. Can you explain what other--what else 
you were talking about?
    Mr. Borkowski. Well, what we are talking about here is 
technology, tactical infrastructure which includes fence but 
also things like roads and lights and then personnel. So 
technology, what we use technology primarily for is to give us 
an awareness of what is going on.
    Technology can't respond to that awareness. By the way, 
people can give us that awareness. So there is a trade-off 
there between what can I have technology do, what I have people 
do, for example.
    Mr. McCaul. I agree, but the President's budget basically 
proposed a decrease in SBInet down to $574 million from the 
previous year funding of $800 million, and cuts to Border 
Patrol agent staffing. I don't think that is the right 
direction.
    Now, I know that the President just came out recently and I 
commend him for it, that $500 million emergency spending and 
1,200 National Guard. Did the President talk to you, Mr. 
Fisher, about this proposal?
    Mr. Fisher. No, sir. The President did not speak to me 
about that.
    Mr. McCaul. No. You are the chief of the Border Patrol, 
right?
    Mr. Fisher. Yes, sir, I am.
    Mr. McCaul. Okay. Okay. Don't you think it would be good to 
get your input in terms of how many National Guard are needed 
on the southwest border?
    Mr. Fisher. Well, I can tell you, sir, that my 
requirements, operational requirements that I get from the 
field, the chiefs in the field, my collective staff here in 
headquarters, gets packaged with all of CBP's requirements for 
border security efforts. It gets funneled through the 
Secretary, so ostensibly my requirements are being heard. I am 
just not doing it personally.
    Mr. McCaul. Do you think 1,200 is sufficient?
    Mr. Fisher. Twelve hundred, sir of the----
    Mr. McCaul. Additional National Guard?
    Mr. Fisher. Up to 1,200 National Guard will help us and in 
those priority areas to achieve higher levels of what we 
tactically define as operational effective control of the 
border.
    Mr. McCaul. The Governor of my State has requested a 
thousand just on the Texas and Mexico border. My constituents 
are very frustrated about the use of the National Guard. They 
don't understand why they can't do what they are trained to do 
down there. That they are basically assigned to desks and they 
push paper as opposed to providing security on the border.
    I share in that frustration. I know there are some legal 
obstacles to that, but what do you see as the use of the 
National Guard on the border?
    Mr. Fisher. Well, sir, and certainly I wouldn't argue with 
your constituents' perception with respect to what the Guard 
may or may not be able to do. I will tell you that they add 
value.
    What we have seen in using the Guard over the years, we use 
them in many cases to perform services such as auto mechanics, 
surveillance operators for some of the camera systems Mr. 
Borkowski has mentioned.
    Because what that does, that allows a Border Patrol agent 
who is currently doing that to then free them up to go and do 
the patrols that have and those agents have the arrest 
authority where the National Guard does not.
    They also provide in terms of entry identification teams. 
What that means is we have National Guard members who, along 
with Border Patrol agents, get up to a high point where perhaps 
we don't have the technology solution yet. They perform a 
valuable function detecting that which we can't see otherwise 
so that Border Patrol agents can then respond.
    It increases our capacity to not only have some situational 
awareness that reduces those vulnerabilities with those 
additional force multipliers on the ground. So they do add 
value to our operations in my opinion.
    Mr. McCaul. Well, I hope you can fully utilize their 
experience because they have tremendous experience. They could 
be, you know, brought to bear on the border.
    I look forward to working with the two of you more in the 
future. You are, again, you are new to this so we are not going 
to blame the new guy. But I think we have a good opportunity as 
well in terms of fixing this problem.
    With that I yield back.
    Mr. Carney. Thank you.
    The Chair now recognizes the other gentleman from Texas, 
Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank the witnesses 
for appearing today. I especially thank you, Mr. Fisher, 
because you are a part of the front line. I don't think you get 
enough of indications, if you will, that you have a tough job 
and you are trying to do it as best you can.
    So I appreciate what you are trying to do under exceedingly 
difficult circumstances, and you are to be commended. Thank 
you.
    I would like to start with the basic premise from which 
securing the border has to emanate. That premise is this, a 
definition of secure. When we say we want to secure the border, 
the public hears ``prevent people from entering.'' That is what 
the public hears.
    What have we codified as the definition of securing the 
border? Who is best suited to do this? If you want to raise a 
hand I will recognize you or you will just start talking?
    Mr. Fisher. I will start that, sir, and thank you for the 
comments and thank you for your continued support on our 
mission. I, too, have been thinking over the years and more 
recently over the last few months about securing the border, 
and hearing also both, you know, within the organization as we 
look at our strategy and what that means.
    We do have tactical definitions by which we measure that 
because each and every day the field chiefs along with their 
field commanders assess to what extent are they achieving the 
objectives? We start there from an operational perspective.
    What that tells us is when we look at prevention, we look 
at identification and classification and responding and all the 
things we try to measure how well we are doing against that, 
the ultimate objective and what we are trying to accomplish 
ultimately, is to be able to reduce the likelihood that 
dangerous people and dangerous capabilities enter between the 
ports of entry.
    Now, what you didn't hear when--also is thrown in to secure 
the border, is sealing the border. What is interesting when you 
look at as measures and what is it that we are trying to 
accomplish and be measured with? There is an expectation 
certainly, and then there are areas, for instance, where we 
have detection capability, and we have infrastructure.
    We have the vast majority of Border Patrol agents, and we 
have those areas we have gained effective operational control. 
Again, the highest operational and tactical definition which 
tells us levels of activity in terms of how many people are 
coming in and how many people are we arresting?
    Even in some of those areas, the vulnerabilities exist when 
they tunnel underneath us, when they use ultralights to go over 
top. So all of a sudden we start, again, adjusting and trying 
to anticipate what that threat is going to do because it is a 
dynamic threat environment in which we are faced.
    So when you say securing the border, I can put it in terms 
of the Arizona Corridor, for instance, where when I was a 
Border Patrol agent last there, just a short 10 years ago, 
there was over 420 arrests in a particular area.
    Then you compare that with today, and I am not suggesting 
that 240 apprehensions last year was good. I am just saying the 
comparative that would suggest that we are doing something in 
reducing the likelihood.
    Because what we are seeing also as we reduce the likelihood 
that those dangerous people and dangerous capabilities can come 
in, we also are able to move some of that threat and put them 
out into some areas where we do have time. Try to get them out 
of those urban areas where historically they have operated.
    Mr. Green. Thank you, sir. I have one additional question 
and I would like for Mr. Hite and Mr. Krone to respond to this 
question. If the plan is 100 percent effective, what percentage 
of people will we prevent from entering the country?
    We will start with you, Mr. Krone, if you would please.
    Mr. Krone. Let us see, it is a great question. I can tell 
you on a given day what the radar will do, what the camera will 
do. I can tell you the performance that we have observed. I can 
talk about probabilities of detect and probabilities to I.D. 
that individual once we detect them. Those are all parameters 
of the system, right, that Boeing has been asked to design.
    But I don't, as the contractor, have the ability to answer 
the whole question. When you combine tactical infrastructure, 
the Border Patrol agents and the technology of what that 
overall number would be, that is really a composite view of the 
border which I think is best addressed by the Customs and 
Border Patrol.
    But I would be happy to go----
    Mr. Green. How likely is----
    Mr. Krone [continuing]. Through the specifications of the 
operating----
    Mr. Green. No, no, no, no.
    Mr. Krone [continuing]. But that doesn't address your 
question.
    Mr. Green. I understand. My time is very limited. Now, I am 
already over, but let us move to Mr. Hite and perhaps Mr. 
Fisher, but Mr. Hite, 100 percent effective. Do you have some 
guesstimation, estimation, prognostication as to what 
percentage of persons will be prevented from entering?
    Mr. Hite. No, sir. I do not.
    Mr. Green. Mr. Fisher.
    Mr. Fisher. Sir, I will tell this committee and quite 
honestly that I cannot guarantee with any amount of technology, 
personnel, or infrastructure that nobody will ever penetrate 
the borders between the ports of entry either underneath, over, 
or by the air.
    What I can guarantee is our continuous efforts, again, in 
working with that right combination, working with the 
intelligence community and identifying that threat. In cases 
where we do have somebody that comes across the border that we 
will have the capacity and the capability to respond and 
mitigate any potential impact against that threat.
    Mr. Green. Well, the reason I ask is because it would seem 
to me that if we are going to spend billions of dollars we 
ought to have some goal, some idea as to what we will 
ultimately accomplish after spending billions of dollars.
    So let us give Mr. Borkowski a chance to--an opportunity. 
Can you shed some light? Will we prevent 75 percent, 85 
percent?
    Mr. Borkowski. I can't----
    Mr. Green. Ten percent? What percentage of persons will we 
prevent from coming into the country if our plan is 100 percent 
effective?
    Mr. Borkowski. A couple things, Congressman. By the way, I 
can't give you a specific number. I can say this. Border 
enforcement at the border is not enough in and of itself, okay? 
So we are talking about securing the borders themselves, but 
there are other factors that impact preventing people from 
coming across there, which is why there is an--and I am not 
commenting on the policy, but I have to emphasize there is 
interior enforcement. There are immigration reform issues with 
this.
    So we are talking about border security. The goal of border 
security at the border is to know what is going on to some high 
level of confidence across that whole border, and to have the 
opportunity to respond to that knowledge as we see fit when we 
see fit. So that is what our technology is designed to give us, 
knowledge of what is going on.
    Mr. Green. Sir, may I just indulge for one additional 
person, please? Mr. Hite, did you respond?
    Mr. Hite. Yes, sir.
    Mr. Green. Your opinion is again?
    Mr. Hite. That I didn't have the answer to your question.
    Mr. Green. Do you as a person who works with this closely, 
do you believe that we should have an answer to that question? 
That we should have some goal?
    Mr. Hite. Well, I believe that we should have a goal. I 
think a goal in the terms that you were asking about with that 
level of precision is--would be very, very difficult if not 
impossible to have. It is a very complicated equation.
    Mr. Green. All right, thank you very much. Thank you for 
your indulgence, Mr. Chair.
    Mr. Carney. Thank you.
    The Chair now recognizes my friend from Alabama, Mr. Rogers 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Chief, back in 2005 when we--or 2006, when we authorized 
the ramping up of your forces from 12,000 to 18-3 or -5, I 
can't remember what it was, I said then I didn't believe that 
was enough. That I believed that we needed to be in the--below 
the mid-20s? Do you believe you are adequately staffed for the 
mission?
    Mr. Fisher. Given where we are now with about 20,000 Border 
Patrol agents, at this point with the increase of the 
technology as we are seeing over time and the right 
deployments, currently that is what we are assessing as well.
    I can also tell you, sir, and this is a point that is worth 
mentioning is of those additional 6,000 Border Patrol agents 
back then, or 6,000 Border Patrol agents, a lot of those agents 
now are having levels of maturity----
    Mr. Rogers. Right.
    Mr. Fisher [continuing]. Post-training so their value in 
the force-multiplying capability is going to be enhanced over 
the next few years. So that is why I am measured because it is 
not just the numbers. It is what we are seeing as it relates to 
the training, the maturity level, the additional technology, 
and then what we are seeing as those benefits.
    So for right now as we look at, you know, personnel, 
technology, and infrastructure, as everybody has mentioned 
here, you know, the other critical piece for our organization 
is a new way of thinking which suggests that not just those 
three things are going to get us operational control, however 
that is defined.
    It is that we look at our strategy. We take a look at the 
difference between gaining that control as well as sustaining 
that. Where is the emphasis with the personnel and technology 
within a sustainment strategy in comparison to the way we have 
applied it over the years to be able to gain control in some of 
these areas, so----
    Mr. Rogers. Well, I want to talk about strategy in a 
minute. In answering the question from Mr. McCaul a few minutes 
ago about UAVs, I am curious, do you all use air ships at all 
along the border that could meander and loiter for weeks at a 
time?
    I am not talking about the aerostats that are tethered. I 
am talking about what I call a blimp but the military uses them 
like in Afghanistan, eyes in the sky? Do you all use that 
platform?
    Mr. Fisher. I don't believe we do, sir.
    Mr. Rogers. Mr. Borkowski.
    Mr. Borkowski. We don't, although we have spoken to folks 
representing that to kind of put into our menu of options. But 
we don't currently use them.
    Mr. Rogers. Yes, you know, early on we saw the inherent 
problems with the cameras on poles. I know you all have a 
fancier name for them, but that is what they are. It just seems 
like that this is an asset that we ought to be incorporating 
because it does allow you to see over into Mexico and see what 
is gathering and have a pretty good view from our side as well.
    So I would be interested in your thoughts about that at 
some other time. I may have you come by and visit with me.
    I also heard Mr. McCaul talk about the fact that the 700 
miles of fencing that was authorized and appropriated, which 
only half of it is pedestrian fencing, has been pretty much 
completed. Is that accurate?
    Mr. Borkowski. Yes.
    Mr. Rogers. How much more do you need of pedestrian 
fencing? How much more fencing do you need now that you--now 
that we have used up what we have appropriated and authorized? 
What would be the next ask?
    Mr. Borkowski. Well, Congressman, we are in the process of 
assessing that right now, matter of fact. Going back to some of 
the evaluations and what my staff is currently doing at my 
request is taking a look at requirements based on what we know 
with the projections for SBI.
    Going back and revisiting the personnel, technology, and 
infrastructure piece because one of the things I want to be 
able to do is we have basically one operational, almost two 
operational cycles, if you were, 2 years to see what that 
pedestrian fence, what that vehicle barrier has done with 
respect to our ability to achieve those levels of operational 
control.
    Where have the traffic gone, and in some of those areas----
    Mr. Rogers. When do you expect to have that assessment?
    Mr. Borkowski. Probably within the next few months, sir.
    Mr. Rogers. By the end of this calendar year?
    Mr. Borkowski. By the end of the calendar year into the 
next year when we are talking about our operational planning 
cycle, yes, sir.
    Mr. Rogers. You will be able to talk about not only what 
you need as far as fencing but staffing?
    Mr. Borkowski. Yes, sir.
    Mr. Rogers. Excellent. I wanted to visit strategy before my 
time is up. I noticed in January Secretary Napolitano announced 
a DHS-wide review of SBInet and its alternatives. In February 
of this year the budget request, it included a $225 million cut 
for border technology.
    Then the following month, in March, Secretary Napolitano 
froze SBInet funds and transferred $50 million to other 
technology. In May, President Obama announced a request of $500 
million in emergency funds to boost the border security and 
deployment of National Guard.
    This is for Chief Fisher. Did they talk with you about any 
of these before they made these decisions? Was this part of a 
strategy is what I am after?
    Mr. Fisher. I have been in discussions with both the CBP 
leadership and the Department leadership about requirements, 
about, you know, strategy and what we are doing with respect to 
the threat. I don't know how much of that was part of those 
specific items that you had mentioned, sir.
    Mr. Rogers. Well, and I understand the idea of a strategy--
--
    Mr. Fisher. Yes.
    Mr. Rogers. A little while ago my colleague from Texas 
asked Mr. Borkowski a question about, you know, best-case 
scenario, and you said you didn't have one. It just really 
seems to me that as a part of your plan that you kind of ought 
to have an idea of when you are going to achieve certain 
milestones and objectives, best-case and worst-case.
    I mean, I just think it is fundamental. So I was kind of 
maybe uncomfortable to hear you don't have a best-case 
scenario. For what that is worth I hope that you all will work 
toward that goal.
    Thank you, Mr. Chairman and I yield back.
    Mr. Carney. Thank you, Mr. Rogers.
    Interesting testimony so far, but I am not surprised by 
anything I don't think, but Mr. Borkowski, what is going to 
happen to equipment that has already deployed if the Secretary 
finds we are not going to continue with SBInet? What is the 
plan for that?
    Mr. Borkowski. Well, under the nature of a contract like 
this the hardware that is already built because it is a cost-
reimbursable contract, if we shut everything down we own it. 
Then the question for us is do we continue to operate it or 
not?
    Now, in Tucson-1 where we have turned this over since 
February to the Border Patrol while we are waiting to do the 
testing, we are getting value out of it. So my anticipation 
would be we would operate it to whatever level it is effective.
    The question, as I suggested earlier is how effective is 
it? But it is somewhat effective. So I don't think, although we 
haven't concluded, I don't think it is likely we just rip it 
all apart and not use it. I suspect we would use what we have 
got but we wouldn't build any more. That would be the issue.
    Mr. Carney. Would you then integrate it with other 
technologies that you are assessing now or what are you 
assessing now actually?
    Mr. Borkowski. All right. The immediate question for the 
assessment is do we need to rethink the basic technology 
strategy, which was let us deploy SBInet in some incarnation 
along the whole border? That will be the meat of our technology 
investment.
    The question is, is that really the right technology in the 
right places? Or are there better mixes and matches, including 
things like UAVs, which really weren't in that trade. So the 
assessment is do--should we rethink that baseline?
    Was that really the right way to define the technology 
contribution to border security? Or can we come up with 
something that is a little bit more rational that is tailored 
to each area of the border?
    Some of those might be things like SBInet, but some of them 
might be a couple of mobile surveillance systems, a camera 
tower, a UAV, you know, a blimp. Okay? So that is the plan.
    Now, that is going to take a little while to frame that for 
the whole border, which is why I think we are all frustrated 
because you would like me to have that today and, frankly, I 
can't tell you I do. So that is what we are talking about 
assessing.
    My expectation is that we would not end up with SBInet all 
along the border. Already that doesn't look like a wise thing 
to do. It may make some sense. We don't know yet. It may make 
some sense in some places. So that is the plan.
    In terms of integrating, that is a longer-term question 
because if I have UAVs and mobile surveillance systems and so 
forth, the question would be is there utility in taking all of 
that information, sending it to one place and doing something 
called--like data fusing it? It is very expensive, but it has 
benefit.
    So that would be a vision for the future. The first 
question is get technology there in the first place. The second 
question is can I do something to enhance the utility of that 
technology through things like integration and fusion?
    Mr. Carney. Well, the future is now. I think we understand 
that.
    Chief Fisher, you know, you are supposed to have about 655 
miles or so under surveillance with this technology by now, and 
it is--we are down to 53--or we are at 53 miles roughly. That 
leaves a big gap. I mean, some of that the technology was 
supposed to account for fewer Border Patrol agents, right?
    I mean they were supposed to do the work that more agents 
on the ground should do. What have you done to fill in that gap 
to compensate for that shortage of folks on the ground?
    Mr. Fisher. Well, we would deploy Border Patrol agents in 
there to do the detection capability and/or mobile surveillance 
systems, mobile war scopes. We would commonly deploy and 
redeploy those resources within an area of operation on a daily 
basis anyway.
    So the fact that a particular SBInet system isn't doing 
that, we are compensating because a threat may still be there 
and we have to reduce that vulnerability in other ways.
    Mr. Carney. No, I understand that you are compensating, but 
do you have adequate forces? I mean--I am kind of re-asking Mr. 
Rogers' question here. Do you have enough folks on the ground 
to fill the gap that should have been filled by SBInet?
    Mr. Fisher. We are currently assessing that as well, Mr. 
Chairman, matter of fact, and one of the things we are looking 
at as part of the strategy is defining corridors of operation. 
Then identifying and prioritizing those corridors to be able to 
match the adequate resources against a particular threat in a 
prioritized fashion.
    So to suggest that we have that all across my answer would 
be no, we don't. But then again, going back with what Chairman 
Cuellar had mentioned is we have the finite resources and with 
respect to the taxpayers' dollars.
    How do we then deploy those resources in the appropriate 
way to be able to achieve the stated objectives at the most 
cost-effective way of doing that? That is what I am charged 
with, sir, and that is what we are assessing right now.
    Mr. Carney. We cannot wait for your answer, frankly. How 
much input do you have as Border Patrol into what Boeing is 
doing now?
    Mr. Fisher. I don't work directly with Boeing personally 
myself. I do----
    Mr. Carney. But the CBP does?
    Mr. Fisher. Oh, absolutely. Matter of fact, I meet 
frequently with Mr. Borkowski. There are Border Patrol agents 
assigned to his staff. He is clear as far as what my 
operational requirements are as it has being communicated to me 
from our field leadership. He constantly checks my thinking 
just to make sure that what he is hearing is consistent with 
what the discussions that he and I have had.
    Mr. Carney. Okay, thank you.
    I will recognize Mr. Cuellar for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman. Now, just a quick 
observation, if we want to do something--I think that if the 
private sector wanted to do something or Government wanted to 
do something, I think the first thing we would do looking at 
the big picture is do the assessment as to what we want to do, 
what we want to cover, what technology will be used in 
different areas, and then you get to work.
    In this case, and I know you are new, Mr. Borkowski. I 
appreciate it. I really--because like I said I really like your 
attitude. I really do--is it looked like we got into the 
project and started working on it and then when Mr. Rogers or 
myself or other folks ask you well, you know, what do we need 
for the rest? Oh, we haven't gotten to that assessment yet 
because we are trying to work on this.
    Quite honestly I don't think we gave Boeing the right 
directions, you know? You know, I want Boeing to succeed on 
this, and I know there have been some issues, but did we do the 
assessment for the whole border and following Ms. Miller it is 
not only the southern border but the northern border, but right 
now we are focusing on the priority which the southern border 
is.
    Did we do the overall assessment because everything I have 
been hearing so far is well, I can't give you a short-term. I 
can give you the worst-case scenario but I can't give you the 
best-case scenario. We haven't gotten to the assessment. We are 
still looking at that.
    I mean I would ask you all to really step back, do the 
long-term assessment, see what works in south Texas, what works 
in California, what works in New Mexico, what works in that 
area?
    Work with our new chief and do that. I know you all have 
been doing that, but we have been asking you, and the responses 
we have been getting back is well, we haven't gotten to that 
assessment on that.
    I think that would be more fair to Boeing or any other 
company that you are working with to say this is the overall 
assessment. This is what we need. Go ahead and give us the best 
product or service in this case.
    I would ask you all to really work together on that 
assessment because otherwise Mr. Rogers and myself, Mr. 
Chairman and other folks, we ask you for that assessment but 
you are telling us well, we haven't got to that.
    I know you are new. But I would ask you to look at that and 
work with us on the committee so we can help you do that 
overall assessment. That is it. No answer requirements, just 
hopefully saying, ``Yes, I will. We will work on it.'' Thank 
you.
    Mr. Carney. Mr. Rogers.
    Mr. Rogers. Chief, I want to follow up on that a little 
bit. I serve on the Armed Services Committee as well, and one 
of the things I found in the years I have been there is you are 
never going to get a general to tell you he needs something 
separate from what the President's budget says or what the 
Secretary of Defense is saying.
    I don't appreciate that. It is unfair to the Congress to 
not be able to get a fair answer from a commanding general as 
to what they need in wartime so that we can provide it.
    I offer that back up to say this. We need to know if you 
need more agents. No matter what the Secretary wants or what 
the President wants, if you feel like you need more agents, you 
need to tell the people on this committee so we can get them 
for you.
    So I ask, when you say you haven't got your assessments 
yet, do you just not want to tell us? Or do you really not know 
if you need more people or not?
    Mr. Fisher. I can tell you, sir, my response to your 
earlier question about identifying the requirements to--under 
our operational definition is to achieve effective operational 
control. It is not a numerical equivalent of 19,000 or 25,000.
    Not--and even if the threat remained the same, which it 
doesn't by the way, and all things were being equal with 
respect to the terrain along the southwest border, which it 
isn't, and the northern border, is trying to figure out what is 
that right combination?
    I mean and sometimes I even get frustrated with my staff 
when they say well, chief, it depends. It depends, you know, 
that right combination of personnel----
    Mr. Rogers. Right.
    Mr. Fisher [continuing]. Technology and infrastructure. 
What is interesting is now that we started over the last few 
years receiving that, we are starting to see the benefits of 
that. So I think we are in a better position over this next 
year and the following year to assess what that combination is.
    That is why I was mentioning earlier in some of those areas 
where we have achieved by our tactical definition effective 
operational control. Now the question is: Okay, what is it 
going to take to sustain that? Because the thought is within 
our strategy, it is going to take more resources in that 
combination to gain control than it is to sustain it.
    So when we look at those areas and we start developing a 
sustainment strategy and what that entails, what I am expecting 
is that we will be able to redeploy some of those resources 
into other areas where we are gaining control.
    So that is why the number may at some point be okay, but we 
are using it in a lot more flexible manner. We are being a lot 
more mobile with our response capabilities because now we do 
have the situational awareness and the detection with the 
technology piece.
    We have the persistent impedance that the infrastructure 
gives us. So now we are using our personnel smarter. We are 
using our air assets smarter. So we are coming up with a force 
that we are a lot more flexible against those threats.
    Mr. Rogers. Well, you know that on its face what is 
happening right now with the National Guard being sent back 
down there it gives us the impression that you need more 
staffing, maybe in support capacities. May not have to be 
agents, but you see my point?
    Mr. Fisher. Yes, sir.
    Mr. Rogers. I would like to know do you have a problem 
after you complete your assessment giving us your unvarnished 
opinion notwithstanding how the President or the Secretary 
would feel about it?
    Mr. Fisher. No, Congressman, I wouldn't have any--I told 
this committee in my first testimony that any questions that 
you pose to me I will give my honest answer and assessment to 
that. I mean, if there are certain circumstances in my tenure 
as the chief that I can't answer a question I will tell you 
that as well, sir.
    Mr. Rogers. But you do understand how we would have 
concerns when we see the National Guard having to be mobilized 
to come out and help you all, that maybe you need more of your 
own people and not having to have the National Guard?
    Mr. Fisher. Oh, I understand those concerns----
    Mr. Rogers. Okay.
    Mr. Fisher [continuing]. Sir, yes.
    Mr. Rogers. That is all I have, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Rogers.
    Mr. Krone, every deadline that has been set for SBInet has 
been missed. What do you account for the failure of the system 
to meet the deadlines and what methodologies do you use to 
actually calculate those time frames that you are trying to do 
something?
    Mr. Krone. Thank you, Chairman. First, let me point out 
that the schedule that we discussed 3 months ago relative to 
completion of systems acceptance testing for both Tucson and 
Ajo, we have held those schedules. Although we are not 
celebrating, there actually have been some milestones over the 
last 4 or 5 months that we have beat. Not by a lot but by some.
    I think that is the cumulative result of applying sound 
management practices to the program, some of which were pointed 
out by the GAO and a lot of rigor that has been brought to the 
program by Mr. Borkowski.
    As I said before, I have been associated with the program 
for about 3 years now. We went on this spiral development 
journey to do something that had not been done before.
    That is net together a series of sensor towers with a 
common operating software and put Border Patrol agents in the 
loop to work interactively with the system and fielded Border 
Patrol agents, integrating commercial off-the-shelf into a 
relatively harsh environment in the southwest border.
    We learned a lot along the way about how individual 
components, which were well-characterized in and of themselves, 
when combined together in this operational scenario would 
perform. In many areas we were disappointed--I know the 
committee was--in the performance of this total end-to-end 
system.
    So collectively in partnership with our customer we made 
decisions about do we deploy the system as is, if you will, out 
of the box, strung together? Or do we spend some time to try to 
improve the performance of the system and therefore delay its 
systems acceptance testing and eventual hand-over?
    So these were, if you will, deliberate decisions that we 
made collectively with our customer to get the system right 
before we turned it over to the Border Patrol for their use.
    Mr. Carney. Understood. So we decided to take more time and 
change the goals a little bit, or to a certain degree change 
the parameters, which it was not how it was originally sold. 
We, you know, we have had this discussion before----
    Mr. Krone. Yes, sir.
    Mr. Carney [continuing]. And which becomes an issue that we 
are, you know, the guardians of the taxpayers' money and, you 
know, we said yes to this. Somebody said yes to this and we 
want it as sold.
    Mr. Borkowski, going back to alternatives, how--are you 
seriously considering expanding, say, the Predator fleet or 
things like Shadows, you know, smaller UAVs, UAS' to get more--
you are not going to control ground with vision, but you can 
certainly point folks in the direction to do that?
    Mr. Borkowski. Yes. In fact, we are seriously considering 
it, although those decisions are actually going to be made by 
folks like Chief Fisher. Somebody asked earlier about, you 
know, do we have a dialogue? He is actually the boss.
    Mr. Carney. Right.
    Mr. Borkowski. He sets what we need and how we use it. But 
yes, we have had the small UAVs, certainly, and I know you have 
probably talked with General Castellaw and you know his view 
and the importance of UAS and UAVs. So yes, we are seriously 
considering those.
    Mr. Carney. Okay, very good. Now, a number of my colleagues 
asked questions, and I will end with this because we have 
actually got to go vote. On the time table for your 
assessments, you know, we ask questions that have--you probably 
should have anticipated a while ago actually. In the--you 
haven't done the assessments for us.
    So we would like, the next 30 days, assessments on, for 
example, you know, best- and worst-case scenarios of 
deployment. Because we, you know, we actually have--when are we 
going to be able to control the border? Because coming up some 
time in the foreseeable future we are going to have to vote on 
things like immigration reform.
    We can't do that until we have operational control of the 
border, until we understand that. I know maybe they go hand-in-
hand. Maybe they are part and parcel of one another, but you 
are in a position to provide us with information and we would 
love that.
    We would also love your schedule on your testing coming up. 
You know, what is going to happen? When are the dates of the 
testing? What are your parameters for testing? You know, so we 
have something to also have a metric to assess by. Okay?
    You know, hopefully this is as frustrating for you as it is 
for us here. We have got to get this right. You know, we have a 
long less-than-secured border, and I am not going to say 
completely unsecured because I think what CBP is doing is 
remarkable, to be honest. I mean, my hat is off to you guys all 
the time.
    But in the end we have to be the stewards of the taxpayers' 
dollars, of the resources that we have available and protect 
this Nation. The threats are increasing rather than decreasing. 
Until we do that we cannot consider this homeland secure.
    That ends this hearing for this morning. We will have other 
questions and we will submit them in writing, and I am--please 
encourage you to give us a prompt response. We stand adjourned.
    [Whereupon, at 11:38 a.m., the subcommittees were adjourned 
and the hearings were concluded.]

                                 <all>

</pre></body></html>
